<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]




 
   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies for inclusion in the 
record. The submitted materials relate to the fiscal year 2015 
budget request for programs within the subcommittee's 
jurisdiction.]
      Prepared Statement of the Academy of Nutrition and Dietetics
    Dear Subcommittee on Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies: The Academy of Nutrition and 
Dietetics appreciates the opportunity to submit testimony for the 
fiscal year 2015 appropriations. The Academy is the world's largest 
organization of food and nutrition professionals, and is committed to 
improving the nation's health with nutrition services and interventions 
provided by registered dietitian nutritionists. Nationwide, The Academy 
has over 75,000 members.
    As Congress begins work on fiscal year 2015 appropriations, we 
strongly urge you to fully fund Federal nutrition programs that will 
provide a return on investment to improve health. Investment in these 
programs through the appropriations process will help prevent costly 
healthcare expenses due to chronic diseases.
                agriculture, food and nutrition research
    As you consider the fiscal year 2015 budget, we ask for your 
support of the President's budget for the National Institute of Food 
and Agriculture (NIFA). The National Institute of Food and Agriculture 
(NIFA) funds agriculture and nutrition research that is vital for 
communities and the nation to have new technologies and intervention to 
have healthy Americans. In doing so, we ask that you:
  --Continue to support NIFA research efforts that work with local 
        communities and states to conduct high-quality research to help 
        assure that our food supply is adequate for the future; and
  --Consider restoring the funding for Agricultural Research Services 
        (ARS) to 2014 levels. ARS is an essential in-house, scientific 
        research agency. This agency often provides the solutions to 
        food and nutrition problems that affect Americans every day, 
        from field to table.
            supplemental nutrition assistance program (snap)
   nutrition education and obesity prevention grant program (snap-ed)
    SNAP helps to put food on the table for about 47 million people 
each month. SNAP participation closely follows changes in unemployment 
and underemployment and so is responsive to changes in need. SNAP-Ed 
empowers participants to make healthy food choices using this knowledge 
received from the innovative and engaging nutrition education to 
purchase, prepare and store nutritious foods. During this 
appropriations cycle, we ask that you:
  --Support SNAP as it continues to respond to the elevated need for 
        food assistance with timely benefits; and
  --Fund SNAP-Ed at $407 million, as mandated in the Food and Nutrition 
        Act of 2008.
             the emergency food assistance program (tefap)
    TEFAP is a win/win for farmers, producers, processors and low-
income consumers to assure access to healthy foods through our nation's 
charitable food system, delivering nutrient-rich food through pantries, 
shelters, and kitchens and providing support for storage and 
distribution. The TEFAP program staff works in tandem with SNAP-Ed 
staff to help assure the consumption of these foods through nutrition 
education including preparation and safe storage. We ask that you:
  --Provide the authorized funding level of $100 million for TEFAP 
        storage and distribution funds. The current funding level of 
        $49 million only covers 33 percent of the cost of distributing 
        TEFAP commodities.
  --Fund TEFAP commodities at $324 million, as provided by the 2014 
        farm bill. TEFAP commodities are distributed to low-income 
        people through food banks, pantries, kitchens and shelters.
               commodity supplemental food program (csfp)
    CSFP provides a nutritious monthly food package to approximately 
580,000 low-income participants, primarily to vulnerable low-income 
seniors. The CSFP food package is designed to meet the specific 
nutritional needs of this target population, combating the poor health 
conditions often found in food insecure seniors. We ask that you:
  --Fund CSFP at $208 million, the amount necessary to maintain current 
        caseload; and
  --Provide an additional $5 million allow CSFP to serve the six 
        additional states who meet the criteria set out by USDA for a 
        quality program (CT, HI, ID, MD, MA, RI).
                        child nutrition programs
    Child nutrition programs operate in school, daycare, after school, 
and summer settings, providing nutritious meals and snacks to fuel 
children with the energy they need to thrive in the classroom and 
beyond.
School Meals
    We ask that you:
  --Support the National School Lunch Program, School Breakfast 
        Program, Summer Food Service Program, Child and Adult Care Food 
        Program, and the Fresh Fruit and Vegetable Program to provide 
        children with nutritious meals and snacks; and
  --Provide $35 million in grants for school meal equipment to help 
        schools upgrade their kitchen equipment. This will allow 
        schools to serve healthier meals at a more reasonable price, 
        and will expand access to feeding programs. This is a long 
        overdue change for schools.
Special Supplemental Nutrition Program for Women, Infants and Children 
        (WIC)
    WIC serves low-income women and young children until the age of 
five, providing them with a nutritious monthly food package, nutrition 
education, healthcare and social service referrals to ensure that this 
at-risk population receives the quality nutrition and healthcare 
essential for healthy growth and development. Please:
  --Fund WIC at $6.823 billion to support a projected caseload of 8.7 
        million participants. Monitor food cost inflation and caseload 
        to ensure that appropriated levels meet anticipated needs. 
        Provide $150 million to replenish the WIC Contingency Fund for 
        unforeseen food cost or participation increases.
  --Provide $60 million for breastfeeding peer counselors to improve 
        breastfeeding initiation and duration among the target 
        population, $30 million for Management Information Systems/
        Electronic Benefits Transfer (EBT) funding to improve client 
        access, retailer efficiency, and program integrity, $14 million 
        for infrastructure improvements, and $5 million for program 
        research and evaluation.
             supporting local farmers and improving health
    To support local farmers while improving the health of Americans, 
we ask that you:
  --Provide $17 million for WIC Farmers' Market Nutrition Program 
        (FMNP), which provides vouchers to low-income women, infants, 
        and children;
  --Provide $21 million for the Seniors Farmers' Market Nutrition 
        Program, which provides vouchers for low-income seniors; and
  --Provide $9 million for Community Food Projects to meet food needs 
        of low-income people, increase community self-reliance, and 
        promote comprehensive responses to food, farm and nutrition 
        issues.
                           developing leaders
    To ensure a pipeline of leaders dedicated to improving health and 
reducing hunger in our country, we ask that you:
  --Provide $3 million for the Congressional Hunger Center for the 
        operation of the Bill Emerson National Hunger Fellowships and 
        Mickey Leland International Hunger Fellowships, which focus on 
        developing solutions to hunger based on experience at local 
        field placements and national policy organizations.
    We appreciate your support on these recommendations. We know that 
these expenditures will make for smart, long-term investments into the 
health of Americans.

    [This statement was submitted by Mary Pat Raimondi MS, RD Vice 
President, Strategic Policy and Partnerships Academy of Nutrition and 
Dietetics.]
                                 ______
                                 
      Prepared Statement the of Academy of Nutrition and Dietetics
    The Academy of Nutrition and Dietetics has submitted testimony for 
the fiscal year 2015 appropriations. We would like to add an additional 
request that will help improve the health of Americans. As we shared in 
our previous letter, the Academy is the world's largest organization of 
food and nutrition professionals, and is committed to improving the 
nation's health with nutrition services and interventions provided by 
registered dietitian nutritionists. Nationwide, the Academy has over 
75,000 members.
    The newly-passed Agricultural Act of 2014 offers new opportunities 
for healthy foods to be incorporated in the diet. Pulse foods are some 
of the best sources of important nutrients including dietary fiber, 
vegetable protein, iron and potassium that one can have in his or her 
diet. Introducing children to pulse foods early in life will help 
develop life-long habits to incorporate these foods in their diets. 
Encouraging healthy eating habits in our school children will help 
prevent chronic health issues, like obesity and type-2 diabetes. Pulse 
foods are also known to be economical sources of protein that can help 
to reduce hunger throughout the world.\1\ Having research dollars for 
pulse foods will promote the benefits and identify new ways of 
increasing consumption of these foods. We asked that you include the 
following in funding:
---------------------------------------------------------------------------
    \1\ Dilis V, Trichopoulou A (2009) Nutritional and health 
properties of pulses. Mediterranean Journal of Nutrition and Metabolism 
1: 149-157.
---------------------------------------------------------------------------
pulse crop health initiative-fiscal year 2015 appropriation request $25 
                                million
    The Pulse Crop Health Initiative was included in Section 7209 (e) 
of the Research Title of the Agricultural Act of 2014. The law provides 
an authorization of $125 million dollars over the next 5 years to find 
solutions, through research on pulse crops, to the critical health, 
functionality, sustainability and food security challenges facing U.S. 
citizens and the global community. The initiative will focus on three 
major research areas: health and nutrition, increasing functionality 
and enhancing productivity and sustainability of pulse crops. We ask 
you to fully fund the Pulse Crop Health Initiative in the Agriculture 
Act of 2014 with an appropriation of $25 million for fiscal year 2015.

   school pulse crop products program-fiscal year 2015 appropriation 
                           request $2 million
    The Pulse Crop Products program was included in Section 4213 of the 
Nutrition Title of the Agricultural Act of 2014. The law authorizes $10 
million dollars over the next 5 years. The purpose of the Pulse Crop 
Products program is to increase awareness of nutrient-dense pulse crops 
and increase their use in school meals. We ask you to fully fund the 
School Pulse Crop Products program in the Agricultural Act of 2014 with 
an appropriation of $2 million for fiscal year 2015.

    [This statement was submitted by Mary Pat Raimondi, Vice President, 
Strategic Policy and Partnerships of the Academy of Nutrition and 
Dietetics.]
                                 ______
                                 
  Prepared Statement of the Agriculture and Food Research Initiative 
                            (AFRI) Coalition
    The Agriculture and Food Research Initiative (AFRI) Coalition is 
pleased to submit the following testimony on the fiscal year 2015 
appropriation for the Department of Agriculture's (USDA) Agriculture 
and Food Research Initiative (AFRI). The AFRI Coalition, comprised of 
more than forty scientific societies and science advocacy organizations 
is dedicated to raising awareness of the importance of AFRI and the 
critical research it funds.
    The AFRI Coalition is concerned with the Administration's proposed 
funding level for AFRI, and strongly urges Congress to fund AFRI with 
at least $360 million in fiscal year 2015, far less than its authorized 
level of $700 million.
    AFRI, administered by the National Institute of Food and 
Agriculture (NIFA), is the premier competitive grants program for 
fundamental and applied research, extension and education in support of 
our nation's food and agricultural systems. AFRI funds high priority 
research grants in areas of critical concern to the United States 
including: food safety and security, agricultural production and 
products, plant and animal health, nutrition and human health and 
agricultural economics and others.
    Research supported by AFRI aims to solve critical scientific, 
agricultural and societal problems and deserves steady, predictable and 
sustainable funding. The future of our food and agricultural systems, a 
basis for human health, rely on it. Additionally, for every Federal 
dollar spent on publicly funded agricultural research, $20 or more is 
generated in the U.S. economy.\1\ A strengthened commitment to 
investments in science for food and agriculture, especially during 
difficult economic times, is essential to maintain and grow our 
nation's food, economic and national security.
---------------------------------------------------------------------------
    \1\ The Economic Returns to U.S. Public Agricultural Research, 
Alston, Julian M.; Andersen, Matthew A.; James, Jennifer S.; Pardey, 
Philip G., University of Minnesota, Department of Applied Economics, 
July 2011, http://purl.umn.edu/95522.
---------------------------------------------------------------------------
    The AFRI Coalition appreciates the opportunity to provide written 
testimony and would be pleased to assist the Subcommittee as it 
considers the fiscal year 2015 appropriation for AFRI. To learn more 
about the Coalition or to see a list of members, please visit: http://
africoalition.org.
                                 ______
                                 
         Prepared Statement of the Alliance for a Stronger FDA
    Chairman Pryor and Ranking Member Blunt: The Alliance for a 
Stronger FDA respectfully requests that the Subcommittee recognize the 
critical role and expanding public health mission of the U.S. Food and 
Drug Administration by providing fiscal year 15 budget authority 
appropriations of $2.784 billion for the agency. This amount is $223 
million above fiscal year 14 BA appropriations funding and $200 million 
above the President's request for BA appropriations.
    The Alliance is a 200-member coalition of all FDA's stakeholders--
consumers, patients, health professionals, trade groups and industry. 
Our sole purpose is to advocate for increased appropriated resources 
for the FDA, an agency that oversees 100 percent of drugs, vaccines, 
medical devices, dietary supplements and personal care products and 80 
percent of our nation's food supply.
    Altogether, the products and industries regulated by FDA account 
for nearly 25 percent of all consumer spending in the United States. A 
strong FDA is essential to the U.S. economy, jobs, and the balance of 
trade and is critical to homeland security. Unlike other U.S. 
regulatory agencies, all FDA stakeholders (including consumers, 
patients and industry) support increased funding for the agency.
    The current year's budget authority (BA) appropriation of $2.561 
billion helped FDA rebound from the fiscal year 13 sequester and regain 
and slightly advance above its fiscal year 12 funding level. However, 
in the interim, the continuing growth of FDA's responsibilities has 
meant that the appropriation is still dramatically less than the amount 
the agency needs. The agency's mission is ``at risk.''
   recognizing that fda's public health mission is vital and growing
    New laws take enormous resources to implement. Once implemented, 
they permanently increase agency responsibilities. Since 2009, Congress 
has identified a number of additional public health needs that fall 
within FDA's jurisdiction, resulting in at least seven new laws:
  --Family Smoking Prevention and Tobacco Control Act (2009)
  --Biologics Price Competition and Innovation Act (2010)
  --Secure and Responsible Drug Disposal Act (2010)
  --Combat Methamphetamine Enhancement Act (2010)
  --Food Safety Modernization Act (2011),
  --FDA Safety and Innovation Act (2012), including re-authorization of 
        the Best Pharmaceuticals for Children Act and the Pediatric 
        Research Equity Act
  --Drug Quality and Security Act (2013)
    Other growing responsibilities include: globalization, scientific 
complexity, promoting innovation to benefit patients and consumers, 
public health emergencies, national security, and increasing industry 
size and activity. In sum, the current appropriations level is totally 
inadequate to make up for decades of underfunding AND new and growing 
responsibilities, including but not limited to new laws enacted since 
2009.
   globalization and scientific complexity require fda to expand its 
activities each year to protect and expand public and individual health
    Even were Congress not active in legislating new mandates for FDA, 
the agency's mission and responsibilities would grow enormously each 
year for reasons unrelated to new laws. Our remarks will concentrate on 
two: globalization and increasing scientific complexity.
    One of FDA's highest priorities over the last 6 years has been to 
adjust for the accelerating globalization in all product categories 
overseen by the agency. For example:
  --Food Imports are growing 10 percent annually. Altogether, 10-15 
        percent of all food consumed in the U.S. is imported. This 
        includes nearly 2/3 of fruits and vegetables and 80 percent of 
        seafood.
  --Device Imports are also growing about 10 percent annually. 
        Currently, about 50 percent of all medical devices used in the 
        US are imported.
  --Drug Imports are growing quickly, about 13 percent annually. About 
        80 percent of active pharmaceutical ingredients (API) are 
        manufactured abroad, as are 40 percent of finished drugs.
    Inspections at U.S. ports-of-entry are critical, but ultimately 
less than 2 percent of shipments can be inspected. Instead, FDA is 
following Congressional direction by increasing foreign inspections and 
establishing foreign offices to work globally to improve the standards 
and quality of products entering the U.S.
    The value of this approach cannot really be quantified. For 
example, the cost of illness, death and lost markets--from just a 
single bad actor in a single food category--can cost as much or more 
than the entire investment we put into FDA's food safety activities. 
Drugs and devices are harder to track for a variety of reasons, but 
there is no reason to doubt a similar effect.
    Greater scientific complexity is diffused into every part of the 
agency and its mission. FDA has adopted a number of initiatives, 
including creation of a commissioner-level science office, investment 
in regulatory science, expanded and more intensive training, changes in 
time and manpower allotments for complex assignments, and significant 
reworking of the drug and medical device approval pathways to benefit 
patients. Further, food and medical product safety inspections have 
also become more complex--requiring more scientific training, more 
preparation and, often, more time during the inspection itself.
    Specifically, we have identified five areas in which FDA is 
improving product reviews to respond to more complex science and assure 
that patient need for new therapies is being met. Each comes at a cost 
in additional dollars/manpower:
  --Sponsors Need More Meeting Time and Other Feedback from FDA
  --Applications Require More Patients, Study Sites and Analysis
  --Enhanced Timeliness and Consistency of Product Review
  --Expansion of Pre-and Post-Market Safety
  --Enhance Innovation, Speed Approvals
    A 2011 study quantified some of the changes that require more FDA 
resources:

 
----------------------------------------------------------------------------------------------------------------
                                                                                                   Change 00--11
                All Therapeutic Areas, All Phases                     00--03          08--11             %
----------------------------------------------------------------------------------------------------------------
Unique medical and compliance procedures per protocol (median)..            20.5            30.4             48%
Total procedures per protocol (median)..........................           105.9           166.6             57%
Total investigative site work burden (median units).............            28.9            47.5             64%
Total eligibility criteria......................................              31              46             58%
Median study duration in days...................................             140             175             25%
Median number of CRF pages per protocol (CRF = case report                    55             171            227%
 forms).........................................................
----------------------------------------------------------------------------------------------------------------
 Source: Getz, Campo, Kaitin. Variability in Protocol Design Complexity by Phase and Therapeutic Area, DIJ 2011
  45(4); 413-420; Tufts Center for the Study of Drug Development

 fda's vital, complex world-wide public health responsibilities cannot 
be accomplished with its existing budget. the agency's mission is ``at 
                                risk.''
    FDA is a staff-intensive organization. More than 80 percent of its 
budget is devoted to staff-related costs. If the agency budget fails to 
grow over the next few years:
  --food will be less safe and consumers put at risk,
  --drug and device reviews will be slower, conflicting with promises 
        made to consumers, patients and companies,
  --problems with imports and globalization will become more numerous, 
        and
  --critical efforts to modernize the agency and improve its support 
        for innovation will stall.
    FDA has a broad mandate for a relatively small agency. Its 
activities are a core function of government and its mission and 
responsibilities are increasing. FDA should be a priority and it 
deserves exceptional status when appropriations decisions are made.

    [This statement was submitted by Kasey Thompson, President, 
Alliance for a Stronger FDA.]
                                 ______
                                 
 Prepared Statement of the American Commodity Distribution Association
    On behalf of the American Commodity Distribution Association 
(ACDA), I respectfully submit this statement regarding the budget 
request of the Food and Nutrition Service for inclusion in the 
Subcommittee's official record. ACDA members appreciate the 
Subcommittee's support for these vital programs.
    We urge the subcommittee to fully fund administrative expense 
funding for the Emergency Food Assistance Program (TEFAP) at $100 
million; to approve sufficient funding to maintain caseload in the 
Commodity Supplemental Food Program (CSFP) and provide an increase of 
$5 million to begin operations in six additional states approved by 
USDA, and to actively monitor three matters: further changes in sodium 
standards for school meal programs, recommendations of the Multiagency 
Task Force on commodity procurement required by Section 4205 of the 
Agricultural Act of 2014 (Public Law 113-79), and the National 
Commission on Hunger established by Section 743 of Division A of the 
Consolidated Appropriations Act of 2014 (Public Law 113-76).
    ACDA is a non-profit professional trade association, dedicated to 
the growth and improvement of USDA's Commodity Food Distribution 
Program. ACDA members include: state agencies that distribute USDA-
purchased commodity foods; agricultural organizations; industry; 
associate members; recipient agencies, such as schools and soup 
kitchens; and allied organizations, such as anti-hunger groups. ACDA 
members are responsible for distributing over 1.5 billion pounds of 
USDA-purchased commodity foods annually through programs such as 
National School Lunch Program, the Emergency Food Assistance Program 
(TEFAP), Summer Food Service Program (SFSP), Commodity Supplemental 
Food Program (CSFP), Charitable Institution Program, and Food 
Distribution Program on Indian Reservations (FDPIR).
         itefap food dollars now available for two fiscal years
    We previously called upon the subcommittee to make TEFAP food 
dollars available for two fiscal years, as was done under ARRA. This 
important change was included in the Agricultural Act of 2014, and we 
are thankful for it. We also very much appreciate the increase in food 
funds from $268,750,000 in fiscal year 2014 to $324,000,000 provided by 
the same Act. They are most certainly needed.
    If food orders are cancelled by either USDA or vendors for any 
reason near the end of the Federal fiscal year, state agencies will now 
have the ability to carryover these unanticipated balances to make 
responsible decisions and to take maximum advantage of available 
resources.
    ACDA looks forward to working with USDA for the effective 
implementation of this carryover authority.
         fully fund tefap administrative funds at $100 million
    We continue to urge the subcommittee to fully fund TEFAP 
Administrative Funds at $100 million, and believe that the notable 
increase in food funds will result in more food, more handling, and 
more storage. As a result, operating expenses will most certainly 
increase. In our view, so should the funding for these operating 
expenses. .
    Food banks continue to face increased demands, particularly with 
the reduction in SNAP benefits imposed last November. Higher food 
prices and tighter food supplies are a significant challenge, so we are 
very supportive of the increased food support provided by the 
Agricultural Act of 2014. Food banks for the past several years have 
found that they have had little choice but to convert food dollars to 
administrative expense funds in order to maintain their operations. We 
urge the Committee to not force this choice upon food banks that are 
experiencing reduced private donations in addition to increased 
demands.
          funding for the commodity supplemental food program
    ACDA supports the President's request for $206,682,000 to maintain 
the current caseload for the Commodity Supplemental Food Program 
(CSFP), and urges the Committee provide an additional $5 million to 
begin CSFP operations in six states that now have USDA-approved state 
plans--Connecticut, Hawaii, Idaho, Maryland, Massachusetts and Rhode 
Island. This additional funding would make CSFP available in 45 states. 
CSFP overwhelmingly serves elderly individuals, many of whom are 
homebound, and is being converted to an elderly-only program as a 
result of Section 4102 of the Agricultural Act of 2014.
    monitoring further changes in sodium standards for school meals
    As we stated in our 2014 Issue Paper, in 2012, Congress enacted a 
provision of law requiring USDA to review and evaluate its rule 
reducing the amount of sodium allowable in school meals for the rule's 
costs, practicality and scientific support. ACDA supports that 
provision, but is concerned that USDA will not issue its findings and 
make any resulting changes in the sodium standards in a timely fashion. 
The Department has indicated that it will report in 2016, which is 2 
years after the information is needed in order for manufacturers and 
others in the supply chain to develop, test and market new items before 
the next step in the sodium standards goes into effect. School Food 
Service authorities have made significant changes in the nutritional 
quality of foods served as part of the school lunch and breakfast 
program, and are embarking on additional changes in foods served as 
part of a la carte meals and sold elsewhere throughout the school. ACDA 
is committed to improving the quality of school meals, but believes 
that there needs to be sufficient lead time before the required 
implementation of any further changes in sodium standards. We urge the 
Congress to require that any further changes in sodium standards be 
based on sound science, and that sufficient lead time for the 
development, testing, and production of new products be provided before 
any further changes in sodium standards are required. We also urge the 
Appropriations Committee to continue to monitor this important matter 
should further action be needed.
  interagency panel for evaluation and improvement of the usda foods 
                                program
    ACDA applauds the inclusion of Section 4205 of the Agricultural Act 
of 2014, establishing a multiagency task force at USDA for continuous 
evaluation and improvement of the USDA Foods program. We thank the Food 
and Nutrition Service, the Agricultural Marketing Service, Farm 
Services Agency, and the Food Safety and Inspection Service for the 
efforts they have made to improve procurement operations over the past 
few years following meeting with ACDA. We strongly support the USDA 
Foods program and want to be sure it works effectively. We are prepared 
to work with all of these USDA agencies and our members to develop any 
information that USDA may require. We encourage the Committee to 
monitor developments as this task force gets underway.
                     national commission on hunger
    ACDA looks forward to the activities of the National Commission on 
Hunger established by the Consolidated Appropriations Act, and would be 
pleased to provide information regarding the operation of commodity-
based food assistance programs. We know that most Commission members 
are yet to be appointed and its agenda fully developed. ACDA hopes that 
at least one Commission member will have experience with commodity 
program operations because this experience can be invaluable to the 
Commission's task. ACDA believes that commodities provided to school 
food programs, to TEFAP, to CSFP, and to FDPIR are an important link 
between producers and recipients. They are cost effective and often 
exceed commercial standards, enabling USDA to be a market influencer.
    We look forward to continuing to partner with you and USDA in the 
delivery of these important food assistance programs.
    [This statement was submitted by Wanda Shepherd, President, 
American Commodity Distribution Association.]
                                 ______
                                 
       Prepared Statement of the American Farm Bureau Federation
    The American Farm Bureau Federation has identified the Renewable 
Energy for America Program (REAP) as its program for emphasis and 
funding in the fiscal year 2015 agriculture appropriations bill. REAP 
offers a combination of grants and guaranteed loans for agricultural 
producers to purchase renewable energy systems.
    Farm Bureau has identified eight other areas of importance for 
funding. They are:
                  programs that promote animal health
    Farm Bureau supports a $2 million increase to the Animal and Plant 
Health Inspection Service (APHIS) for voluntary Animal Disease 
Traceability (ADT), offset by a $2 million decrease for Avian Influenza 
(AI) related programs. The ADT program is essential for animal health, 
while avian health has generally improved because of success in 
decreasing the global occurrence of AI.
    Farm Bureau supports additional funding through the Agricultural 
Research Service and National Institute for Food and Agriculture (NIFA) 
for dealing with porcine epidemic diarrhea virus (PEDv). PEDv is an 
especially virulent disease for which there is currently no vaccine.
    Farm Bureau supports $4.8 million for the Veterinary Medicine Loan 
Repayment Program (VMLRP) administered by NIFA. VMLRP veterinarians 
ensure animal health and welfare, while protecting the nation's food 
supply.
    Farm Bureau supports funding $10 million for the Veterinary 
Services Grant (VSG) program, which was authorized in the Agricultural 
Act of 2014. The VSG program helps food animal veterinarians become 
established in rural communities.
    Farm Bureau supports funding $15 million for the National Animal 
Health Laboratory Network (NAHLN), which was authorized in the 
Agriculture Act of 2014. The NAHLN serves as our nation's most vital 
early warning system for emerging and foreign animal diseases.
    Farm Bureau supports funding $10 million for Section 1433 in the 
Agriculture Act of 2014, which establishes a new competitive research 
grants mechanism to address critical priorities in food security, 
zoonotic disease and stewardship.
    Farm Bureau supports $144.5 million for the FDA's Center for 
Veterinary Medicine (CVM). The CVM oversees the safety of animal drugs, 
feeds and biotechnology-derived products.
                   programs that promote conservation
    Farm Bureau supports funding for conservation programs but 
prioritizes working lands programs over retirement-type programs. 
Farmers and ranchers have made great strides in conserving our natural 
resources and these gains can continue through working lands programs.
       programs that expand international markets for agriculture
    Farm Bureau supports funding at authorized levels for:
  --The Foreign Agricultural Service to maintain services that expand 
        agricultural export markets.
  --Export development and expansion programs such as the Market Access 
        Program, Foreign Market Development Program, Emerging Markets 
        Program and Technical Assistance for Specialty Crops Program. 
        These effective programs have resulted in increased demand for 
        U.S. agriculture and food products abroad.
  --Public Law 480 programs which provide foreign food aid by 
        purchasing U.S. commodities.
  --APHIS Plant Protection and Quarantine personnel and facilities, 
        which protect U.S. agriculture from costly pest problems that 
        enter from foreign lands.
  --APHIS trade issues resolution and management activities that are 
        essential for an effective response when other countries raise 
        pest and disease concerns (i.e., sanitary and phytosanitary 
        measures) to prohibit the entry of American products.
  --APHIS Biotechnology Regulatory Services, which oversees the permit, 
        notification and deregulation process for plant biotechnology 
        products.
  --The U.S. Codex Office, which is essential to improving the 
        harmonization of international science-based standards for the 
        safety of food and agriculture products.
      programs that enhance and improve food safety and protection
    Farm Bureau supports funding for food protection at the Food and 
Drug Administration and Food Safety Inspection Service (FSIS) that is 
directed to the following priorities: Increased education and training 
of inspectors; Additional science-based inspection, targeted according 
to risk; Effective inspection of imported food and feed products; 
Research and development of scientifically based rapid testing 
procedures and tools; Accurate and timely response to outbreaks that 
identify contaminated products, remove them from the market and 
minimize disruption to producers; and Indemnification for producers who 
suffer marketing losses due to inaccurate government-advised recalls or 
warnings.
    Farm Bureau supports funding for a National Antimicrobial Residue 
Monitoring System (NARMS) to detect trends in antibiotic resistance. 
NARMS protects human and animal health through integrated monitoring of 
antimicrobial resistance among foodborne bacteria.
    Farm Bureau supports funding for the Food Animal Residue Avoidance 
Databank (FARAD) at the authorized level of $2.5 million. FARAD aids 
veterinarians in establishing science-based recommendations for drug 
withdrawal intervals.
    Farm Bureau opposes the administration's request for new user fees 
for inspection activities. Food safety is for the public good, and as 
such, it is a justified use of public funds.
    Farm Bureau opposes any provision which would prohibit FSIS from 
inspecting equine processing facilities under the Federal Meat 
Inspection Act. Prohibiting the harvest of livestock for reasons 
unrelated to food safety or animal welfare sets an extremely dangerous 
precedent for banning meat inspection from every species, including 
beef, pork, lamb and poultry.
               programs that ensure crop protection tools
    Farm Bureau supports maintaining the current funding level for the 
Minor Crop Pest Management (IR-4) within NIFA Research and Education 
Activities. Developing pest control tools has high regulatory costs, 
and public support has been needed to ensure that safe and effective 
agrichemicals and biopesticides are available for small, specialty crop 
markets.
    Farm Bureau supports maintaining funding for the National 
Agricultural Statistical Service (NASS) in general and specifically 
points out the agricultural chemical-use surveys for fruits, 
vegetables, floriculture and nursery crops. NASS surveys provide data 
about the use of agricultural chemicals involved in the production of 
food, fiber and horticultural products, just as their overall effort is 
critical to understanding the performance of the sector as a whole.
               programs that strengthen rural communities
    Farm Bureau supports USDA implementing a regional approach to give 
its Rural Development (RD) programs greater flexibility and promote 
innovation in rural regions.
  --Farm Bureau supports maintaining funding at authorized levels for:
  --The Value-Added Agricultural Producer Grants, Rural Innovation 
        Initiative, Rural Microentrepreneur Assistance Program, and 
        Business and Industry Direct and Guaranteed Loans, which foster 
        business development in rural communities.
  --Rural Utilities Service for rural broadband and telecommunications 
        services, and the Distance Learning and Telemedicine Program.
  --The Revolving Fund Grant Program for acquiring safe drinking water 
        and sanitary waste disposal facilities.
  --The Community Facility Direct and Guaranteed Loans, which funds the 
        construction, enlargement or improvement of essential community 
        facilities.
  --The Resource Conservation and Development Program, which helps 
        local volunteers create new businesses, form cooperatives and 
        develop agri-tourism activities.
  --The Beginning Farmer and Rancher Development Program, which 
        provides participants with the information and skills needed to 
        make informed decisions for their business.
  --Agriculture in the Classroom, which helps students gain greater 
        awareness of the role of agriculture in the economy and 
        society.
                programs that support wildlife services
    Farm Bureau supports maintaining the funding level for APHIS 
Wildlife Services programs. Wildlife Services works to prevent and 
minimize an estimated $1 billion worth of wildlife damage, while 
protecting human health and safety from conflicts with wildlife.
                          research priorities
    Agricultural research is vital, particularly research focused on 
meeting the growing challenges of production agriculture. The United 
Nations' Food and Agriculture Organization predicts that farmers will 
have to produce 70 percent more food by 2050 to feed an additional 2.3 
billion people around the globe. America's farmers are the most 
efficient in the world, but without a commitment to further 
agricultural research and technological advancement, even America's 
farmers could be hard-pressed to meet these challenges.
    [This statement was submitted by Bob Stallman, President, American 
Farm Bureau Federation.]
                                 ______
                                 
  Prepared Statement of the American Honey Producers Association and 
                     American Beekeeping Federation
    Chairman Pryor and Members of the Subcommittee, our names are Randy 
Verhoek, President of the American Honey Producers Association (AHPA) 
and Tim Tucker, President of the American Beekeeping Federation (ABF). 
We are pleased today to submit the following statement for the record 
on behalf of our two organizations. Collectively, AHPA and ABF 
represent every type of beekeeper across the country, from hobbyists on 
up to the very largest commercial honey producers and pollinators. The 
purpose of this statement is to bring to your attention the continued 
threats faced by American beekeepers and the risk those threats pose to 
billions of dollars in U.S. agriculture that rely upon honey bee 
pollination services. To address these threats, AHPA and ABF strongly 
support the President's fiscal year '15 budget proposal and 
respectfully request that the attached funding increases ($25 million 
for a NIFA Pollination and Pollinator Health (PPH) Institute; a $4 
million increase for ARS honey bee research within crop production 
funds; and $2 million increase for NASS honey bee surveys and studies) 
and report language are included in the fiscal year '15 annual 
appropriations bill.
    A 2013 Time Magazine cover story and thousands of other magazines, 
newspapers, media outlets and government reports have documented the 
scourge of Colony Collapse Disorder (CCD) and other serious declines in 
honey bee health since 2006. Unfortunately, those health challenges 
continue to result in drastic bee colony losses year over year. Still 
lacking a definitive understanding of the causes after more than 8 
years since the onset of CCD, the scientific, agricultural and consumer 
communities have grown increasingly concerned that more than $20 
billion of pollinator-dependent U.S. agricultural output and a full 
one-third of our nation's food supply is at serious risk. Just last 
year the National Agricultural Statistics Service (NASS) estimated more 
than 35 percent of America's bee colonies did not survive the winter 
season, and even greater losses were realized by most commercial 
beekeepers, on average 45 percent. While science has yet to determine a 
definitive cause, the challenges to honey bee health are clearly multi-
faceted, requiring resource intensive and high priority study. USDA has 
done great work in recent years within its resource constraints, but 
its research and other programmatic initiatives are woefully 
underfunded and in need of exponentially increased investments that are 
commensurate with the seriousness of the challenges they face.
    As a result, AHPA and ABF strongly support the President's fiscal 
year '15 budget proposal and respectfully request that the attached 
funding increases and report language are included in the fiscal year 
'15 annual appropriations bill. Doing so will ensure that USDA can, 
among other things, sufficiently enhance its Federal laboratory and 
competitive grant research agenda, strengthen pollinator habitat across 
the country, double the number of acres in the Conservation Reserve 
Program that are dedicated to pollinator health, and increase funding 
for surveys to determine the impacts on pollinator losses, all of which 
are necessary next steps in the battle to ensure commercially viable 
honey bee populations throughout the United States.
    As always, we thank you for your past support of essential honey 
bee research and for your understanding of the critical importance that 
Federal funding plays in ensuring a healthy honey bee supply ready to 
meet the nation's pollination demands.
                  agricultural research service (ars)
  --Funding increase for ARS honeybee research:
    --Request of $4 million increase in crop production funding for 
            additional Federal laboratory research into honey bee 
            health and Colony Collapse Disorder, including research 
            into bee health improvement and risk assessment of 
            pesticides, bee epidemiology, best management practices and 
            genetics relating to diseases and pests of pollinators. 
            This high priority increase should be offset by redirecting 
            funds from ongoing, lower priority research as detailed in 
            the Administration's fiscal year '15 budget documents.
  --ARS Report language:
    --``The Committee is aware that pollinators are responsible for the 
            production of one-third of the Nation's food supply, but 
            the number of managed honeybee colonies in the United 
            States has dropped in half since 1940. Because of the 
            importance of pollinators in the production of the Nation's 
            food supply and their impact on the stability of our 
            agricultural economy, the Committee encourages ARS to 
            increase resources dedicated to protecting the health of 
            both honeybees and other native bees, including continued 
            research into colony collapse disorder.''
  --ARS Report language:
    --``ARS is encouraged to study the feasibility of conducting 
            Federal honey bee research in California with the support 
            of a cooperator university that is well situated to conduct 
            field and other research vital to honey bees and the many 
            specialty crops that rely on them. ARS is also encouraged 
            to report on the feasibility of modernizing the honey bee 
            research laboratory in Baton Rouge, which was included in 
            the agency's 2012 capital investment strategy report. 
            Finally, ARS is encouraged to consider investing additional 
            research dollars with Federal laboratories in the upper 
            Great Plains where the largest number of honey bee colonies 
            are available for research during the honey production 
            season.''
           national institutes of food and agriculture (nifa)
  --Funding for Pollination and Pollinator Health Institute:
    --Request $25 million in funding, available until expended, for a 
            virtual Pollination and Pollinator Health (PPH) Institute 
            that will foster industry and researcher collaboration and 
            utilize input from stakeholders to develop priorities for 
            addressing biological, environmental and management issues 
            associated with the wide-scale decline of honey bees and 
            other pollinators nationwide. No fewer than $5 million of 
            these funds should be designated for pollinator health and 
            Colony Collapse Disorder research.
  --Report Language:
    --``The Committee acknowledges NIFA's continued commitment to 
            pollinator research under the Agriculture and Food Research 
            Initiative, and it encourages increased prioritization of 
            pollinator and CCD research proposals.''
  --Report language:
    --``The Committee emphasizes the important role of the Specialty 
            Crop Research Initiative (SCRI) in addressing the critical 
            needs of the specialty crop industry through research and 
            extension activities, and it encourages NIFA to prioritize 
            proposals for and enhance its overall commitment to 
            identifying and addressing threats to pollinators from 
            pests and diseases.''
            national agricultural statistics service (nass)
  --Funding increase for enhanced NASS surveys:
    --Request of $2 million in increased funding to enhance its annual 
            survey of bee keepers to include questions related to 
            colony losses, pests and parasites, management practices, 
            crops pollinated and locations served, as well as estimates 
            of revenues and expenses, which will result in improved 
            baseline and annual data to determine the extent of CCD, in 
            addition to providing quantitative information on potential 
            causal factors, essential to the industry. This increase 
            should be offset by reductions consistent with those 
            identified in the Administration's fiscal year '15 budget 
            documents.
                                  nrcs
  --Report language:
    --``NRCS, under the Environmental Quality Incentives Program 
            (EQIP), provided $3 million in technical and financial 
            assistance for farmers and ranchers to help improve honey 
            bee health through better conservation practices that will 
            provide honey bees with nutritious pollen and nectar. 
            Because access to good forage is an ongoing challenge for 
            commercial beekeepers, the Committee supports continuing 
            and expanding this technical and financial assistance 
            program, and recommends that a significant portion of the 
            funds should be devoted to facilitating training by expert 
            researchers and beekeepers of NRCS officials and agents in 
            pollinator conservation practices.''

    [This statement was submitted by Mr. Randy Verhoek, President, 
American Honey Producers Association and Mr. Tim Tucker, President, 
American Beekeeping Federation]
                                 ______
                                 
         Prepared Statement of the American Society of Agronomy
    The American Society of Agronomy (ASA), Crop Science Society of 
America (CSSA), and Soil Science Society of America (SSSA) urge the 
subcommittee to support the following areas of the Department of 
Agriculture's (USDA) Research, Education, and Economics (REE) mission 
areas in fiscal year 2015 budget:
    $1.149 billion for the Agricultural Research Service (ARS)
    $1.341 billion for the National Institute of Food and Agriculture 
(NIFA)
    Within NIFA, we specifically support:
    $360 million for Agriculture and Food Research Initiative (AFRI).
    $244 million for Hatch Act formula funding
    The American Society of Agronomy (ASA), Crop Science Society of 
America (CSSA), and Soil Science Society of America (SSSA), represent 
over 18,000 members in academia, industry, and government, 12,500 
Certified Crop Advisers (CCA), and 781 Certified Professional Soil 
Scientist (CPSS), as the largest coalition of professionals dedicated 
to the agronomic, crop and soil science disciplines in the United 
States. We are dedicated to utilizing science to manage our 
agricultural system and sustainably produce food, fuel, feed, and fiber 
for a rapidly growing global population in the coming decades.
    Agriculture and agriculture-related industries contributed $742.6 
billion to the U.S. gross domestic product (GDP) in 2011, a 4.8-percent 
share. In 2012, 16.5 million full-and part-time jobs were related to 
agriculture--about 9.2 percent of total U.S. employment. However, even 
though increased agricultural productivity, arising from innovation and 
changes in technology, is the main contributor to economic growth in 
U.S. agriculture not all people at all times have to access to enough 
food for an active and healthy life. The global number of food-insecure 
people is estimated at 707 million in 2013, up 3 million from 2012. By 
2023, the number of food-insecure people is projected to increase 
nearly 23 percent to 868 million, slightly faster than population 
growth. The Nation's economic prosperity and security depend on our 
dedication to developing innovative, science-based solutions to meet 
our growing agricultural needs and managing efficient food systems.
    We must close the innovation deficit if the United States is to 
remain the world's innovation leader in agriculture. China continues to 
exhibit the world's most dramatic R&D growth at 20.7 percent annually, 
compared to the United States at 4.4 percent growth over the same time 
period. By 2009, agriculture R&D fell to a historically low 0.035 
percent share of the United States economy, a level far below the total 
U.S. R&D spending and that which is necessary to meet the critical 
challenges facing U.S. agriculture in the 21st century.
    ASA, CSSA, and SSSA supports $1.149 billion for Agricultural 
Research Service (ARS), USDA's intramural research and development 
programs, and applaud their ability to respond to and address 
agricultural problems of high national priority. ARS's 2,200 scientists 
are located at 90+ research locations, managing 800 research projects 
that help solve current and future crop and livestock production and 
protection, human nutrition, and environmental quality challenges. ARS 
programs and technologies ensure high-quality, safe food and other 
agricultural products; assess the nutritional needs of Americans; help 
to sustain a competitive agricultural economy; enhance the natural 
resource base and the environment; and, provide economic opportunities 
for rural citizens and communities. ARS also forms key partnerships 
that move new technologies to the marketplace.
    These partnerships are especially important to leverage during a 
time when our nation's economy remains vulnerable and Federal funding 
is constrained. Such cooperative research and development helps foster 
American businesses and enhances the position of the U.S. as a global 
leader in food, feed, fiber, and fuel production.
    We support $1.341 billion for the National Institute of Food and 
Agriculture (NIFA), USDA's suite of extramural programs whose primary 
role is to provide a link between Federal and state research 
initiatives through partnerships with educational institutions and 
competitive grant programs. Within NIFA, we specifically support:
  --Agriculture and Food Research Initiative (AFRI): ASA, CSSA, and 
        SSSA strongly endorse funding AFRI at $360 million, which is 
        about half of what was originally authorized in the Food, 
        Conservation, and Energy Act of 2008. AFRI is the premier 
        competitive grants program for fundamental and applied 
        research, extension and education in support of our nation's 
        food and agricultural systems. Investments in AFRI bolster work 
        performed by ARS, America's land grant colleges and 
        universities, the private sector and the American farmer.
  --Hatch Act Formula Funding: ASA, CSSA, and SSSA support $244 for 
        Hatch Act formula funds. These funds provide research grants to 
        our nation's great land-grant colleges and universities. Any 
        additional cuts to academic funding will reduce the ability of 
        our scientists and students to conduct imperative research such 
        as developing drought resistant wheat varieties.
    A balance of funding mechanisms, including intramural, competitive, 
and formula funding is essential to maintain the capacity of the United 
States to conduct both basic and applied agricultural research, to 
improve crop and livestock quality, and to deliver safe and nutritious 
food products while protecting and enhancing the nation's environment 
and natural resource base.
    Thank you for your consideration. For additional information or to 
learn more about the ASA, CSSA, and SSSA, please visit 
www.agronomy.org, www.crops.org, or www.soils.org.
    [This statement was submitted by the Karl E. Anderson, Director of 
Government Relations, American Society of Agronomy]
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM), the largest single 
life science Society with over 39,000 members, wishes to submit a 
statement in support of increased funding in fiscal year 2015 for the 
Food and Drug Administration (FDA). The FDA plays a unique and 
essential role in protecting public health by assuring the safety and 
efficacy of products accounting for more than 20 percent of all 
consumer spending in the United States. FDA science based regulatory 
oversight covers the Nation's food supply, human and veterinary drugs, 
vaccines and other biological products, medical devices and more. 
Market globalization and advances in science and technology have 
significantly increased FDA's responsibilities in recent years. FDA's 
current strategic priorities include modernizing regulatory science 
capabilities and building an integrated global food safety system.
    The ASM urges Congress to provide additional funding for the FDA in 
fiscal year 2015 because of the magnitude of its new responsibilities 
and the need for capacity in critical areas such as food safety.
    FDA actions, based on scientific best practices, include consumer 
alerts and warnings; production guidances and tools for food safety; 
approval of new devices, diagnostics, treatments and vaccines; 
strategies to reduce drug resistant microbial pathogens; and safer 
veterinary medicines and animal foods. Recent FDA investigations of 
foodborne disease outbreaks, using laboratory tests to confirm, linked 
illnesses to rice, cheeses and prepackaged salad products. In the past 
year, FDA consumer alerts warned against oysters linked to norovirus 
illness, nonsterile pharmacological solutions, and carrot and beet 
juices possibly contaminated with Clostridium botulinum bacteria.
                              fda science
    FDA has a strategic plan to strengthen regulatory science 
including, developing new tools, standards and methods to assess the 
safety, efficacy, quality and performance of FDA regulated products. 
FDA staff must access the best possible science and technology, as 
products move from premarket review to post market surveillance.
    Science underlies all the activities of FDA's seven product and 
research centers, as well as product regulatory actions. Public health 
often depends upon quick and accurate laboratory analyses. The Office 
of Regulatory Affairs (ORA) operates 13 high throughput field 
laboratories, situated across the United States and Puerto Rico. Lab 
results can support field investigations and regulatory decisions, 
including the thousands of ORA noncompliance citations issued each year 
to firms producing foods, medical devices, drugs, veterinary medicines, 
biologics, etc. Other FDA laboratories operated by the Agency's Foods 
and Veterinary Medicine Program support the broad responsibilities of 
the Centers for Food Safety and Applied Nutrition (CFSAN) and 
Veterinary Medicine (CVM).
    The ASM recommends that Congress fund the FDA at the highest level 
possible in fiscal year 2015.
    FDA scientists conduct research that advances the field of 
regulatory science, while protecting public health, including the 
following accomplishments in fiscal year 2013:
  --An FDA primate study found that FDA licensed acellular pertussis 
        vaccines are effective in preventing whooping cough, but those 
        vaccinated may still become infected with the causative 
        pathogen, Bordetella pertussis bacteria and spread infection to 
        others. Acellular vaccines using only portions of the bacteria 
        replaced whole cell pertussis vaccines the 1990s. The study was 
        initiated to help explain increasing whooping cough rates since 
        the 1980s.
  --A new FDA developed tool will improve security against intentional 
        food contamination. The software program helps owners and 
        operators of food facilities customize food defense plans to 
        minimize risk in their specific facility. Content of the Food 
        Defense Plan Builder tool is based on FDA guidance documents.
  --A handheld FDA developed device to identify counterfeit 
        antimalarial drugs, the Counterfeit Detection Device (CD-3), is 
        being field tested in Ghana under a multiagency partnership. 
        Counterfeit treatments complicate the already difficult global 
        battle against a killer of more than 660,000 each year and 
        whose causative pathogens are increasingly resistant to drugs. 
        Scientists at the FDA's Forensic Chemistry Center developed the 
        easy to operate tool, which uses light of varying wavelengths 
        to compare a product with an authentic sample.
                              food safety
    Food items account for about 75 percent of consumer spending on FDA 
regulated products. The food industry in the United States contributes 
about 20 percent of the Gross National Product, employs about 14 
million individuals and has ties to an additional 4 million jobs in 
related industries. FDA's Center for Food Safety and Applied Nutrition 
(CFSAN) generally oversees all domestic and imported food except meat, 
poultry and frozen, dried and liquid eggs, which are regulated by the 
Department of Agriculture (USDA).
    CFSAN regulates an estimated $417 billion worth of domestic food, 
$49 billion worth of imported foods and over $60 billion worth of 
cosmetics. Several industry and consumer trends have greatly increased 
CFSAN responsibilities, including globalization of the food supply and 
demand for imported foods, greater numbers of aging people vulnerable 
to foodborne illness, new food types and food production methods, 
emerging foodborne pathogens and growing concern over intentional food 
contamination.
    CFSAN responsibility stretches from the point of US entry or 
processing to their point of sale. There are more than 377,000 FDA 
registered food facilities (approximately 154,000 domestic and 223,000 
foreign) that manufacture, process, pack or store food consumed by 
humans or animals in the United States, as well as several thousand 
cosmetic manufacturers. Possibilities for food contamination are 
immeasurable and include every step from preharvest conditions to 
processing, packaging, transportation and preparation. CFSAN personnel 
routinely examine large numbers of food samples for a long list of 
specific contaminants that include toxins and microbial pathogens.
    Imported foods give regulators fewer opportunities to oversee the 
food supply chain from farm to table. Food enters ports from about 150 
different countries and accounts for about 15 percent of the food 
supply, including about 50 percent of fresh fruits and 20 percent of 
fresh vegetables we consume. In mid-2013, FDA proposed new rules that, 
for the first time, would (1) hold importers accountable for verifying 
their foreign suppliers implement adequate food safety practices and 
(2) raise the standards for third party auditors who inspect as 
contractors for food companies and importers. In December, the agency 
proposed a rule requiring larger food facilities, in the United States 
and abroad, to have a written food defense plan that identifies and 
resolves processing steps most vulnerable to intentional contamination.
    To protect the food supply, FDA inspects facilities and collects 
samples, monitors imports, responds to adverse event reports and 
consumer complaints, reviews new food additives, releases regulations 
and guidelines to stakeholders, conducts lab research, educates food 
producers and the public and if necessary enforces rules and 
regulations by recalling or seizing faulty products. These activities 
demand up to date knowledge and technology utilized by CFSAN's many 
scientific specialists, including microbiologists, molecular 
biologists, chemists, toxicologists, food technologists, pathologists, 
pharmacologists, nutritionists, epidemiologists, mathematicians, 
physicians and veterinarians.
    FDA regularly builds strategic partnerships with other public 
health institutions. Many of its responsibilities are shared with other 
Federal agencies like USDA and CDC. Because large amounts of food and 
cosmetics are imported, CFSAN works with international groups like the 
World Health Organization and sometimes directly with foreign 
governments. Products made and sold entirely within a state are 
regulated by that state, but FDA coordinates with state agriculture and 
health departments to resolve problems. CFSAN also collaborates with 
several academic institutions through its Centers of Excellence 
program, funding food safety and nutrition research at universities in 
four states.
                        advances in biomedicine
    FDA scientists regularly evaluate biomedical products with 
considerable public health and economic value, divided among various 
research centers focused on drugs, medical devices or biologics like 
vaccines. Examples from the past year show the diversity and medical 
significance of FDA's involvement in the biomedicine enterprise:
  --A newly implemented FDA plan would phase out the use of medically 
        important antimicrobials in food animals for food production 
        purposes to address the public health crisis of rising drug 
        resistance among microorganisms causing human infectious 
        diseases.
  --An approved rapid diagnostic is the first test that simultaneously 
        detects tuberculosis bacteria and determines whether they 
        contain genetic markers for resistance to rifampin, an 
        important TB antibiotic. Test results are ready in about two 
        hours versus traditional lab culture methods requiring one to 3 
        months.
  --FDA allowed marketing of the first mass spectrometer system to 
        automatically identify bacteria and yeasts pathogenic to 
        humans. It can identify 193 different microorganisms and 
        perform up to 192 different tests in a single series. Unlike 
        many test systems that require abundant microbial growth 
        pretesting, the new system uses a small amount of material with 
        more rapid results.
  --A new drug approved for chronic hepatitis C virus (HCV) infection 
        is the first effective in treating certain types of HCV without 
        co-administration of interferon. It is the third drug 
        designated a ``breakthrough therapy'' to receive FDA approval. 
        Breakthrough therapies are those shown by early clinical 
        testing to have substantial advantage over available therapies 
        for serious diseases. An estimated 3.2 million or more people 
        are thought to be HCV infected.
  --The first genotyping test for HCV infected patients identifies the 
        genotype of HCV infecting a patient. It will help select the 
        best treatment; HCV genotypes respond differently to available 
        drugs. It is approved for patients with chronic infections, not 
        as a screening or diagnostic test.
  --FDA approved the first adjuvanted vaccine for H5N1 influenza (bird 
        flu). Not intended for commercial availability, the vaccine 
        will be included in the National Stockpile for distribution if 
        H5N1 develops the capability to spread easily from human to 
        human.
  --A newly approved drug to treat HIV-1 infection contains an 
        inhibitor that interferes with one of the enzymes necessary for 
        HIV to multiply. FDA also approved the first rapid HIV test for 
        simultaneous detection of HIV-1 p24 antigen and antibodies to 
        both HIV-1 and HIV-2 in patient blood. Detection of the antigen 
        permits earlier detection than possible with antibodies alone.
  --Patients exposed to toxin secreted by botulism causing bacteria can 
        now receive the first antitoxin that neutralizes all of the 
        seven toxin serotypes known to cause botulism.
    FDA regulatory actions in biomedicine serve the FDA's partnership 
in several initiatives, including strategies to halt rising drug 
resistance among microbial pathogens, remedy the growing shortage of 
new therapeutic drugs or stimulate innovation in personalized medicine. 
FDA funding not only subsidizes its own invaluable work, but it also 
supports the FDA's collaborations with other public health agencies at 
the Federal, state and local levels.
    [This statement was submitted by the Public and Scientific Affairs 
Board, American Society for Microbiology.]
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM), the largest single 
life science society with over 39,000 members, wishes to submit the 
following statement in support of increased funding in fiscal year 2015 
for research and education programs at the US Department of Agriculture 
(USDA). Funding for USDA research invests in sectors important to 
public health and the economy, including food safety and food security, 
production sustainability, bioenergy sources, plant and animal health 
and the environment. The ASM recommends funding USDA agriculture and 
science programs to the highest level possible in fiscal year 2015.
    Agriculture is important to health and the environment and yields 
broad economic benefits. The range of industries related to agriculture 
combines for nearly 5 percent of the national gross domestic product 
(GDP). In 2012, over 16 million jobs were related to agriculture, over 
9 percent of total employment (2.6 million were direct on the farm 
employment). In recent years, farm asset values have surged upward, 
while agriculture exports have reached historical highs. At a time when 
US global competitiveness is being challenged, agriculture exports 
embody productivity and innovation in the United States. In fiscal year 
2013, exports reached over $140 billion, exceeding the previous record 
of $137 billion in fiscal year 2011. The average volume of exports has 
increased by nearly four million tons annually over the past 5 years. 
Farm exports also support about one million jobs in the country.
    USDA productivity statistics show that total farm production more 
than doubled between 1948 and 2011, with total output growing at an 
average annual rate of 1.49 percent. Almost all growth was due to 
increased productivity, much of it fueled by research. Although USDA 
research receives considerably less than 5 percent of the USDA budget, 
USDA's research support has consistently generated high returns.
                             usda research
    USDA research interconnects issues of global food supply and 
security, climate and energy needs, sustainable use of natural 
resources, nutrition and childhood obesity, food safety and consumer 
education. USDA's Research, Education and Economics Action Plan (REE) 
focuses on a number of efforts using the microbiological sciences to 
mitigate animal and plant diseases, to reduce foodborne illnesses, to 
identify bioenergy sources and to protect the environment. Projects 
involve both national and international collaborations and research 
results are regularly shared with producers, regulatory agencies, 
consumers, industry and commodity organizations.
    USDA support for research has significant economic consequences. In 
2013, the World Organization for Animal Health upgraded the United 
States' risk classification for bovine spongiform encephalopathy (BSE) 
to negligible risk, expanding market potential (exports of US origin 
beef and beef products exceed $5 billion). In December, USDA launched 
its new, unified emergency response framework to address citrus 
greening disease, also known as Huanglongbing (HLB), a serious threat 
to the $3 billion plus citrus industry. This will coordinate HLB 
resources, share information and develop operational strategies on a 
national scale with multiple stakeholders. USDA science underlies 
numerous policy and regulatory actions like food recalls or guidelines 
to food processors, exerting significant economic and societal 
influence within and beyond the agriculture sector.
    USDA supports innovation through its intramural research, 
extramural university research grants, financial awards to small 
businesses and partnerships with government, academia and industry. The 
Agricultural Research Service (ARS) serves as the in house research 
agency, with more than 2,200 scientists and a portfolio of about 800 
research projects divided among 18 programs. Extramural research is 
supported by NIFA, while the Economic Research Service and National 
Agricultural Statistics Service contribute interdisciplinary analyses 
that guide USDA involvement in agriculture.
    When Congress created NIFA in 2008, it emphasized the national 
importance of food and agriculture sciences. NIFA supports research, 
education and extension programs in the land grant university system, 
primarily through competitive grants distributed by NIFA's Agriculture 
and Food Research Initiative (AFRI). The ASM urges Congress to fund 
AFRI with at least $360 million in fiscal year 2015 as part of a 
sustained commitment to agriculture research.
    NIFA also administers USDA's Small Business Innovation Research 
(SBIR) program, which since 1983 has awarded more than 2,000 grants to 
US owned small businesses. AFRI supports six priority areas: 1) plant 
health and production; 2) animal health and production; 3) food safety, 
nutrition and health; 4) renewable energy, natural resources and 
environment; 5) agriculture systems and technology and 6) agriculture 
economics and rural communities.
                     food safety and food security
    USDA contributes to safeguarding the Nation's food supply and 
ensuring food security through adequate wholesome foods. Both ARS and 
NIFA programs fund research to reduce the approximately 48 million 
foodborne illnesses annually, which cost the economy billions of 
dollars each year. Working from field offices, the Food Safety and 
Inspection Service (FSIS) regulates the supply of meat, poultry and egg 
products, and is responsible for recalling contaminated foods. The 
Animal and Plant Health Inspection Service (APHIS) protects the health 
of animals and plants that are important to the food supply, public 
health and economy. Much of this collective effort targets pathogenic 
microorganisms transmitted through food, by identifying microbial 
threats, studying basic biology of foodborne pathogens, developing 
technologies for contaminant detection and devising intervention and 
prevention strategies along the farm to table continuum.
    In 2013, USDA researchers reported on food safety studies that 
included mapping microbes in cattle feedlot soil, a joint risk 
assessment conducted with the Food and Drug Administration to evaluate 
listeriosis in retail delis, and an FSIS developed Salmonella Action 
Plan that outlines the steps needed against Salmonella bacteria in meat 
and poultry products, the most pressing problem FSIS faces. Every year, 
there are an estimated 1.3 million illnesses that can be attributed to 
Salmonella. In large part through USDA efforts, there has been 
progress: Salmonella rates in young chickens have dropped over 75 
percent since 2006. The listeriosis study, which is the first of its 
kind, concluded that multiple interventions are required to prevent the 
often fatal infection by Listeria bacteria and thus reduce the 1,600 
illnesses that occur annually.
                        animal and plant health
    Last year, APHIS transferred one million doses of Classical Swine 
Fever (CSF) vaccine to Guatemala's Ministry of Agriculture and Food 
Safety. ARS scientists also genetically altered the CSF virus toward 
developing better vaccines and invented a polymerase chain reaction 
(PCR) assay to detect the virus. Although the United States has been 
CSF free for over 30 years, these actions recognized the globalization 
of agriculture products, as well as the crucial role played by science 
and technology in protecting the public. USDA funded research on animal 
and plant diseases reported in 2013 includes:
  --ARS scientists studying foot and mouth disease (FMD) identified a 
        DNA sequence in FMD virus that, when removed, permits pathogens 
        to still multiply in cell culture but the viruses are no longer 
        virulent, suggesting a new approach to vaccine development. 
        Researchers also created a new animal cell line used to rapidly 
        detect FMD virus in field samples, the first capable of 
        identifying all seven FMD serotypes. They incorporated FMD 
        receptor genes cloned from cattle tissue into an established 
        cell line.
  --Using a protein interaction reporter (PIR) technology developed by 
        USDA, for the first time researchers have mapped protein 
        structures known as virions that help plant viruses move from 
        plants to insects, through the insects and back into plants. 
        The new technology could lead to methods disrupting plant 
        disease transmission by insects.
  --More specific testing for Johne's disease in cattle will be 
        possible with the first discovery of an antibody that binds 
        only to the causative agent, Mycobacterium avium subspecies 
        paratuberculosis (MAP). The USDA patented antibody will improve 
        diagnostic testing for a disease that costs the US dairy 
        industry more than $220 million each year.
  --Plant geneticists developed new disease resistant pea plants to 
        protect against common root rot of legumes, a fungal disease 
        caused by Aphanomyces euteiches that can lead to crop losses of 
        20--100 percent. Others bred a wheat cultivar with innate 
        resistance to multiple fungal diseases. Of particular concern 
        is stripe rust (fungus Puccinia striiformis) which has caused 
        crop losses of up to 40 percent in the Pacific Northwest.
  --Adding nickel and phosphite to an existing fungicide spray regimen 
        improves control of the fungus (Fusicladium effusum) causing 
        pecan scab, the most destructive disease of pecan in the 
        southeastern United States. The new information is timely as 
        the scab fungus is developing resistance to some currently used 
        fungicides.
  --Exposing citrus seedlings to a minimum of 48 hours of temperatures 
        of 104 to 107 degrees Fahrenheit significantly reduces and 
        often eliminates HLB infection, according to USDA field trials. 
        The finding suggests practical measures to slow spread of 
        citrus greening disease.
                        biocontrol and bioenergy
    In recent years, USDA has intensified its research on renewable 
energy, natural resources and environmental issues. Microorganisms have 
been particularly useful in studies of bioenergy and biocontrol, 
including the following examples:
  --The fungus Myrothecium verrucaria, which naturally attacks the weed 
        Palmer amaranth, is being studied as a possible biocontrol 
        agent against the weed, which can grow two inches a day and 
        crowd out commercial crops. The southern weed is acquiring 
        resistance to glyphosate herbicides, and the ARS reported 
        research is the first showing the fungus' bioherbicidal action 
        against a weed species with glyphosate resistance.
  --ARS field trials are assessing effectiveness of spraying avocado 
        trees with foam that contains insect killing fungi against 
        ambrosia beetles, wood boring pests that threaten the nation's 
        $322 million avocado crop. Earlier lab studies used bioassays 
        to genetically confirm the ability of the fungi to infect and 
        kill the beetles. In those tests, more than 95 percent of 
        beetles exposed to the fungi died.
  --Pathogen carrying house flies are being deliberately infected in 
        lab studies with salivary gland hypertrophy virus (SGHV), 
        member of a newly discovered family of viruses called 
        Hytrosaviridae, which stops flies from reproducing.
    Bioenergy strategies commonly rely upon fuels converted from widely 
available biomass like grasses, cereal grains or tree cellulose. 
Agriculture clearly plays an important role in renewable energy and 
USDA's biofuels portfolio includes both intramural and extramural 
projects. In November, for example, USDA awarded nearly $10 million to 
a consortium of academic, industry and government organizations across 
several western states, to evaluate insect killed trees in the Rocky 
Mountains as a bioenergy feedstock. Since 1996, pine and spruce bark 
beetles have devastated over 42 million acres of western U.S. forests. 
The consortium will explore use of scalable, on site thermochemical 
conversion technologies to better access the beetle killed trees. At 
ARS, molecular biologists recently created a new strain of yeast that 
can break down and ferment sugars in corn cobs after xylose has been 
extracted for other commercial uses, previously impossible with yeasts 
inhibited by processes required. Since 2006, NIFA has collaborated with 
the Department of Energy in a joint grant program to improve biomass 
for biofuels, intent on increasing plant yield, quality and 
adaptability to harsher environments.
    The ASM encourages Congress to increase the fiscal year 2015 budget 
to the highest amount possible in support of USDA's science, research 
and food safety programs. USDA funded research is critical to the 
health of our nation's food and agriculture industries as well as the 
global economy. USDA science protects human and animal health, prevents 
crop losses from disease and climate changes, seeks best practices to 
preserve the environment, encourages innovation in valuable agriculture 
based products and supports new generations of agriculture scientists 
and educators.
    [This statement was submitted by the Public and Scientific Affairs 
Board, American Society for Microbiology.]
                                 ______
                                 
        Prepared Statement of the American Society for Nutrition
    The American Society for Nutrition (ASN) respectfully requests that 
the U.S. Department of Agriculture (USDA)/National Institute of Food 
and Agriculture/Agriculture and Food Research Initiative receive no 
less than $360 million and that the Agricultural Research Service 
receive $1.2 billion in fiscal year (FY) 2015. ASN has more than 5,000 
members working throughout academia, clinical practice, government, and 
industry, who conduct research to advance our knowledge and application 
of nutrition.
                agriculture and food research initiative
    The USDA has been the lead nutrition agency and the most important 
Federal agency influencing U.S. dietary intake and food patterns for 
years. Agricultural research is essential to address the ever-
increasing demand for a healthy, affordable, nutritious and sustainable 
food supply. The Agriculture and Food Research Initiative (AFRI) 
competitive grants program is charged with funding research, education, 
and extension and integrated, competitive grants that address key 
problems of national, regional, and multi-state importance in 
sustaining all components of agriculture. These components include 
human nutrition, farm efficiency and profitability, ranching, renewable 
energy, forestry (both urban and agro forestry), aquaculture, food 
safety, biotechnology, and conventional breeding. AFRI has funded 
cutting-edge, agricultural research on key issues of timely importance 
on a competitive, peer-reviewed basis since its establishment in the 
2008 Farm Bill. Adequate funding for agricultural research is critical 
to provide a safe and nutritious food supply for the world population, 
to preserve the competitive position of U.S. agriculture in the global 
marketplace, and to provide jobs and revenue crucial to support the 
U.S. economy.
    In order to achieve those benefits, AFRI must be able to advance 
fundamental sciences in support of agriculture and coordinate 
opportunities to build off of these discoveries.
    Therefore, ASN requests that the AFRI competitive grants program 
receive at least $360 million in fiscal year 2015. ASN also strongly 
supports funding AFRI at the fully authorized level of $700 million as 
soon as practical. Current flat and decreased funding for AFRI hinders 
scientific advances that support agricultural funding and research.
                     agricultural research service
    The Agricultural Research Service (ARS) is the Department of 
Agriculture's lead scientific research agency. The ARS conducts 
research to develop and transfer solutions to agricultural problems of 
high national priority. USDA's program of human nutrition research is 
housed in six Human Nutrition Research Centers (HNRCs) across the 
nation, that link producer and consumer interests and form the core for 
building knowledge about food and nutrition. HNRCs conduct unparalleled 
human nutrition research on the role of food and dietary components in 
human health from conception to advanced old age, and they provide 
authoritative, peer-reviewed, science-based evidence that forms the 
basis of our Federal nutrition policy and programs. Funding for ARS 
supports all of the USDA/HNRCs and ensures that these research 
facilities have adequate funding to continue their unique mission of 
improving the health of Americans through cutting-edge food, nutrition 
and agricultural research.
    Nutrition monitoring conducted in partnership by the USDA/ARS with 
the Department of Health and Human Services (HHS) is a unique and 
critically important surveillance function in which dietary intake, 
nutritional status, and health status are evaluated in a rigorous and 
standardized manner. (ARS is responsible for food and nutrient 
databases and the ``What We Eat in America'' dietary survey, while HHS 
is responsible for tracking nutritional status and health parameters.) 
Nutrition monitoring is an inherently governmental function and 
findings are essential for multiple government agencies, as well as the 
public and private sector. Nutrition monitoring is essential to track 
what Americans are eating, inform nutrition and dietary guidance 
policy, evaluate the effectiveness and efficiency of nutrition 
assistance programs, and study nutrition-related disease outcomes. 
Because of past funding deficiencies, some food composition database 
entries do not reflect the realities of the current food supply, which 
may negatively impact programs and policies based on this information. 
It is imperative that needed funds to update USDA's food and nutrient 
databases and the ``What We Eat in America'' dietary survey, both 
maintained by the USDA/ARS, are appropriated to ensure the continuation 
of this critical surveillance of the nation's nutritional status and 
the many benefits it provides.
    It is the job of ARS to ensure high-quality, safe food, and other 
agricultural products; assess the nutritional needs of Americans; 
sustain a competitive agricultural economy;enhance the natural resource 
base and the environment; and provide economic opportunities for rural 
citizens, communities, and society as a whole. Therefore, ASN requests 
that ARS receive at least $1.2 billion in fiscal year 2015. At least 
ten million dollars above current funding levels is necessary to ensure 
the critical surveillance of the nation's nutritional status and to 
continue the many other benefits that ARS provides. With such funding, 
the ARS will be able to support its vision of leading America towards a 
better future through agricultural research and information.
    Thank you for the opportunity to submit testimony regarding fiscal 
year 2015 appropriations for the U.S. Department of Agriculture/
National Institute of Food and Agriculture/AFRI competitive grants 
program and Agricultural Research Service. ASN also supports the Farm 
Bill provision that authorizes $200 million in mandatory funding for 
the new Foundation for Food and Agricultural Research, which will 
stimulate private investment in agricultural research on food safety 
and nutrition, plant and animal health, renewable energy, natural 
resources and environment, agricultural and food security, technology, 
agricultural economics and rural communities.
    [This statement was submitted by the Gordon L. Jensen, M.D., Ph.D. 
President, American Society for Nutrition]
                                 ______
                                 
 Prepared Statement of the American Society of Plant Biologists (ASPB)
    On behalf of the American Society of Plant Biologists (ASPB), we 
submit this statement for the official record in support of funding for 
agricultural research by the U.S. Department of Agriculture (USDA). 
ASPB supports the funding levels of $383 million for USDA's Agriculture 
and Food Research Initiative (AFRI) and $1.28 billion for the 
Agricultural Research Service (ARS).
    This testimony highlights the critical importance of plant biology 
research and development to addressing vital issues including: 
achieving a sustainable food supply and food security; energy security, 
including attaining reduced reliance on all petrochemical products 
through game-changing sustainable renewable biomass utilization 
approaches; and in protecting our environment.
    food, fuel, environment, and health: plant biology research and 
             america's competitiveness and self-sufficiency
    We often take plants for granted, but they are vital to our very 
existence, competitiveness, and self-sufficiency. New plant biology 
research is now addressing the most compelling issues facing our 
society, including: identifying creative and imaginative approaches to 
reaching Congress's goals of achieving domestic fuel security/self-
sufficiency; environmental stewardship; sustainable and secure 
development of even better foods, feeds, building materials, and a host 
of other plant products used in daily life; and improvements in the 
health and nutrition of all Americans.
    Our bioeconomy and Federal partnership is based upon foundational 
plant biology research--the strategic research USDA funds--to make 
needed key discoveries. Yet limited funding committed to fundamental 
discovery now threatens our national security and leadership. Indeed, 
in his 2012 annual letter to the Gates Foundation, Bill Gates wrote, 
``Given the central role that food plays in human welfare and national 
stability, it is shocking--not to mention short-sighted and potentially 
dangerous--how little money is spent on agricultural research.'' \1\ 
This is especially true considering the significant positive impact 
crop and forest plants have on the nation's economy (the agricultural 
sector is responsible for one in 12 American jobsespecially true 
considering the significant positive impact crop and forest plants have 
on the nation's economy (the agricultural sector is responsible for one 
in 12 American jobsespecially true considering the significant positive 
impact crop and forest plants have on the nation's economy (the 
agricultural sector is responsible for one in 12 American jobs.\2\
---------------------------------------------------------------------------
    \1\ Gates, Bill. (Jan 2012). 2012 Annual Letter from Bill Gates. 
Retrieved from http://www.gatesfoundation.org/annual-letter/2012/Pages/
home-en.aspx.
    \2\ Vilsack, Tom. (Mar. 9, 2012). Public Comments Before PCAST. 
Retrieved from http://www.tvworldwide.com/events/pcast/120309/
globe_show/default_goarchive.cfm?gsid=
1977&type=flv&test.
---------------------------------------------------------------------------
    Given these concerns and our nation's fiscal situation, the plant 
science community has been working toward addressing our nation's 
looming challenges--ASPB organized a two-phase Plant Science Research 
Summit (held in September 2011 and January 2013). With funding from 
USDA, the National Science Foundation, the Department of Energy, and 
the Howard Hughes Medical Institute, the Summit brought together 
representatives from across the full spectrum of plant science research 
to develop a community agenda document. Released in August 2013 as 
Unleashing a Decade of Innovation in Plant Science: A Vision for 2015-
2025 (plantsummit.files.wordpress.com/2013/07/
plantsciencedecadalvision10-18-13.pdf), the report puts forth a ten-
year consensus plan to fill critical gaps in our understanding of plant 
biology and address the grand challenge of sustainably feeding the 
world and providing other useful plant products in the face of 
burgeoning population growth, diminishing natural resources, and 
climate change.
                       immediate recommendations
    The ASPB membership has extensive expertise and participation in 
the academic, industry, and government sectors. Consequently, ASPB is 
in an excellent position to articulate the nation's plant science 
priorities and standards needed as they relate to agriculture. Our 
recommendations are as follows:
  --Since the establishment of the National Institute of Food and 
        Agriculture (NIFA) and AFRI, interest in USDA research has 
        increased dramatically--a trend ASPB hopes to see continue in 
        the future. However, an increased, strategic and focused 
        investment in competitive funding and its oversight is needed 
        if the nation is to continue to make ground-breaking 
        discoveries and accelerate progress toward resolving urgent 
        national priorities and societal needs. ASPB encourages 
        Congress to fund AFRI at $383 million in fiscal year 2015, 
        which, although less than the recently reauthorized level of 
        $700 million, would provide sound investment in today's fiscal 
        environment.
  --The Agricultural Research Service (ARS) provides vital strategic 
        research to serve USDA's mission and objectives and as well as 
        the nation's agricultural sector. The need to bolster and 
        enhance ARS efforts to leverage and complement AFRI is great 
        given the challenges in food and energy security. ASPB is 
        supportive of a strong ARS and recommends a congressional 
        appropriation of $1.28 billion in fiscal year 2015.
  --USDA has focused attention in several key priority areas, including 
        childhood obesity, climate change, global food security, food 
        safety, and sustainable bioenergy. Although ASPB appreciates 
        the value of such strategic focus, we give our most robust 
        support for AFRI's Foundational Program. This program provides 
        a basis for outcomes across a wide spectrum, often leading to 
        groundbreaking developments that cannot be anticipated in 
        advance. Indeed, it is these discoveries that are the true 
        engine of success for our bioeconomy.
  --Current estimates predict a significant shortfall in the needed 
        agricultural scientific workforce as the demographics of the 
        U.S. workforce change.\3\ For example, there is a clear need 
        for additional training of scientists in the areas of 
        interdisciplinary energy research and plant breeding. ASPB 
        applauds the creation of the NIFA Fellows program and calls for 
        additional funding for specific programs (e.g., training grants 
        and fellowships) to provide this needed workforce over the next 
        10 years and to adequately prepare these individuals for 
        careers in the agricultural research of the future.
---------------------------------------------------------------------------
    \3\ President's Council of Advisors on Science and Technology. 
(Dec. 2012). Report to the President on Agricultural Preparedness and 
the Agricultural Research Enterprise, p. 41. Retrieved from 
www.whitehouse.gov/sites/default/files/microsites/ostp/
pcast_agriculture_20121207.pdf.
---------------------------------------------------------------------------
  --Considerable research interest is now focused on the use of plant 
        biomass for energy production. However, if we are to use crops 
        and forest resources to their full potential, we must expend 
        extensive effort to improve our understanding of their 
        underlying biology and development, their agronomic 
        performance, and their subsequent processing to meet our goals 
        and aspirations. Therefore, ASPB calls for additional funding 
        targeted at efforts to increase the utility and agronomic 
        performance of bioenergy crops using the best and most 
        imaginative science and technologies possible.
  --With NIFA, USDA is in a strong position to cultivate and expand 
        interagency relationships, as well as relationships with 
        private philanthropies, to address grand challenges related to 
        food, renewable energy and bioproducts, the environment, and 
        health. ASPB appreciates the need to focus resources in key 
        priority areas. However, ASPB urges a significant increase in 
        funding to individual grantees, in addition to putting in place 
        robust evaluations of group awards and larger multi-
        institutional partnerships. Paradigm-shifting discoveries 
        cannot be predicted through collaborative efforts alone; thus 
        there is an urgent need to maintain a broad, diverse, and 
        robust research agenda.
  --ASPB encourages some flexibility within NIFA's budget to update and 
        improve its data management capabilities.
    Thank you for your consideration of ASPB's testimony. For more 
information about ASPB, please visit us at www.aspb.org.
    [This statement was submitted by Tyrone C. Spady, PhD, Director of 
Legislative and Public Affairs, American Society of Plant Biologists.]
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute
    Thank you for the opportunity to submit testimony as you consider 
fiscal year 2015 funding priorities. Our testimony addresses programs 
and activities administered by the U.S. Department of Agriculture's 
(USDA) Agricultural Research Service (ARS), Animal and Plant Health 
Inspection Service (APHIS), and Food Safety Inspection Service (FSIS).
  usda-ars-national agricultural library--animal welfare information 
                                 center
    The Animal Welfare Information Center (AWIC) serves as a 
clearinghouse, training center, and education resource for those 
involved in the use of animals for research, testing, and teaching (as 
well as other entities covered by the AWA), and the need and demand for 
its services continue to outstrip its resources. AWIC's activities 
contribute significantly to science-based decisionmaking in animal 
care, as the Center disseminates scientific literature on subjects 
including husbandry, handling, and care of animals; personnel training; 
animal behavior; improved methodologies; environmental enrichment; pain 
control; and zoonotic disease. Its services are vitally important to 
the nation's biomedical research enterprise and other regulated 
entities because they facilitate compliance with specific requirements 
of the Federal animal welfare regulations governing research. We 
request that AWIC funding remain level with fiscal year 2014 
appropriations.
                       usda-aphis-animal welfare
    APHIS's Animal Welfare activities are critical to the proper 
regulation and care of animals protected under the Animal Welfare Act 
(AWA), 7 U.S.C. Sec. Sec. 2131--2159, and the Horse Protection Act 
(HPA), 15 U.S.C. Sec. Sec. 1821--1831. AWI requests that, consistent 
with the President's fiscal year 2015 budget proposal, $29 million be 
allocated to Animal Welfare activities.
  usda-aphis-animal welfare--animal welfare act enforcement--class b 
                                dealers
    Nearly fifty years after enactment, the AWA routinely fails both to 
reliably protect pet owners and animals from Class B dealers who sell 
``random source'' dogs and cats for use in research. These dealers use 
deceit and fraud to acquire animals, who are often subjected to 
shocking cruelty. A National Academy of Sciences study of the use of 
Class B dogs and cats in NIH-funded research acknowledged animal 
welfare and enforcement problems and noted ``descriptions of thefts 
provided by informants in prison . . . and documented accounts of lost 
pets that have ended up in research institutions through Class B 
dealers.'' \1\ The study concluded that there is no scientific need for 
these Class B dealers.
---------------------------------------------------------------------------
    \1\ National Academy of Sciences Institute for Laboratory Animal 
Research, Scientific and Humane Issues in the Use of Random Source Dogs 
and Cats in Research (2009).
---------------------------------------------------------------------------
    USDA must use a costly and time-consuming enforcement protocol for 
these random source dealers, involving quarterly inspections (more than 
any other licensees) and ``tracebacks,'' in order to attempt to verify 
the source of their animals. Congress, too, has spent an inordinate 
amount of time reviewing the actions of Class B dealers and prodding 
USDA and NIH to address their respective Class B dealer problems. As a 
result of the NAS study, a prohibition on the use of dogs and cats from 
random source Class B dealers in all NIH-supported research will be 
fully in place in 2015.
    Although few of these dealers remain, they are an unjustifiable 
drain on USDA resources. But as long as it is possible to issue and 
renew Class B licenses, this system will continue to waste taxpayer 
money and perpetuate the inhumane treatment of animals. For this 
reason, we urge the Subcommittee adopt the following language: 
Provided, that appropriations herein made shall not be available for 
any activities or expense related to the licensing of new Class B 
dealers who sell dogs and cats for use in research, teaching, or 
testing, or to the renewal of licenses of existing Class B dealers who 
sell dogs and cats for use in research, teaching, or testing.
      usda-aphis-animal welfare--horse protection act enforcement
    The Horse Protection Act of 1970 (HPA) was passed to end soring, 
the cruel practice of applying chemical and mechanical irritants the 
legs and hooves of horses through to produce an exaggerated gait. Yet 
soring, condemned as ``one of the most significant welfare issues 
affecting any equine breed or discipline,'' \2\ has continued as 
limited funding has hampered enforcement. To enable USDA to better meet 
the objectives of the HPA, we request that $893,000 be appropriated for 
HPA enforcement.
---------------------------------------------------------------------------
    \2\ American Association of Equine Practitioners, Putting the Horse 
First: Veterinary Recommendations for Ending the Soring of Tennessee.
---------------------------------------------------------------------------
    Because USDA inspectors are able to attend a mere fraction of 
Tennessee Walking Horse shows, monitoring responsibility usually falls 
to ``Designated Qualified Persons'' (DQPs), usually industry insiders 
with a history of ignoring violations. Reliance on DQPs has been an 
abysmal failure. Statistics clearly indicate that the presence of USDA 
inspectors at shows results in a far higher rate of noted violations 
than occurs when DQPs are present. For instance, USDA has released 
foreign substance results gathered through the Horse Protection Program 
at horse shows from 2010 through 2013. In 2013, an evaluation of horses 
at 17 shows revealed that 62 percent of the samples analyzed were 
positive for soring agents.\3\ At the 2013 Tennessee Walking Horse 
National Celebration in Shelbyville, Tennessee, 86 of the 128 horses 
sampled tested positive for soring agents during USDA inspections, and 
at some 2013 shows every single horse examined had been exposed to 
soring chemicals.\4\ In 2012, 309 of 478 horses sampled (65 percent) 
tested positive for soring agents,5 while in 2011 and 2010, 97 percent 
and 86 percent, respectively, had been sored. Data from DQP horse show 
inspections in 2009 (the most recent year for which reports are 
available) reveal that for 436 shows at which 70,122 inspections were 
conducted and 889 violations of any type were cited, only 61, or 0.087 
percent of horses inspected, were for prohibited foreign substances.
---------------------------------------------------------------------------
    \3\ http://www.aphis.usda.gov/animal_welfare/hp/downloads/
show%20tally%202013%20for%20
web.pdf
    \4\ Id.
    \5\ USDA-APHIS Horse Protection Program, 2012 Foreign Substance 
Results, available athttp://www.aphis.usda.gov/animal_welfare/hp/
downloads/show%20tally%202012%20for%20web.pdf.
---------------------------------------------------------------------------
    From this comparison, it is clear not only that horse soring 
remains a serious problem, but also that there is no substitute for 
inspections by USDA personnel to ensure compliance with theWALKING 
HORSES (2008).
    HPA. The greater the likelihood of a USDA inspection, the greater 
the deterrent effect on those who routinely sore their horses. 
Enforcement should not be entrusted to individuals with a stake in 
maintaining the status quo. USDA cannot make progress in this area 
without adequate funding.
        usda-aphis-wildlife services--wildlife damage management
    We request that APHIS-Wildlife Services' (WS) wildlife damage 
management budget be reduced by $13 million and that WS be prohibited 
from using funds for lethal wildlife control.
    The WS program allocates millions of dollars each year to lethal 
wildlife management efforts, relying on methods that are cruel, 
ineffective, costly and outdated. WS uses poisons, body-gripping traps, 
snares and firearms to indiscriminately kill wildlife--including 
endangered species, family pets, and countless non-target animals--
while ignoring humane, cost-efficient approaches to wildlife management 
that have been proven effective in the field. These irresponsible 
practices threaten not only target and non-target animals, but also the 
environment, public safety, national security. Accordingly, we support 
the inclusion of language prohibiting the use of USDA funds for WS' 
lethal wildlife management activities in the fiscal year 2015 
agriculture appropriations bill.
    In addition to a restriction on funds for lethal control 
activities, we request a reduction in funding from the fiscal year 2014 
allocation and USDA's fiscal year 2015 request for WS. The program is 
notoriously secretive, and has repeatedly declined to disclose to both 
Congress and the public its expenditures on lethal and inhumane 
wildlife management practices. Despite this glaring lack of 
accountability, WS' budget was increased substantially in fiscal year 
2014, and the Administration's budget proposes to maintain that funding 
level for fiscal year 2015. Alarmingly, a substantial portion of the 
fiscal year 2014 increase was allocated to ``wildlife damage 
management,'' the division within WS that is responsible for killing 
millions of animals on public and private lands each year. We request 
that WS' Wildlife Damage Management budget be reduced by $13 million, 
the program's estimated annual expenditure for lethal predator control 
practices intended to protect livestock. It should no longer be the 
taxpayers' responsibility to subsidize these inhumane, costly practices 
to which effective alternatives are readily available.
   usda-aphis-wildlife services--wildlife damage management program, 
                             airport safety
    APHIS' Airport Wildlife Control Program is intended to address the 
control of wildlife at military and civilian airports to reduce the 
threat of aircraft striking wildlife, which can lead to aircraft 
damage, delays, and accidents. While the media often sensationalize 
such incidents, the statistical likelihood of a bird or other wildlife 
striking an aircraft is exceedingly small. The chances of a strike 
resulting in aircraft destruction, damage, delay, or an accident is 
even more remote. Indeed, since 1988, according to the Bird Strike 
Committee USA, only slightly more than 250 people worldwide have been 
killed as a result of bird strikes on aircraft. This loss of life is 
tragic, but when compared to the total number of aircraft passengers 
(commercial and civilian) worldwide since 1988, it is obvious that the 
risk of dying as a result of a bird strike is infinitesimal. Similarly, 
though the Federal Aviation Administration documented 133,000 reported 
wildlife strikes (bird strikes comprise approximately 97.5 percent of 
all wildlife strikes) at civilian and military airports in the United 
States between 1990 and 2011, only an extraordinarily small fraction of 
these reported strikes resulted in the damage, delay, or destruction of 
an aircraft or injuries or death to passengers. Furthermore, when the 
total number of aircraft (private, commercial, and military) takeoffs 
and landings are considered over that 21 year period, again the risk of 
an aircraft striking wildlife is exceedingly small.
    Recognizing that the risk of wildlife strikes to aircraft is real 
but not statistically significant, we ask that any funds allocated to 
the airport wildlife control program be earmarked only for non-lethal 
management programs. There are a variety of non-lethal strategies that 
are effective and feasible to address wildlife strikes to aircraft 
including fencing, habitat management, runway sweeps using pyrotechnics 
and other noise-making devices, trained falcons, removal of standing 
water/areas that attract birds/wildlife on airport properties, 
modification of airport structures to deter bird use, and public/
airport employee education to avoid behaviors (i.e., feeding birds) 
that may attract animals to airports.
     usda-aphis-wildlife services--oral rabies vaccination program
    APHIS' oral rabies vaccination (ORV) activities, which are carried 
out under the National Rabies Management Program, have made significant 
progress in controlling the spread of rabies in the United States in an 
effective, humane, and cost-effective manner. To ensure that this 
success continues, we request that $23.76 million be allocated to the 
ORV program for fiscal year 2015, consistent with the program's 
estimated fiscal year 2014 expenditures.
           usda-aphis-investigative and enforcement services
    APHIS' Investigative and Enforcement Services (IES) handles 
investigations related to enforcement of the laws and regulations for 
APHIS' programs, which involves: collection of evidence; civil and 
criminal investigations; and investigations carried out in conjunction 
with Federal, state and local enforcement agencies. IES, in 
collaboration with USDA's Office of the General Counsel, also handles 
stipulations and formal administrative proceedings. We request that IES 
funding remain level with fiscal year 2014 appropriations so that the 
Service may fulfill its full range of responsibilities, particularly 
its increasing HPA and AWA investigatory demands.
         usda-fsis--humane methods of slaughter act enforcement
    We appreciate the generous support provided by Congress during the 
past decade for USDA's enforcement of the Humane Methods of Slaughter 
Act (HMSA). However, while enforcement has increased in recent years, 
attention to the issue remains uneven among districts.
    An analysis of Humane Activities Tracking System (HATS) data 
reveals that some USDA districts spend 10-20 times the number of hours 
on humane enforcement, per animal slaughtered, as other districts. 
Overall, USDA continues to allot an extremely small percentage of its 
resources to humane slaughter. For example, in fiscal year 2012, only 
2.8 percent of all FSIS verification procedures were performed for 
activities related to humane handling and slaughter.
    Repeat violators present a major enforcement problem for FSIS. Of 
the 285 federally inspected plants that have been suspended for humane 
slaughter violations since January 1, 2008, 33 percent have been 
suspended more than once within a 1 year period. Moreover, 56 plants 
have been suspended on three or more occasions during the past 5 years.
    Federal inspection personnel have inadequate training in humane 
enforcement and inadequate access to humane slaughter expertise. 
Enforcement documents reveal that inspectors often react differently 
when faced with similar violations. District Veterinary Medical 
Specialists (DVMS) are stationed in each district to assist plant 
inspectors with humane enforcement and to serve as a liaison between 
the district office and headquarters on humane matters. However, the 
work load of each of the DVMSs, which includes visiting each meat and 
poultry plant within the district to perform humane audits and 
conducting verification visits following suspensions, severely limits 
the effectiveness of the role.
    The problems of inadequate and inconsistent enforcement can be 
resolved by increasing the number and qualifications of the personnel 
assigned to humane handling and slaughter duties. No fewer than 148 
full-time equivalent positions should be employed for purposes 
dedicated solely to inspections and enforcement related to the HMSA. In 
addition, the number of DVMS positions should be increased to a minimum 
of two per district. Enforcement records suggest that violations are 
reported with greater frequency in the presence of outside inspection 
personnel, such as DVMSs. Hiring additional DVMSs will provide for 
increased auditing and training to help uncover problems before they 
result in egregious humane handling incidents.
            usda-fsis--horse slaughter facility inspections
    In 2013, Congress approved language to prevent the use of tax 
dollars to fund horse slaughter facility inspections. This language is 
critical to protect horses, taxpayers, communities, and public health. 
We strongly support the inclusion of this prohibition in the fiscal 
year 15 budget.
    [This statement was submitted by Christopher J. Heyde, Deputy 
Director, Government and Legal Affairs, Animal Welfare Institute.]
                                 ______
                                 
  Prepared Statement of the Campaign for Contract Agriculture Reform 
                                 (CCAR)
    On behalf of the farmer, rancher, and consumer groups represented 
by the Campaign for Contract Agriculture Reform (CCAR), I am providing 
this testimony to urge the Subcommittee to exclude from the bill any 
legislative riders to limit the authority of the Secretary's regulatory 
authority under the Packers and Stockyards Act. The member 
organizations of CCAR include: the Alabama Contract Poultry Growers 
Association, Contract Poultry Growers Association of the Virginias, 
Food & Water Watch, Hmong National Development, Inc., National Family 
Farm Coalition, National Farmers Union, National Sustainable 
Agriculture Coalition, and the Rural Advancement Foundation 
International-USA.
    The Packers and Stockyards Act is one of the most important Federal 
statutes for our nation's livestock and poultry farmers and ranchers. 
This is because it prohibits meatpackers and poultry companies from 
using their market power to subject farmers and ranchers to 
anticompetitive, deceptive, fraudulent and abusive
    business practices.
    Although the Act was originally enacted in 1921, its importance is 
even greater now because of the extent to which these firms have become 
vertically integrated, giving them even greater market power and 
enabling contracting practices that are even more abusive.
    Understanding these trends, the 2008 Farm Bill required USDA to 
write regulations to address some of the abusive and anti-competitive 
practices that have become common in the livestock and poultry sectors. 
Based in part on the Farm Bill requirements, as well as testimony heard 
during a series of Agriculture Competition workshops hosted by USDA and 
the U.S. Department of Justice, USDA issued a package of proposed rules 
in June of 2010 to address many of these concerns.
    Since the date these rules were first proposed by USDA's Grain 
Inspection Packer and Stockyards Agency (GISPA), the meatpacker and 
poultry company groups have launched a full-scale attack on the 
regulations and the authority of the Secretary to enforcement many 
aspects of the proposed GIPSA rule.
    The appropriations process has been one of the venues for those 
attacks, and unfortunately, a legislative rider limiting the 
Secretary's authorities under the Packer and Stockyards Act has been 
included in the agriculture appropriations provisions of each of the 
past three fiscal years. While each of the 3 riders has been somewhat 
different, they each have significantly undermined important basic 
protections for our nation's livestock and poultry farmers and 
ranchers.
    The GIPSA rider included in the fiscal year 2014 appropriations 
cycle (Section 744, Division A, Consolidated Appropriations Act of 
2014-H.R. 3547) prohibits the Secretary from taking action on a long 
list of commonsense protections for our nation's livestock and poultry 
farmers. Here are just some of the protections that the fiscal year 
2014 GIPSA rider prohibits:
  --Regulations to make it an unfair practice under the Packers and 
        Stockyards Act for meatpackers and poultry companies to 
        retaliate against farmers for exercising their rights to free 
        speech and/or association. This includes providing protection 
        for farmers who speak out publicly, or to USDA officials or 
        Members of Congress, about what is taking place on their farms 
        and with their contracts.
  --Regulations to require meatpackers and poultry companies to give 
        farmers statistical information and data about how their pay is 
        calculated, if the farmer requests such information.
  --Regulations to prohibit meatpackers and poultry companies from 
        using contracts to force farmers to give up their legal right 
        to a jury trial to address future disputes with the company.
  --Regulations to require meatpackers and poultry companies to submit 
        to GIPSA sample contracts that they are using in their contract 
        relationships with farmers, with a clear statement that all 
        confidential business information and trade secrets are to be 
        redacted.
  --Regulations to clarify that it is an unfair practice under the Act 
        for poultry companies to require farmers to compete against 
        each other for performance pay, unless they are given the same 
        type of birds to raise by the company. This addresses a current 
        poultry company practice of giving one farmer a breed of bird 
        that performs poorly in feed conversion efficiency, while 
        giving another farmer a better-performing breed of bird, and 
        then requiring both farmers to compete for performance pay 
        based on feed conversion success of the bird during grow-out 
        period. This practice is fraudulent because it allows the 
        companies to make farmers pay the cost for a company decision 
        to produce some chickens with lower feed conversion attributes. 
        The farmer has no choice about the quality of chicken placed on 
        his farm by the poultry company, and is rewarded or penalized 
        based on factors outside the farmer's control.
  --Regulations to clarify that the Packers and Stockyards Act does not 
        require farmers to show a competitive injury to the entire 
        industry in order to prove that they have been harmed by unfair 
        and deceptive trade practices or other anti-competitive 
        practices of meatpackers or poultry integrators. In other 
        words, if a poultry company has used fraudulent or deceptive 
        business practices in a manner that defrauds a poultry grower 
        out of thousands of dollars of pay, they should not have to 
        prove that the action by the company is likely to cause a 
        competitive injury across the entire poultry sector. The 
        Packers and Stockyards Act was written specifically to provide 
        protection for individual farmers in their dealings with 
        meatpackers and poultry companies. In recent years, some courts 
        have reinterpreted the law to require that farmers prove 
        competitive injury beyond themselves, and this GIPSA regulation 
        was intended to clarify the original intent and meaning of the 
        statute.
    It is important to note that during the 2014 Farm Bill debate, the 
Farm Bill conferees rejected a strong push by the meatpacker and 
poultry companies to include a provision in the final bill that would 
have placed great limits on the authority of the Secretary to enforce 
many aspects of the Packers and Stockyards Act. Thisprovision, similar 
but not identical to the GIPSA rider in recent appropriations bills, 
was firmly rejected by the authorizing Committee, and excluded from the 
final 2014 Farm Bill.
    We strongly urge the House Agriculture Appropriations Subcommittee 
to do the same, and reject any legislative riders to limit the 
Secretary's authority under the Packers and Stockyards Act.
    [This statement was submitted by Steven Etka, Policy Director, 
Campaign for Contract Agriculture Reform.]
                                 ______
                                 
           Prepared Statement of the Catholic Relief Services
    Thank you Chairman Pryor and Ranking Member Blunt for receiving 
this testimony. Catholic Relief Services (CRS) requests that fiscal 
year (FY) 2015 appropriations provide at minimum $1.55 billion for the 
Food for Peace program, $200 million for the McGovern-Dole Food for 
Education program, and $80 million for the Local and Regional 
Procurement program. Additionally, we request that you direct amounts 
of Food for Peace funding to certain specific purposes.
                    crs and the u.s. catholic church
    CRS is the international relief and development agency of the U.S. 
Catholic Church. We are one of the largest implementing partners of 
U.S. Agency for International Development (USAID) and U.S. Department 
of Agriculture (USDA) food aid programs. Our work reaches millions of 
poor and vulnerable people in nearly 90 countries. CRS works with 
people and communities based on need, without regard to race, creed, or 
nationality. CRS often partners with local institutions of the Catholic 
Church and other local civil society groups, which are essential to 
connecting us with communities that are often inaccessible to others.
                       the food for peace program
    Approximately 842 million people worldwide face hunger on a daily 
basis. People facing chronic hunger do not have access to enough food 
to maintain healthy and productive lives.
    Often times it is the most vulnerable in a community who suffer the 
greatest from chronic hunger--women, smallholder farmers, the elderly 
and children. Overall, communities that suffer from chronic hunger are 
less productive and less stable.
    U.S. food aid programs, led by Food for Peace, help to address 
chronic hunger. Food for Peace development programs target assistance 
to poor and vulnerable communities that improve their long-term food 
security. CRS implements Food for Peace development programs in ten 
countries. Through these programs beneficiaries are able to grow more 
food, earn more to purchase the food they need, and help in 
infrastructure improvements that bolster community resilience. A good 
of example our Food for Peace funded is in Madagascar.
    CRS leads a consortium implementing the Strengthening and Accessing 
Livelihood Opportunities for Household Impact (SALOHI) project in 
Madagascar. For its part, CRS has implemented a diverse array of 
programming to aid farmers and vulnerable populations. Over 58,000 
farmers participated in farmer field schools that introduced improved 
rice varieties capable of increasing yields. Farmers learn agribusiness 
skills to better manage their crops post- harvest leading to greater 
profits, and to create better linkages with rice buyers and 
agricultural tool suppliers. Food rations are provided in exchange for 
community labor to rehabilitate critical infrastructure, such as a dam 
that will help irrigate fields. Community health volunteers in the 
program have treated 15,000 malnourished children and taught their 
parents better nutritional practices to use for lasting impact. And, 
over 30,000 people have joined Village Savings and Loan (VSL) programs 
that help poor farmers pool, save and manage their money, allowing them 
to raise capital to purchase additional land to farm and other needs.
    In addition to addressing chronic hunger, Food for Peace programs 
assist the millions of people forced into hunger due to sudden and 
severe disruptions of their normal lives. Disruptions can take the form 
of natural disasters, like Typhoon Haiyan in the Philippines, or they 
could be the result of armed conflict as we have seen in Syria.
    While the emergency needs in the Philippines and Syria have been 
well documented in the news, we feel additional attention needs to be 
place on two other countries in the midst of emergencies--the Central 
Africa Republic (CAR) and South Sudan. In both cases, internal violence 
in recent months has sparked a significant number of refugees and 
Internally Displaced Persons (IDPs). In CAR, at the peak of the 
violence CRS worked with private resources to help shelter, feed and 
care for 40,000 IDPs who had taken refuge at the compound of 
Archdiocese of Bossangoa. More than half of the country's 4.5 million 
people are in need of assistance, with an estimated 625,000 IDPs in CAR 
and many more in neighboring countries as refugees.
    In South Sudan, the violence has led to over 800,000 IDPs and over 
250,000 refugees in neighboring countries. CRS is currently reaching 
more than 12,000 IDP households across South Sudan. CRS had been 
implementing a Food for Peace development program in South Sudan when 
fighting broke out. The instability has prevented implementation of the 
development program in recent months, and CRS has requested a 
modification to its agreement in order to use program resources to meet 
emergency needs. We have taken such measures in the past, specifically 
in Mali in 2013 and in Haiti following the 2010 earthquake, and hope 
USAID will be able to accommodate this requested modification as well.
           food for peace and mcgovern-dole funding requests
    CRS requests that Food for Peace receive at minimum $1.55 billion, 
and McGovern-Dole receive at minimum $200 million in the fiscal year 
2015 appropriations. These increases over fiscal year 2014 appropriated 
amounts are largely to take into account the increased costs for 
transportation of food that U.S. food aid programs now have to bear as 
a result of the 2013 Murray-Ryan budget deal.
    For the last several years transportation costs related to the 
overseas shipment of U.S. commodities in food aid programs--Food for 
Peace, McGovern-Dole, and Food for Progress--have been partially offset 
by reimbursements provided through Transportation Authorization bills. 
These reimbursements were reinvested into food aid programs, allowing 
them to help more people. However, in last year's budget deal this 
reimbursement mechanism was struck from the law. The practical effect 
of this change is that food aid programs will now shoulder the full 
cost of overseas transportation, which will cut the amount of food that 
can be purchased and shipped, and ultimately decrease the number of 
people helped compared to present levels.
    CRS estimates that lost transportation reimbursements could be 
between $50 and $70 million each year. Additionally, CRS estimates the 
McGovern-Dole and Food for Progress programs each will lose between $10 
and $15 million each year. In order to maintain the reach that food aid 
programs had in fiscal year 2014, an increase in funding to Food for 
Peace and McGovern- Dole is necessary. We also note that while Food for 
Progress is not directly appropriated annually, a $40 million cap on 
transportation costs in its authorization gives it no flexibility to 
absorb additional transportation costs, and we ask the Subcommittee to 
explore ways of addressing the unique impact that the elimination of 
reimbursements will have on that program.
    We would also like to point out that further increases in food aid 
funding may be needed to offset another proposed and troubling change. 
On April 1, 2014, the House passed H.R. 4005, the Coast Guard and 
Maritime Transportation Act of 2014, which reauthorizes the Coast Guard 
and maritime transportation legislation for 2 years. Our concern with 
this bill pertains to Section 318 that requires 75 percent of overseas 
food aid shipments to be carried on U.S. flagged vessels, an increase 
from the current 50 percent requirement. According to sponsors of the 
bill, using U.S. flagged vessels is 30 percent more expensive than 
using regular commercial channels. Should H.R. 4005 be enacted into law 
with this provision, an even greater portion of food aid funding will 
go to overseas transportation instead of providing food and other 
assistance to hungry people. As such, higher levels of funding for Food 
for Peace and McGovern-Dole will be required to offset these additional 
costs and maintain the present reach of food aid programs.
               food for peace development program funding
    The recently enacted Farm Bill reauthorization maintains a minimum 
commitment for Food for Peace development programs of $350 million a 
year, but also allows the allocation for such programs to rise to 30 
percent of overall Food for Peace funding. Food for Peace development 
programs have been appropriated $375 million in each of the last two 
fiscal years, and this figure falls within the new funding range set by 
the Farm Bill. We hope USAID will consider this as guidance from your 
Subcommittee in their allocation of Food for Peace funding in fiscal 
year 2015.
                     monetization in food for peace
    The recently enacted Farm Bill also increased the amount of Food 
for Peace funding going to its existing cash account, referred to as 
202e, and broadened the uses of this funding to include directly paying 
for Food for Peace program costs. It is our understanding that this 
change was made primarily to reduce the need to monetize food aid 
commodities.
    Monetization of in-kind food donations is an inefficient means to 
raise proceeds to payfor Food for Peace program costs. CRS has 
implemented monetization programs for many years and our experience 
shows that on average 25 percent of the value in the commodities and 
shipping costs are lost in these transactions. It is our goal to reduce 
the need to engage in monetization in Food for Peace programs. As 
provided in the fiscal year 2014 appropriations, we request that you 
direct an additional $35 million in this year's Food for Peace budget 
to 202e for the express purpose of replacing monetization. This 
additional $35 million in 202e, along with the new flexibilities in the 
Farm Bill, should provide enough cash funding to forgo the use of 
monetization in all Food for Peace programs except for one (note, the 
recently passed Farm Bill retains a requirement that at least 15 
percent of Food for Peace development resources be dedicated to 
monetization and the one remaining monetization program is projected to 
meet this requirement).
                 local and regional procurement program
    CRS requests that the Subcommittee fund the permanent Local and 
Regional Procurement (LRP) program, authorized by the recently enacted 
Farm Bill, at $80 million for fiscal year 2015. CRS supports the use of 
LRP in conjunction with McGovern-Dole programming, as was suggested in 
authorizing language. We also recognize that LRP can be useful in other 
food assistance programming and should be available to project 
implementers to achieve food security objectives. CRS has successfully 
implemented projects in Mali and Burkina Faso in conjunction with 
McGovern-Dole programs under the auspices of the pilot LRP program 
authorized by the 2008 Farm Bill. In these projects, we found that 
using locally sourced food helped lay the ground work for 
sustainability of the programs, by connecting local farmers to schools, 
helping these farmers produce appropriate products for local schools, 
and teaching parent-teacher associations to purchase, prepare, and 
manage locally grown foods. Food costs were also generally lower, thus 
making it more likely that national governments could ultimately assume 
the costs of implementing the program. We also note that replacing US 
commodities with locally produced ones would require a gradual 
transition period and that even after this period, US commodities would 
likely be needed since local crop yields can vary significantly from 
yearto year and thus additional food would be required to fill these 
gaps.
    [This statement was submitted by Dr. Carolyn Woo, President and 
Chief Executive Officer of Catholic Relief Services.]
                                 ______
                                 
  Prepared Statement of the Center for Science in the Public Interest
    2015. My testimony is focused on appropriations for the food 
programs at the Food and Drug Administration (FDA) and the U.S. 
Department of Agriculture (USDA). We are requesting additional budget 
authority above the President's request for FDA's Foods Program of $100 
million and for the Food Safety and Inspection Service (FSIS) at USDA 
of $9.3 million.
    The Center for Science in the Public Interest (CSPI) is a nonprofit 
health advocacy and education organization focused on health and 
nutrition, and food safety issues. CSPI is supported principally by the 
900,000 subscribers to its Nutrition Action HealthLetter and by 
foundation grants. We do not accept government or industry funding.
                           fda funding levels
    FDA is in the third year of implementing the Food Safety 
Modernization Act (FSMA). Under FSMA, food producers, importers, and 
manufacturers are responsible for the safety of the food they market to 
consumers. FDA is required to oversee the food industry's efforts by 
issuing risk-based standards for growing, manufacturing, and importing 
food, and by conducting compliance inspections. For FSMA implementation 
in fiscal year 2015, the President has proposed a $20.6 million 
increase in budget authority for the Foods Program at FDA. 
Additionally, the President has proposed two new fees to support FSMA 
activities. The user fee on imported foods would generate $137.5 
million to support border inspections and implementation of FSMA's 
import provisions. A registration and inspection user fee would 
generate $50.7 million to support inspection programs.
    In recent years, Congress has recognized the need to increase food 
safety resources at FDA and fund implementation of FSMA. We are 
grateful for the Subcommittee's support and urge that it continue to 
provide the agency with adequate funding to carry out its critical food 
safety mission.
    It is our belief that an increase of $20.6 million is inadequate, 
and that it is the two fee proposals that outline the true scope of 
what the agency needs to fully implement FSMA. However, Congress has 
not been receptive to new user fee proposals in prior budgets, and we 
do not anticipate that changing in the current budget cycle. We request 
that the Subcommittee increase appropriations for food safety, 
consistent with its past actions, by at least $90 million for FSMA 
implementation above the President's request for fiscal year 2015. The 
basis for our request is the May, 2013, report mandated by FSMA in 
which the agency estimated its funding will have to increase by $400 
million to $450 million above the fiscal year 2012 baseline over 5 
years to fully implement FSMA. While not fully funding the needs of the 
agency for implementing FSMA, the requested increase puts FDA's funding 
level on a closer trajectory to fulfill its responsibilities than would 
the President's budget.
    In addition, we believe FDA needs at least an additional $10 
million to meet critical public health needs in the area of nutrition 
policy. FDA has made an initial determination to remove the GRAS 
(Generally Recognized as Safe) status for partially hydrogenated oils 
(PHO), a decision that would save an estimated 3,000 to 7,000 lives 
annually. The comment period on this proposal has just closed and it is 
incumbent on FDA to make a final determination in an expeditious manner 
and implement an aggressive, but reasonable, timetable for industry to 
comply.
    The Agency has also recently published a proposed revision of the 
Nutrition Facts label that provides for many important improvements 
based on today's scientific evidence, including a bolder statement of 
calories, removal of unnecessary text, and adding a line for ``added 
sugars.'' Again, it is critical that FDA acts with dispatch in 
reviewing the comments that this proposal will engender and make a 
final decision with a timely implementation schedule. It has been more 
than 20 years since the Nutrition Facts panel was established and our 
current knowledge of the roles various nutrients play in our health 
should be reflected in today's food labeling. Maintaining the momentum 
on this issue is essential to reaping the benefits of these changes.
    FDA also has much unfinished business in nutrition policy. Front-
of-package (FOP) labeling and the clarity of ingredient labels need to 
be addressed. FDA has sponsored consumer research on front-of-package 
nutrition labels, and 3 years ago the Institute of Medicine (IOM) 
recommended that FDA mandate a uniform national system of FOP labels. 
FDA should have seized the opportunity provided by the Nutrition Facts 
panel changes to address the confusing signals sent by many food 
packages on the front of the label, which every consumer sees. Yet the 
primary display panels on packages are often jumbles of messages about 
healthy aspects of food that are misleading when the food is considered 
as a whole. Also, ingredient labels on many packages remain painfully 
difficult to read. FDA should have sufficient resources to address this 
important outstanding business on labeling.
    Moreover, more definitive action on sodium is required. Four years 
ago, the IOM published a landmark report laying out a road map for FDA 
to reduce sodium in the food supply. The Dietary Guidelines for 
Americans recommends that people over 50, African-Americans, and people 
with hypertension--or more than half of all adults--should limit 
themselves to 1,500 milligrams of sodium per day. Americans average 
about 4,000 milligrams of sodium per day. That higher level is causing 
about 100,000 more deaths per year from heart attacks and strokes than 
would occur if people were consuming 2,000 milligrams per day. While 
the revisions to the Nutrition Facts panel include a very modest 
reduction in the daily value for sodium from 2,400 mg to 2,300 mg, much 
more is needed, especially the publication of a guidance for industry 
that would provide targets for lowering sodium.
    In addition, FDA has yet to publish the final rule for calorie 
labeling in chain restaurants, where Americans consume one-third of 
meals and caloric intake is higher than at home. FDA must not let these 
matters be further delayed, and for this kind of forward movement on 
public health, with the potential for saving tens of thousands of lives 
and tens of billions of dollars annually, the agency requires 
resources. These critical public health needs require additional 
funding so that FDA has the scientific base and staff resources to act 
today, not tomorrow or the day after.
                          usda funding levels
    The President's budget proposes cutting FSIS by $9.3 million in 
fiscal year 2015. This is premised upon the agency achieving savings 
from implementation of the proposed poultry slaughter inspection 
program. Since FSIS has not finalized a rule and has not announced a 
date for doing so, this cut seems to put the cart before the horse. The 
Subcommittee should reject this premature cut until FSIS can 
demonstrate that its program is effective at protecting public health 
and can achieve the projected savings. We request the Subcommittee fund 
discretionary programs in FSIS at the fiscal year 2014 level of $1,011 
million.
    Again, thank you for the opportunity to submit testimony on the 
fiscal year 2015 Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies Appropriations Bill.
    [This statement was submitted by Michael F. Jacobson, Ph.D., 
Executive Director, Center for Science in the Public Interest.]
                                 ______
                                 
 Prepared Statement of the Central Arizona Water Conservation District 
                                (CAWCD)
    On behalf of the Central Arizona Water Conservation District 
(CAWCD), I am writing to ask that you include at least $17.5 million 
from the U.S. Department of Agriculture's Environmental Quality 
Incentive Program (EQIP) for the Colorado River Basin Salinity Control 
Program in the fiscal year 2015 Appropriation bill. Funding for the 
salinity control program will help protect the water quality of the 
Colorado River that is used by approximately 40 million people for 
municipal and industrial purposes and used to irrigate approximately 4 
million acres in the United States.
    CAWCD manages the Central Arizona Project (CAP), a multi-purpose 
water resource development and management project that delivers 
Colorado River water into central and southern Arizona. The largest 
supplier of renewable water in Arizona, CAP delivers an average of more 
than 1.5 million acre-feet of Arizona's 2.8 million acre-foot Colorado 
River entitlement each year to municipal and industrial users, 
agricultural irrigation districts, and Indian communities.
    Our goal at CAP is to provide an affordable, reliable and 
sustainable supply of Colorado River water to a service area that 
includes more than 80 percent of Arizona's population.
    These renewable water supplies are critical to Arizona's economy 
and to the economies of Native American communities throughout the 
state. Nearly 90 percent of economic activity in the State of Arizona 
occurs within CAP's service area. CAP also helps the State of Arizona 
meet its water management and regulatory objectives of reducing 
groundwater use and ensuring availability of groundwater as a 
supplemental water supply during future droughts.
                negative impacts of concentrated salts:
    Natural and man-induced salt loading to the Colorado River creates 
environmental and economic damages. EPA has identified that more than 
60 percent of the salt load of the Colorado River comes from natural 
sources. Additionally, human activity, principally irrigation, adds to 
the salt load of the Colorado River. The U.S. Bureau of Reclamation 
(Reclamation) has estimated damages at about $376 million per year. 
Modeling by Reclamation indicates that damages will rise to 
approximately $577 million per year by the year 2030 without 
continuation of the Program. These damages include:
  --A reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector;
  --Increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --An increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector; and
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.
    Funding for salinity control will prevent the water quality of the 
Colorado River from further degradation and significant increases in 
economic damages to municipal, industrial and irrigation users.
  history of the usda's colorado river basin salinity control program:
    Recognizing the rapidly increasing salinity concentration in the 
Lower Colorado River and its impact on water users, Arizona joined with 
the other Colorado River Basin States in 1973 and organized the 
Colorado River Basin Salinity Control Forum (Forum). In 1974, the Forum 
worked with Congress in the passage of the Colorado River Basin 
Salinity Control Act (Act) to offset increased damages caused by 
continued development and use of the waters of the Colorado River.
    Congress authorized a salinity control program (Program) for the 
United States Department of Agriculture (USDA) through an amendment of 
the Act in 1984. With the enactment of the Federal Agriculture 
Improvement and Reform Act of 1996 (FAIRA), Congress directed that the 
Program should continue to be implemented as part of the newly created 
EQIP. Since the enactment of the Farm Security and Rural Investment Act 
(FSRIA) in 2002, there have been, for the first time in a number of 
years, opportunities to adequately fund the Program within EQIP.
    In 2008, Congress passed the Food, Conservation and Energy Act 
(FCEA). The FCEA addressed the cost sharing required from the Basin 
Funds. In so doing, the FCEA named the cost sharing requirement as the 
Basin States Program (BSP). The BSP will provide 30 percent of the 
total amount that will be spent each year by the combined EQIP and BSP 
effort. With the passage of the Agricultural Act of 2014 the 
authorities for USDA to implement salinity control activities in the 
Colorado River Basin were continued.
    The Program, as set forth in the Act, is to benefit Lower Basin 
water users hundreds of miles downstream from the sources of salinity 
in the Upper Basin. The salinity of Colorado River waters increases 
from about 50 mg/L at its headwaters to more than 700 mg/L in the Lower 
Basin. There are very significant economic damages caused downstream by 
high salt levels in the water. EQIP is used to improve upstream 
irrigation efficiencies which in turn reduce leaching of salts to the 
Colorado River. There are also local benefits in the Upper Colorado 
River Basin from the Program in the form of soil and environmental 
benefits, improved agricultural production, improved water 
efficiencies, lower fertilizer and labor costs, and water distribution 
and infrastructure improvements. The mix of funding under EQIP, cost 
sharing from the Basin States and efforts, and cost sharing brought 
forward by local producers have created a most remarkable and 
successful partnership.
    The threat of salinity continues to be a concern in both the United 
States and Mexico. In 2012, a five-year agreement, known as Minute 319, 
was signed between the U.S. and Mexico to guide future management of 
the Colorado River. Among the key issues addressed in Minute 319 
included an agreement to maintain salinity standards. The CAWCD and 
other key water providers are committed to meeting these goals.
                              conclusion:
    Implementation of salinity control practices through EQIP has 
proven to be a very cost-effective method of controlling the salinity 
of the Colorado River. CAWCD urges the subcommittee to include at least 
$17.5 million from the USDA's Environmental Quality Incentive Program 
for the Colorado River Basin Salinity Control Program in the fiscal 
year 2015 Appropriation bill. If adequate funds are not appropriated, 
significant damages from the higher salt concentrations in the water 
will be more widespread in the United States and Mexico.
    [This statement was submitted by David V. Modeer, General Manager, 
Central Arizona Project.]
                                 ______
                                 
                   Letter From the Choose Clean Water
                                                     March 28, 2014
Hon. Mark Pryor,
Chairman, Subcommittee on Agriculture, Rural Development, Food and Drug 
        Administration and Related Agencies,
Washington, D.C. 20510
Hon. Roy Blunt,
Ranking Minority Member, Subcommittee on Agriculture, Rural 
        Development, Food and Drug Administration and Related Agencies,
Washington, D.C. 20510
    Dear Chairman Pryor and Ranking Member Blunt: As members of the 
Choose Clean Water Coalition we are requesting continued support for 
clean water in the Chesapeake Bay watershed through the conservation 
programs of the new Farm Bill (the Agricultural Act of 2014). There are 
87,000 farms in the Chesapeake region, and those that are well run 
protect their water resources and add much to our landscape, 
environment and economy. We want to ensure that these responsible farms 
and farmers remain economically viable. These conservation programs are 
critical for maintaining and restoring clean water to the rivers and 
streams throughout the Chesapeake Bay region, and for the Bay itself. 
These programs are also essential for the agricultural sector to meet 
requirements under the Clean Water Act.
    We urge you to oppose cuts to mandatory agricultural conservation 
programs in fiscal year 2015. The recent enactment of a new Farm Bill 
sets us on a new path toward clean water in our region, but only if key 
conservation programs are funded as Congress intended.
    At least 11 million people in this region get their drinking water 
directly from the rivers and streams that flow through the cities, 
towns and farms throughout our region. The quality of this water is 
critical to both human health and to the regional economy. The efforts 
to clean the Chesapeake began a generation ago under President Reagan 
in 1983. In his 1984 State of the Union speech President Reagan said, 
``Preservation of our environment is not a liberal or conservative 
challenge, it's common sense.''
    In order to follow a common sense path to maintain economically 
viable well run farms and to have healthy local water and a restored 
Chesapeake Bay, which is critical for our regional economy, we request 
full fundingfor the authorized amount in the Farm Bill for the 
following programs in fiscal year 2015:
u.s. department of agriculture--natural resources conservation service 
                                 (nrcs)
Environmental Quality Incentives Program (EQIP)--$1.6 billion
    This national Farm Bill conservation program provides a formula 
based allocation to farmers by state and is used for various 
conservation practices, such as nutrient management, cover crops, 
conservation tillage, fencing animals out of streams, restoring 
vegetative buffers along streams, etc., that are critical to protecting 
and restoring water quality throughout the region and the nation. EQIP 
has been essential over the years in this region for farmers to 
implement and maintain practices that enhance their operations and 
benefit the local environment. We support full funding for the $1.6 
billion for which this program is authorized in the new Farm Bill. This 
funding level is also critical to the success of the Regional 
Conservation Partnership Program that is allocated 7 percent of EQIP 
funds.
Regional Conservation Partnership Program (RCPP)--$100 million
    We support the $100 million authorized level of this new Farm Bill 
program, as well as the President's $100 million budget request for 
fiscal year 2015. A number of former Farm Bill programs, including the 
Chesapeake Bay Watershed Initiative, were ended and incorporated into 
the new RCPP. In order to continue the success that our region's 
farmers have had in reducing their impacts to local waters and the Bay 
over the past 5 years we strongly urge you to fully fund the RCPP in 
fiscal year 2015 and beyond. This new program is critical to continuing 
the march toward clean water throughout our region.
    Thank you for your consideration on this very important request to 
maintain funding for these programs which are critical to both our 
agricultural community and for clean water throughout the mid-Atlantic 
region.
            Sincerely,

1000 Friends of Maryland
American Rivers
Anacostia Watershed Society Audubon Naturalist Society Blue Water 
Baltimore Chapman Forest Foundation
Citizens for Pennsylvania's Future
Clean Water Action Conservation Pennsylvania Delaware Nature Society
Elk Creeks Watershed Association
Friends of Dyke Marsh
Friends of Frederick County
Friends of Lower Beaverdam Creek
IFriends of the North Fork of the Shenandoah River
IFriends of the Rappahannock Friends of the Rivers of Virginia 
Interfaith Partners for the Chesapeake James River Association
Loudoun Wildlife Conservancy
Maryland Academy of Sciences at the Maryland Science Center
Maryland Conservation Council
Maryland League of Conservation Voters Mattawoman Watershed Society 
National Parks Conservation Association National Wildlife Federation
Natural Resources Defense Council
Nature Abounds
New York State Council Trout Unlimited Pennsylvania Council of Churches 
Pennsylvania Council of Trout Unlimited Piedmont Environmental Council 
Potomac Conservancy
Rivanna Conservation Society Rock Creek Conservancy Sassafras River 
Association
Savage River Watershed Association Shenandoah Riverkeeper Shenandoah 
Valley Network Stewards of the Lower Susquehanna
St. Mary's River Watershed Association Theodore Roosevelt Conservation 
Partnership Trout Unlimited
Trout Unlimited Mid-?Atlantic Council Upper Susquehanna Coalition 
Virginia Conservation Network
Virginia League of Conservation Voters
Waterkeepers Chesapeake
West Virginia Rivers Coalition
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum
    Waters from the Colorado River are used by approximately 40 million 
people for municipal and industrial purposes and used to irrigate 
approximately 4 million acres in the United States. Natural and man-
induced salt loading to the Colorado River creates environmental and 
economic damages. The U.S. Bureau of Reclamation (Reclamation) has 
estimated the currently quantifiable damages at about $376 million per 
year. Modeling by Reclamation indicates that the quantifiable damages 
will rise to approximately $577 million per year by the year 2030 
without continuation of the Program. Congress authorized the Colorado 
River Basin Salinity Control Program (Program) in 1974 to offset 
increased damages caused by continued development and use of the waters 
of the Colorado River. The USDA portion of the Program, as authorized 
by Congress and funded and administered by the Natural Resources 
Conservation Service (NRCS) under the Environmental Quality Incentives 
Program (EQIP), is an essential part of the overall effort. A funding 
level of $17 million to $18 million annually is required to prevent 
further degradation of the quality of the Colorado River and increased 
downstream economic damages.
    In enacting the Colorado River Basin Salinity Control Act in 1974, 
Congress directed that the Colorado River Basin Salinity Control 
Program should be implemented in the most cost-effective way. The 
Program is currently funded under EQIP through NRCS and under 
Reclamation's Basinwide Program. The
    Act requires that the basin states cost share 30 percent of the 
overall effort. Historically, recognizing that agricultural on-farm 
improvements were some of the most cost-effective strategies, Congress 
authorized a program for the United States Department of Agriculture 
(USDA) through amendment of the Act in 1984. With the enactment of the 
Federal Agriculture Improvement and Reform Act of 1996 (FAIRA), 
Congress directed that the Program should continue to be implemented as 
part of the newly created Environmental Quality Incentives Program. 
Since the enactment of the Farm Security and Rural Investment Act 
(FSRIA) in 2002, there have been, for the first time in a number of 
years, opportunities to adequately fund the Program within EQIP. In 
2008, Congress passed the Food, Conservation and Energy Act (FCEA). The 
FCEA addressed the cost sharing required from the Basin Funds. In so 
doing, the FCEA named the cost sharing requirement as the Basin States 
Program (BSP). The BSP will provide 30 percent of the total amount that 
will be spent each year by the combined EQIP and BSP effort. With the 
passage of the Agricultural Act of 2014 the authorities for USDA to 
implement salinity control activities in the Colorado River Basin were 
continued.
    The Program, as set forth in the Act, is to benefit Lower Basin 
water users hundreds of miles downstream from the sources of salinity 
in the Upper Basin. The salinity of Colorado River waters increases 
from about 50 mg/L at its headwaters to more than 700 mg/L in the Lower 
Basin. There are very significant economic damages caused downstream by 
high salt levels in the water. EQIP is used to improve upstream 
irrigation efficiencies which in turn reduce leaching of salts to the 
Colorado River. There are also local benefits in the Upper Colorado 
River Basin from the Program in the form of soil and environmental 
benefits, improved agricultural production, improved water 
efficiencies, lower fertilizer and labor costs, and water distribution 
and infrastructure improvements. Local producers submit cost-effective 
applications under EQIP in Colorado, Utah and Wyoming and offer to cost 
share in the acquisition of new irrigation equipment. The mix of 
funding under EQIP, cost share from the Basin States and efforts and 
cost share brought forward by local producers has created a most 
remarkable and successful partnership.
    After longstanding urgings from the states and directives from 
Congress, NRCS has recognized that this Program is different than small 
watershed enhancement efforts common to EQIP. In the case of the 
Colorado River salinity control effort, the watershed to be considered 
stretches more than 1,400 miles from the Colorado River's headwater in 
the Rocky Mountains to the Colorado River's terminus in the Gulf of 
California in Mexico. Each year the NRCS State Conservationists for 
Colorado, Utah and Wyoming prepare a three-year funding plan for the 
salinity efforts under EQIP. The Forum supports this funding plan which 
recognizes the need for $17.5M in fiscal year 2015. This includes the 
moneys needed for both on-farm and technical assistance. State and 
local cost-sharing is triggered by the Federal appropriation. The Forum 
appreciates the efforts of NRCS leadership and the support of this 
Subcommittee in implementing the Program.
    The Forum is composed of gubernatorial appointees from Arizona, 
California, Colorado, Nevada, New Mexico, Utah and Wyoming. The Forum 
is charged with reviewing the Colorado River's water quality standards 
every 3 years. In so doing, it adopts a Plan of Implementation 
consistent with these standards. The level of appropriation requested 
in this testimony is in keeping with the adopted Plan of 
Implementation. If adequate funds are not appropriated, significant 
damages from the higher salinity concentrations in the water will be 
more widespread in the United States and Mexico.
    Concentration of salt in the Colorado River causes approximately 
$376 million in quantified damages and significantly more in 
unquantified damages in the United States and results in poor water 
quality for United States users. Damages occur from:
  --a reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector,
  --increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector.
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector,
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector,
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector,
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector, and
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.
    Over the years, NRCS personnel have developed a great working 
relationship with farmers within the Colorado River Basin. Maintaining 
salinity control achieved by implementation of past practices requires 
continuing education and technical assistance from NRCS personnel. 
Additionally, technical assistance is required for planning and design 
of future projects. Lastly, the continued funding for the monitoring 
and evaluation of existing projects is essential to maintaining the 
salinity reduction already achieved.
    In summary, implementation of salinity control practices through 
EQIP has proven to be a very cost effective method of controlling the 
salinity of the Colorado River and is an essential component to the 
overall Colorado River Basin Salinity Control Program. Continuation of 
EQIP with adequate funding levels will prevent the water quality of the 
Colorado River from further degradation and significantly increased 
economic damages to municipal, industrial and irrigation users.
                                 ______
                                 
          Prepared Statement of the Cystic Fibrosis Foundation
    On behalf of the Cystic Fibrosis Foundation and the approximately 
30,000 people with cystic fibrosis (CF) in the United States, we are 
pleased to submit the following testimony to the Senate Appropriations 
Committee's Subcommittee on Agriculture, Rural Development, Food and 
Drug Administration, and Related Agencies for fiscal year 2015. In 
order to encourage efficient review of drugs for cystic fibrosis and 
other rare diseases, we urge the Committee to prioritize the Food and 
Drug Administration (FDA) in fiscal year 2015 by providing the highest 
possible funding level for this essential agency. We encourage special 
consideration and support for the Center for Drug Evaluation and 
Research (CDER), its Office of New Drugs (OND), and the Office of 
Orphan Products Development (OOPD).
    The Cystic Fibrosis Foundation is appreciative of the fiscal year 
2014 funding level the Committee provided the Food and Drug 
Administration, an increase of $91 million over the fiscal year 2013 
enacted level. However, as the agency's responsibilities continue to 
grow and we enter an unprecedented era of innovation in drug 
development for rare diseases, even more needs to be done.
    Cystic fibrosis is a rare genetic disease that causes the body to 
produce abnormally thick mucus that clogs the lungs and other bodily 
systems, resulting in life-threatening infections and other 
complications. There are nearly 2,000 mutations of the CF gene that can 
impact those with CF. In recent years, genetically-targeted treatments 
have become a reality for cystic fibrosis patients with particular CF 
mutations, changing the face of this chronic disease for a small 
portion people of with CF. Now, therapies that target other mutations 
are moving through the pipeline.
    With these groundbreaking advancements, clinical trial design 
issues have been identified by cystic fibrosis experts that may arise 
in review of future treatments. For example, researchers and clinicians 
are concerned about the challenges inherent in executing placebo-
controlled trials for genetically-targeted treatments when successful, 
genetically-targeted drugs are already approved and on the market. 
Outcome measures for young children and infants and the need for 
flexibility for the use of markers reasonably likely to predict 
clinical outcome are also concerns. How to accelerate classification of 
biomarkers, test combinations of drugs in populations that might 
include patients with several different CF mutations, develop and test 
single and combination therapies in n of 1 trials (those that consist 
of a single patient), and develop and implement Patient Reported 
Outcomes (PROs) are all questions that need to be considered as we 
enter this era of personalized medicine.
    The Cystic Fibrosis Foundation and the patients, families, 
researchers, and clinicians we represent commend the FDA for its 
flexible and patient-centered approach to drug development. The 
agency's flexible attitude toward new drug review has produced 
significant treatment advances for those with CF, and demonstrates how 
the funding the agency receives is used effectively and efficiently.
    We also note that FDA has moved expeditiously to implement a number 
of important provisions of the Food and Drug Administration Safety and 
Innovation Act (FDASIA), including but not limited to the breakthrough 
therapy designation, and to convene public meetings to consider 
important questions related to patient-focused drug development in a 
number of different therapeutic areas.
    However, it is important that the FDA use the resources provided by 
this Committee to make the most of all tools at its disposal as it 
considers innovative new treatments and confronts the challenges ahead. 
As the Committee considers next year's funding for the FDA, the CF 
Foundation encourages the Committee to direct the Food and Drug 
Administration to fully implement Section 903 of FDASIA, Consultation 
with External Experts on Rare Diseases, Targeted Therapies, and Genetic 
Targeting of Treatments. Signed into law nearly 2 years ago, we 
encourage the FDA to utilize this provision to the fullest extent 
possible.
    Section 903 requires the agency to ensure that opportunities exist 
for FDA consultation with rare disease experts. Specifically, it 
states, ``The Secretary shall develop and maintain a list of external 
experts who, because of their special expertise, are qualified to 
provide advice on rare disease issues . . . The Secretary may, when 
appropriate to address a specific regulatory question, consult such 
external experts on issues related to the review of new drugs and 
biological products for rare diseases and drugs and biological products 
that are genetically targeted.''
    Potential topics of consultation are encompassed in the law. They 
include rare diseases and their severity, the unmet medical need 
associated with rare diseases, the willingness and ability of 
individuals with a rare disease to participate in clinical trials, 
assessment of the benefits and risks of therapies to treat rare 
diseases, the general design of clinical trials for rare disease 
populations, and the demographics and the clinical description of 
patient populations.
    The CF Foundation strongly supported the inclusion of section 903 
in the user fee reauthorization. This type of case-by-case consultation 
with external experts, initiated by FDA reviewers, is different from 
other provisions of FDASIA. Section 903 calls for proactive outreach to 
rare disease experts when ``such consultation is necessary because the 
Secretary lacks the specific scientific, medical or technical expertise 
necessary for the performance of the Secretary's regulatory 
responsibilities.'' This outreach is on a case-by-case basis on a 
particular issue. It is not tied to drug sponsors, and it is not part 
of a pre-scheduled public meeting or workshop. There are 7,000 rare 
diseases, each with their own demographics, consideration of unmet 
medical need and disease.
    [This statement was submitted by Robert J. Beall, Ph.D., President 
and CEO, Cystic Fibrosis Foundation.]
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology
    The Federation of American Societies for Experimental Biology 
(FASEB) respectfullyrequests a fiscal year (FY) 2015 appropriation of a 
minimum of $335 million for the Agriculture and Food Research 
Initiative (AFRI) within the National Institute of Food and 
Agriculture. We strongly urge a sustained commitment to investment in 
the critical field of agriculture research, with an ultimate target of 
the authorized funding level.
    FASEB, a federation of 26 scientific societies, represents more 
than 115,000 life scientists and engineers, making it the largest 
coalition of biomedical research associations in the United States. Our 
mission is to advance health and welfare by promoting progress and 
education in biological and biomedical sciences.
    AFRI is the preeminent competitive grant program of the U.S. 
Department of Agriculture (USDA), facilitating collaborative, 
interdisciplinary research at universities and private research 
institutions across the country to address significant societal 
challenges such as food safety and security and the need for 
sustainable agriculture practices. Research funded through AFRI 
generates knowledge in the food, nutrition, and agricultural sciences 
and translates these discoveries into practice. AFRI also encourages 
young scientists to pursue careers in agricultural research by 
providing funding for more than 1,500 of the nation's most promising 
pre- and postdoctoral scholars in agricultural, nutrition, and food 
sciences.
    Examples of recent USDA-funded research include:
  --New Environmentally Friendly Products: Wood adhesive, used to make 
        plywood and various other composite materials, is traditionally 
        a noxious, petroleum based compound. Researchers at the 
        University of Oregon successfully developed a nontoxic and 
        environmentally friendly alternative made from soybean flour. 
        Using the new wood adhesive reduced hazardous air pollutant 
        emissions at production facilities by 90 percent.
  --Increasing Food Safety: AFRI-funded researchers developed a new 
        two-step process to eliminate E. coli bacteria contamination 
        from spinach. The process involves using ultrasound waves and a 
        chemical washing treatment to eliminate 99.99 percent of 
        bacterial presence from fresh spinach. Industry is exploring 
        ways to broaden the use of this process for other fresh fruits 
        and vegetables to reduce contamination and increase consumer 
        safety.
  --Improving the Health of Honeybees: Honeybees are an integral part 
        of the agriculture system and pollinate over 130 fruit and 
        vegetable crops in the U.S. Over the past several years, the 
        honeybee population has been declining due to Colony Collapse 
        Disorder (CCD), which has tripled the cost of maintaining 
        beehives. An AFRI-funded research team identified the varroa 
        mite as a key cause of CCD, helping honeybee breeders to choose 
        variants that protect against the disorder.
  --More Efficient and Effective use of Fungicides: Delivering safe, 
        healthy fruit to market is the goal of every grower. 
        Traditionally, growers must estimate the best time to apply 
        fungicide and how much to use to protect their plants from 
        fungal rot. AFRI-funded researchers developed a web-based 
        prediction tool to help growers determine how much fungicide to 
        use and when to apply it. The system has helped growers reduce 
        fungicide use by 50 percent, improving fruit safety for 
        consumers and increasing profits for farmers.
            realizing the potential of agricultural research
    With an increasing world population, demand for innovative food and 
agricultural products has never been greater. Agricultural, nutrition, 
and food scientists are developing more abundant, nutritious food, 
creating new biofuel materials, and designing more sustainable 
agriculture practices. AFRI research and education programs support the 
translation of cutting edge science into solutions for some of the 
greatest challenges facing our nation.
    Agricultural research directly benefits all sectors of society and 
every geographic region of the nation. The food, nutrition, and 
agriculture industries rely on Federal funding for basic scientific 
research that leads to the development of innovative products that 
industry can bring to market, as well as programs that train the next 
generation of agricultural researchers. With rising challenges from 
foreign competitors and growing demand for agricultural products, AFRI 
is significantly underfunded. AFRI's budget has not increased since it 
was established in 2008. FASEB recommends a minimum of $335 million for 
AFRI in fiscal year 2015 as part of a sustained commitment to 
investment in the critical field of agricultural research, with an 
ultimate target of the authorized level of $700 million.
    Thank you for the opportunity to offer FASEB's support and 
recommendations for AFRI.
    [This statement was submitted by Meghan McCabe, Legislative Affairs 
Analyst, Federation of American Societies for Experimental Biology.]
                                 ______
                                 
  Prepared Statement of the Association of Fish and Wildlife Agencies
    On behalf of millions of sportsmen conservationists, livestock 
producers, and state and private academic research institutions, we ask 
your help in the end-game strategy for controlling zoonotic diseases in 
the United States, particularly bovine brucellosis and bovine 
tuberculosis. These diseases are transmissible between livestock and 
wildlife--and under certain circumstances, humans. Despite nationwide 
efforts to eradicate zoonotic diseases in livestock, both bovine 
brucellosis and bovine tuberculosis remain active in isolated wildlife 
reservoirs in the West and Midwest. To bring this decades-long campaign 
to a long-term resolution, we ask the Subcommittee to include language 
encouraging the use of competitive grants for zoonotic disease research 
under the National Institute of Food and Agriculture (NIFA) Animal 
Health and Disease Research Initiative.
    The Agricultural Act of 2014 recognized the need for this research 
by making the development of improved surveillance and vaccine systems 
a priority research area under the Competitive, Special, and Facilities 
Research Grant Act. If funded, researchers nationwide using matching 
investments and collaboration among state and private research 
institutions could compete for grants to address bovine brucellosis and 
bovine tuberculosis. Many partnerships have already been built in this 
wide network, representing significant non-Federal investment, which 
includes recent upgrades in laboratories to higher standards of safety 
for handling the bacteria that cause these diseases. The persistence of 
these diseases is an obstacle for wildlife conservation and livestock 
health. The current strategy of responding to outbreaks by slaughtering 
or depopulating infected herds and populations sacrifices economic and 
social values. Depopulation as a management tool necessarily involves 
the taking of healthy animals along with the sick and deprives 
economies and communities of benefits from livestock industry and 
wildlife recreation. False-positive detections using current tests are 
also a problem, costing ranchers substantial sums out of profit. 
Financial pressure on livestock operations is also a risk to 
conservation as these businesses keep America's rural lands as open 
spaces under good stewardship. When ranches fail and land is developed, 
wildlife habitat is lost.
    The use of competitive grants under the existing Animal Health and 
Disease ResearchInitiative ensures that Federal resources to combat 
this animal health problem are used effectively. We seek to focus the 
combined efforts of many who are already struggling with the problem 
diseases in livestock and wildlife. This approach is designed for clear 
accountability of measurable results.
    Thank you for your consideration.
    [This statement was submitted by Greg Schildwachter, Watershed 
Results.]
                                 ______
                                 
       Prepared Statement of the Friends of Agricultural Research
    Mister Chairman and Members of the Subcommittee, thank you for this 
opportunity to present our statement supporting funding for the USDA's 
Agricultural Research Service (ARS), and especially for its flagship 
research facility, the Henry A. Wallace Beltsville Agricultural 
Research Center (BARC), in Beltsville Maryland. We strongly recommend 
full fiscal-year 2015 funding support for research programs at 
Beltsville.
    Henry A. Wallace Beltsville Agricultural Research Center--the 
nation's premier agricultural research center that includes the 
Beltsville Human Nutrition Research Center and the research operations 
of the U.S. National Arboretum--has spearheaded technical advances in 
American agriculture for over 100 years. Beltsville celebrated 100 
years of research leadership and technical advances in 2010. The long 
list of landmark research achievements over that time is truly 
remarkable. Still at the threshold of its second century, Beltsville 
stands unequalled in scientific capability, breadth of agricultural 
research portfolio, and concentration of scientific expertise. The 
location of BARC in close proximity to many other Federal research 
agencies as well as the University of Maryland allows for significant 
joint research activities and the leveraging of resources.
    Priorities in the President's fiscal year 2015 Budget Request--Now, 
Mr. Chairman, we turn to key research areas that were highlighted in 
the President's proposed fiscal year 2015 budget. We were pleased to 
see that the fiscal year 2015 budget includes increases for crop 
breeding and protection; animal breeding and protection; enhanced 
environmental stewardship; food safety; and human nutrition. Obviously, 
these are areas of great importance to all Americans, and they are 
certainly among the highest priorities for agricultural research today. 
All of these research areas are strengths of the Beltsville 
Agricultural Research Center and they will benefit well from the unique 
facilities and scientific expertise at the Center. We encourage you to 
seriously consider funding the proposed budget and to ensure that 
Beltsville receives the funding that it needs to address these critical 
research needs.
    In summation, we would highlight these spheres of excellence:
    Crop Breeding and Protection: Beltsville scientists have an 
extensive record of ongoing research relating to protecting crops from 
pests and emerging pathogens. Beltsville's Bee Research Laboratory is 
at the forefront of efforts to determine the cause of colony collapse 
disorder that is devastating the bee industry that is critical for the 
pollination of many crops. Beltsville houses matchless national 
biological collections that are indispensable to the well-being of 
American agriculture. In addition to the actual collections, Beltsville 
scientists are internationally recognized for their expertise and 
ability to quickly and properly identify insect pests, fungal 
pathogens, bacterial threats, and nematodes. This expertise is crucial 
to preventing loss of crops ensuring that invasive threats to American 
agriculture are identified before they can enter the country, thus 
helping to protect homeland security, and ensuring that American 
exports are free of pests and pathogens that could prohibit exports. At 
BARC, research on the breeding of crops and plants has led to improved 
varieties of vegetables, nursery stock, fruits and even turf grasses.
    Animal Breeding and Protection: Beltsville conducts extensive 
research on animal production and animal health. The U.S. Poultry 
industry depends on Beltsville scientists to develop new and more 
effective vaccines and immunological approaches to prevent losses to 
flocks. Animal scientists at BARC have been using cutting-edge genomic 
approaches to increase the feed efficiency of animals used for food and 
to improve disease resistance in farm animals. Many of the emerging 
diseases affecting humans are zoonotic in that they arise first in 
animals. By understanding these diseases in animals and how they might 
be controlled, BARC scientists are helping human as well as animal 
health. BARC has worked with the Smithsonian Museum of Natural History 
to ensure the continued curation of the National Animal Parasite 
collection and with the dairy industry to transfer the technology to 
enhance milk yield in dairy cows. Both of these activities allow for 
BARC scientists to continue to meet the needs of commodity groups and 
producers and to leverage its resources to expand research activities.
    Enhanced Environmental Stewardship: BARC scientists are at the 
forefront of research aimed at development of climate resilient land, 
crop, grazing and livestock production systems. Beltsville became 
actively engaged in climate change research long before climate change 
became a topic of intense media interest; scientists have been able to 
increase our understanding how climate change affects crop production 
and the effects of climate change on growth and spread of invasive and 
detrimental plants such as weeds. The facilities at BARC to replicate 
environmental changes and to model changes in plant production are 
truly unique. Since BARC is an actively farmed facility that is close 
to an urban center and drains into the Chesapeake Bay, it is 
significantly involved in research on agriculture at the ag-urban 
interface and for controlling agricultural impacts on the environment.
    Food Safety: BARC houses the largest food safety laboratory in the 
Agricultural Research Service. It is highly regarded for its research 
on improving the safety of animal products by improving pathogen 
reduction on the farm. This is a significant issue as this research is 
able to reduce the use of antibiotics in agriculture and greatly reduce 
the development of antibiotic resistant organisms in the environment 
and in humans. Beltsville scientists have been and continue to be 
involved in research aimed at keeping pathogens out of our fruits and 
vegetables and to develop effective and efficient ways of monitoring 
contamination of these important commodities.
    Human Nutrition: The Beltsville Human Nutrition Research Center 
(BHNRC) is the nation's largest, oldest and most comprehensive Federal 
human nutrition research center. Unique activities at BHNRC include 
conducting the What We Eat in America survey, which is the government's 
nutrition monitoring program, and the National Nutrient Databank, which 
is the gold standard reference of food nutrient content that is used 
throughout the world. These two activities are the basis for food 
labels, nutrition education programs, food assistance programs 
including SNAP, the Supplemental Nutrition Assistance Program, school 
feeding programs, and government nutrition education programs. Human 
feeding studies conducted by BHNRC scientists were the first ever to 
demonstrate the harmful effects of trans fats in the human diet and 
they have worked with the food industry develop alternatives for their 
removal from the food supply.
    Food Quality Laboratory: The Laboratory concerned with maintaining 
and enhancing fruit and vegetable food quality is to be redirected, but 
the research funding is to remain at the Center. We are supportive of 
keeping the funding for these projects concerning food quality at the 
Henry A. Wallace Beltsville Agricultural Research Center.
    You can see that the Beltsville Agricultural Research Center 
conducts impactful research in those areas that are a priority in the 
President's fiscal year 2015 budget. It is perhaps one of the real 
strengths of the Center that research is conducted in each of these 
areas thereby allowing for unique multidisciplinary activities that cut 
across each of these priorities. It is not uncommon at BARC to see 
plant scientists working side by side with animal scientists. The 
Beltsville Human Nutrition Research Center hired a climate change 
scientist over 10 years ago. The research conducted at BARC not only 
adds to our scientific knowledge but truly improves the quality of life 
for all Americans and significantly impacts American agriculture.
    Lastly, Mr. Chairman, I would like to call to your attention an 
urgent facilities need that is highlighted in the President's fiscal 
year 2015 budget. The Center has aggressively moved to consolidate 
space and reduce costs and has been very successful at doing so. 
However, these plans require the renovation of a building--Building 
307A--that was vacated some years ago in anticipation of a complete 
renovation. In the past, Congress approved partial funding for this 
renovation, and those monies were retained pending appropriation of the 
full amount required for the renovation. Unfortunately, those funds now 
have been lost to ARS. Consequently, renovation of this vacant, highly 
useful building is on indefinite hold. While we realize that funding is 
extremely tight, we affirm that Beltsville urgently needs a renovated 
Building 307A for adequate, high quality lab space. Moreover, a 
renovated Building 307A would not only yield substantial energy savings 
and reduce operating costs, but also would allow Beltsville to move 
forward with other long-delayed relocation and consolidation plans. At 
a minimum, funds are urgently needed to stabilize this vacant building 
from continuing deterioration.
    Mr. Chairman, this concludes our statement. Thank you for 
consideration and support for the educational, research, and outreach 
missions of the Beltsville Agricultural Research Center.
    [This statement was submitted by James D. Anderson, Ph.D., 
President, Friends of Agricultural Research.]
                                 ______
                                 
   Prepared Statement of the International Walking Horse Association 
                                 (IWHA)
    We submit the following testimony seeking funding for the USDA/
APHIS Horse Protection Program of $893,000 for fiscal year 2015. We 
recognize that Congress is focused on the imperative of cutting Federal 
spending. But we believe that it should be possible to achieve 
meaningful reductions in the overall budget while still addressing 
shortfalls in very specific accounts that are vital and have been 
seriously underfunded. This $893,000, the same amount provided by the 
Senate committee in its fiscal year 2014 bill, is urgently needed to 
begin to fulfill the intent of the Horse Protection Act--to eliminate 
the cruel practice of soring--by allowing the USDA to strengthen its 
enforcement capabilities for this law.
    In 1970, Congress passed the Horse Protection Act to end soring, 
the intentional infliction of pain to the hooves and legs of a horse to 
produce an exaggerated gait, practiced primarily in the Tennessee 
Walking Horse show industry.
    For example, caustic chemicals--such as mustard oil, diesel fuel, 
and kerosene--are painted on the lower front legs of a Tennessee 
Walking Horse, then the legs are wrapped for days in plastic wrap and 
bandages to ``cook'' the chemicals deep into the horse's flesh. This 
makes the horse's legs extremely painful and sensitive, and when 
ridden, the horse is fitted with chains that slide up and down the 
horse's sore legs, forcing him to produce an exaggerated, high-stepping 
gait in the show ring. Additional tactics include inserting various 
foreign objects such as metal screws or hard acrylic between a heavy 
stacked shoe and the sole of the horse's hoof; pressure shoeing--
cutting a horse's hoof down to the sensitive live tissue to cause 
extreme pain every time the horse bears weight on the hoof; and 
applying painful chemicals such as salicylic acid to slough off scarred 
tissue, in an attempt to remove evidence of soring.
    The Horse Protection Act authorizes the USDA to inspect Tennessee 
Walking Horses, Racking Horses, and Spotted Saddle Horses--in transport 
to and at shows, exhibits, auctions and sales--for signs of soring, and 
to pursue penalties against violators. Unfortunately, since its 
inception, enforcement of the Act has been plagued by underfunding. As 
a result, the USDA has never been able to adequately enforce the Act, 
allowing this extreme and deliberate cruelty to persist on a widespread 
basis.
    To eliminate soring, the goal of the Act, USDA officials must be 
present at more shows. However, limited funds allow USDA attendance at 
only about 20 percent of more than 500 Tennessee Walking Horse shows. 
Thus, the agency set up an industry-run system of certified Horse 
Industry Organization (HIO) inspection programs, which are charged with 
inspecting horses for signs of soring at the majority of shows. These 
groups license examiners known as Designated Qualified Persons (DQPs) 
to conduct inspections in a self-regulatory role. To perform this 
function, some of these organizations hire industry insiders who have 
an obvious stake in preserving the status quo. Statistics clearly show 
that when USDA inspectors are in attendance to oversee shows affiliated 
with these organizations, the numbers of violations recorded are many 
times higher than at shows where industry inspectors alone are 
conducting the inspections. Unfortunately, the largest, most popular 
HIOs in the industry are the most conflicted, resulting in ongoing, 
widespread abuse of horses. By all measures, the overall DQP program as 
a whole has been a failure--the only remedy is to abolish the 
conflicted industry-run inspection programs charged with self-
regulation and have USDA oversee a legitimate inspection program.
    The USDA appears to have attempted to step up its enforcement 
efforts in recent years, and has begun to work with the Department of 
Justice in prosecuting criminal cases as provided for under the Act. In 
2011, a Federal prosecutor sought the first-ever criminal indictments 
under the Act and as a result, a well-known, winning trainer in the 
Spotted Saddle Horse industry served a prison sentence of over 1 year. 
A former Walking Horse Trainers' Association Trainer of the Year and 
winner of the Tennessee Walking Horse World Grand Championship, Jackie 
McConnell, was indicted in 2012 on 52 counts (18 of them felony) of 
violating the Act and pleaded guilty to felony conspiracy to violate 
the Act. He was sentenced to 3 years of probation and a $75,000 fine in 
Federal court. Another Tennessee trainer, Larry Wheelon, and three of 
his employees have been indicted on 19 counts of aggravated animal 
cruelty charges under state law in a case flowing from a USDA Office of 
Inspector General investigation.
    While these are significant actions which should have a deterrent 
effect, there are scores of other violators who go undetected and many 
cases that go unprosecuted due to a lack of resources. USDA needs 
enhanced resources to carry out its responsibilities under this Act, as 
Congress, and the public, expects.
    In years past, inspections were limited to physical observation and 
palpation by the inspector. Protocols for the use of new technologies, 
such as thermography and ``sniffer'' devices (gas chromatography/mass 
spectrometry (GC/MS) instruments), have been implemented, which can 
help inspectors identify soring more effectively and objectively. The 
results of USDA's recent GC/MS testing for prohibited foreign 
substances used by violators on the legs of horses (either to sore 
them, or to mask underlying soring and evade detection by inspectors) 
are staggering: 62 percent of samples taken by the USDA at 17 horse 
shows in 2013 tested positive for illegal foreign substances, including 
soring, masking, and numbing agents. In 2012, 65 percent of samples 
tested at 24 horse shows by USDA tested positive for illegal foreign 
substances.
    Effective though this inspection protocol may be, due to budget 
constraints, USDA has been unable to purchase and put enough of this 
testing into use in the field, allowing for industry players to 
continually evade detection. In 2013, USDA was able to afford to 
collect and test samples at only 17 of the industry's largest shows; in 
2012, only 24. With increased funding, the USDA could purchase more 
equipment and dispatch more inspectors to use it properly, greatly 
increasing its ability to enforce the HPA.
    Currently, when USDA inspectors arrive at shows affiliated with 
some industry organizations, many of the exhibitors load up and leave 
to avoid being caught with sored horses. While USDA could stop these 
trailers on the way out, agency officials have stated that inspectors 
are wary of going outside of their designated inspection area, for fear 
of harassment and physical violence from exhibitors. Armed security is 
frequently utilized to allow such inspections, at additional expense to 
this program. The fact that exhibitors feel they can intimidate 
government officials without penalty is a testament to the inherent 
shortcomings of the current system.
    Lack of a consistent presence by USDA officials at events featuring 
Tennessee Walking Horses, Racking Horses, and Spotted Saddle Horses has 
fostered a cavalier attitude among industry insiders, who have not 
stopped their abuse, but have only become more clandestine in their 
soring methods. The continued use of soring to gain an advantage in the 
show ring has tainted this segment of the horse industry, and creates 
an unfair advantage for those who are willing to break the law in 
pursuit of victory. Besides the indefensible suffering of the animals 
themselves, the continued acceptance of sored horses in the show ring 
prevents those with sound horses from competing fairly for prizes, 
breeding fees and other financial incentives, while those horse owners 
whose horses are sored may unwittingly suffer property damage and be 
duped into believing that their now abused, damaged horses are 
naturally superior.
    The egregious cruelty of soring is not only a concern for horse 
industry and animal protection organizations, but also for 
veterinarians. In 2008, the American Association of Equine 
Practitioners (AAEP) issued a white paper condemning soring, calling it 
``one of the most significant welfare issues faced by the equine 
industry.'' It called for the abolition of the DQP Program, saying 
``the acknowledged conflicts of interest which involve many of them 
cannot be reasonably resolved, and these individuals should be excluded 
from the regulatory process.'' The AAEP further stated, ``The failure 
of the HPA to eliminate the practice of soring can be traced to the 
woefully inadequate annual budget . . . allocated to the USDA to 
enforce these rules and regulations.''
    The USDA Office of Inspector General conducted an audit of the 
Horse Protection Program, and issued its final report in September of 
2010. The report recommends the abolition of the DQP program, and an 
increase in funding for APHIS enforcement of the Horse Protection Act. 
The agency concurred with the findings and recommendations in the 
report, specifically Recommendation 2: ``Seeking the necessary funding 
from Congress to adequately oversee the Horse Protection Program,'' 
indicating that it would develop a budgeting and staffing plan to phase 
in the resources needed to adequately oversee the Horse Protection 
Program.
    It is unacceptable that more than 40 years after passage of the 
Horse Protection Act, the USDA still lacks the resources needed to end 
this extreme form of abuse. It is time for Congress to give our public 
servants charged with enforcing this Act the support and resources they 
want and need to fulfill their duty to protect these horses as 
effectively and safely as possible.
    We appreciate the opportunity to share our views about this serious 
problem, and thank you for your consideration of our request.
    [This statement was submitted by Mark Matson, President, 
International Walking Horse Association.]
                                 ______
                                 
          Prepared Statement of the Meds & Food for Kids (MFK)
    Meds & Food for Kids (MFK) appreciates the opportunity to submit 
testimony to the Senate Appropriations Subcommittee on Agriculture, 
Rural Development, Food and Drug Administration, and Related Agencies, 
and requests that the Subcommittee fully fund the Local and Regional 
Food Aid Procurement Project (LRP) at $80 million for fiscal year 2015, 
as authorized in section 3207 of the Agricultural Act of 2014 (the Farm 
Bill) and administered by the U.S. Department of Agriculture's (USDA) 
Foreign Agricultural Service (FAS). The LRP is a critical tool for 
international development that saves and improves lives by quickly 
purchasing necessary food aid locally or regionally, while also 
increasing resiliency through the further development of local food 
systems.
    MFK is a U.S. non-profit organization that manufactures high 
quality, peanut-based ready-to-use therapeutic and supplementary foods 
in Haiti that are used to treat and prevent malnutrition in young 
children. MFK intimately knows the importance of local production and 
procurement of food aid, including ready-to-use foods for treating 
children with malnutrition, to Haiti's vulnerable populations. MFK has 
been fighting malnutrition and poverty, its root cause, in Haiti since 
2003. After the earthquake MFK transported all its available stocks to 
Port au Prince for use in hospitals, clinics and orphanages. In total 
we have saved the lives of over 120,000 in the last 10 years. Most of 
those children were treated after we scaled up in 2012, by building a 
new $3.2 million state-of-the-art factory in Cap Haitien, increasing 
our annual production capacity from 80 to 800 metric tons (MT). We made 
this urgent investment because every life saved, every body healed; 
every brain protected, is an investment in Haiti's future. MFK believes 
that Haiti, and countries like it, deserve a bright future.
    MFK is working not only to rescue children from malnutrition, but 
create a sustainable solution to the problem of food insecurity. We do 
this by igniting economic development and building local technical 
capacity. This longer-term mission just isn't possible without funding 
for local and regional food aid procurement. We must move beyond rescue 
to establish sustainable, locally-based solutions to achieve real and 
lasting change. To this end, MFK employs 48 Haitian people in the 
production of our peanut-based RUFs. MFK has also trained over 1,120 
small-scale peanut farmers and supplied them with a reliable customer 
for their peanuts. MFK is working with Clinton Giustra Foundation to 
create Haitian agricultural ``middle men'' to supply inputs to farmers. 
MFK will buy 50 MT of Haitian peanuts this year and has invested more 
than $200,000 in local procurement of peanuts since 2008. In 
complement, the U.S. Agency for International Development (USAID) has 
donated to MFK over $100,000 of peanut equipment and funding for farmer 
training.
    With the help of development partners like USAID and USDA, we are 
building sustainable supply chains, and creating expertise in food 
safety and manufacturing. To date, MFK has passed three international 
food safety audits, the only entity in Haiti to have done so. MFK also 
recently completed a $1 million USDA McGovern Dole Micronutrient 
Fortified Food Aid Pilot Project (MFFAPP) to develop and test a 
nutritious school snack in Haiti. Making local and regional procurement 
funds available to further projects like this one would only add value 
to the McGovern Dole investment. MFK is an example of a success story 
in helping to build resilience and sustainable food systems in Haiti. 
By supporting local and regional food and agricultural supply chains 
through the LRP, we will see more success stories in the future.
    From our experience, the addition of local and regional procurement 
of food to the U.S. Government's aid toolbox allows the policy and 
programming flexibility necessary to best meet the needs of vulnerable 
populations. It also helps to support and protect local farmers and 
food manufacturers, allowing for longer term economic development. For 
this reason, we support full funding of the Local and Regional Food Aid 
Procurement Project along with the development of a strategy that will 
be beneficial to both the world's most vulnerable populations and the 
American tax-payers.
    Thank you for providing MFK the opportunity to submit testimony 
regarding the Local and Regional Food Aid Procurement Project. Please 
do not hesitate to contact me if the Subcommittee has any questions or 
would like further information.
    [This statement was submitted by Dr. Patricia Wolff, Executive 
Director, Meds & Foods for Kids.]
                                 ______
                                 
   Prepared Statement of the National Affordable Housing Management 
                          Association (NAHMA)
    Thank you, Chairman Pryor and Ranking Member Blunt for the 
opportunity to submit this testimony on behalf of the National 
Affordable Housing Management Association (NAHMA). My testimony 
concerns the fiscal year 2015 budget for the U.S. Department of 
Agriculture (USDA), and in particular, funding for the USDA-Rural 
Development (RD) multifamily housing programs. The majority of my 
testimony will discuss RD's requested funding and new legislative 
authorities for its Section 521 Rural Rental Assistance (RA) Program.
                              about nahma
    NAHMA members manage and provide quality affordable housing to more 
than two million Americans with very low to moderate incomes. Our 
membership consists of presidents and executives of property management 
companies, owners of affordable rental housing, public agencies and 
national organizations involved in affordable housing, and providers of 
supplies and services to the affordable housing industry. In addition, 
NAHMA serves as the national voice in Washington for 19 regional, state 
and local affordable housing management associations (AHMAs) 
nationwide.
              funding for rd multifamily housing programs
    Section 521 Rural Rental Assistance: The Section 521 Rural Rental 
Assistance (RA) program is project-based rental assistance administered 
by USDA-RD. It is often used in conjunction with Section 515 housing or 
farm labor housing to pay apartment owners the difference between 
tenants' contributions (30 percent of their income) and the monthly 
rental rate.
    For fiscal year 2015, USDA requests $1.089 billion for Section 521 
Rural Rental Assistance. RD believes this request is sufficient to 
accommodate renewals. NAHMA urges the Subcommittee to review this 
request thoroughly, as it is based on assumptions for new legislative 
authorities that affect the level of necessary funding. NAHMA firmly 
believes that appropriations for this program must be sufficient to 
provide 12 months of funding for all contracts.
    This year, RD also requests legislative changes which would:
  --Remove the requirement to fund RA contracts for a 1 year period, 
        and replace it with language to fund contracts ``up to 1 
        year'';
  --Eliminate the automatic renewal of rental assistance contracts that 
        occur within the 12-month contract period; and
  --Provide that ``rental assistance will be renewed at the discretion 
        of the Secretary.''
    RD believes these changes will provide greater predictability in 
the RA budget, as well as the necessary flexibility to prioritize RA 
contract renewals during times of funding uncertainty (such as 
continuing resolutions or under sequestration). NAHMA is concerned that 
the specific language proposed is too broad, and we recommend that it 
be revised to more closely reflect its stated intent.
    After the RA shortfall which resulted from fiscal year 2013 
sequestration, it is clear that RHS needs some degree of flexibility in 
its contract renewal procedures during times of extraordinary budget 
uncertainty. That said, the flexibility must not absolve the agency of 
its financial obligations to owners for payment of RA during the term 
of the contract, nor should it be used as a budget gimmick to request 
less appropriations than are necessary to provide 12 months of contract 
funding at the time of renewal.
    Likewise, NAHMA respectfully suggests that an advanced 
appropriation would offer a more straightforward mechanism to ensure RD 
has the necessary funding for contract renewals when the agency must 
operate under a continuing resolution. Advanced appropriations have 
been used successfully for several years to renew HUD's Project-Based 
Section 8 and Housing Choice Voucher contracts during the first quarter 
of the fiscal year when continuing resolutions are in place.
    In section 725 of USDA's proposed general provisions, the Agency 
also requests authority to access the same interagency databases used 
for income verification by the U.S. Department of Housing and Urban 
Development (HUD). RD is especially interested in using this authority 
to reduce improper payments in its RA program. NAHMA supports this 
request in concept. If Congress provides such authority, NAHMA 
recommends that USDA-RD implement it by seeking access to HUD's 
Enterprise Income Verification (EIV) System for RHS staff, as well as 
for authorized property owners and managers. EIV obtains monthly Social 
Security and Supplemental Security Income benefits data from the Social 
Security Administration, and monthly employer new hires (W-4), 
quarterly wage for Federal and non-Federal employees, and quarterly 
unemployment data from the Department of Health and Human Services' 
National Directory of New Hires (NDNH). It would seem more efficient 
for RD to use the EIV system for income verification than to create an 
entirely new system.
    Section 515: Section 515 Direct Rural Rental Housing Loans are 
competitive mortgage loans which finance affordable multifamily rental 
housing for low-income families, the elderly and persons with 
disabilities in rural America. The 2015 budget request proposes $28.432 
million for the Section 515 direct loan program. NAHMA supports funding 
at a level of at least $28.432 million.
    Section 538: The Section 538 Multifamily Loan Guarantee program 
provides loan guarantees which encourage construction, acquisition, or 
rehabilitation of rural multifamily housing for low-income residents. 
NAHMA supports RD's request of $150 million for this program.
    Multifamily Preservation and Revitalization (MRP) Program: The 
Multifamily Housing Revitalization Program funds tenant protection 
vouchers, property rehabilitation and preservation demonstration 
programs. RD requests $28 million for this program. Of this total 
funding, $8 million would be directed to the Rural Housing Voucher 
Program, which provides a rental subsidy to any low-income household 
(including those not receiving rental assistance) residing in a 
property financed with a Section 515 loan which has been prepaid after 
September 30, 2005. Likewise, $20 million is proposed for the 
demonstration program to preserve and recapitalize aging rural 
multifamily rental properties. NAHMA supports funding for MRP program 
at a level of at least $28 million. We are, however, concerned about 
the proposed reduction in voucher funding from nearly $12.58 million in 
the fiscal year 2014 Omnibus Appropriations Act to $8 million in RD's 
fiscal year 2015 budget request. We urge the Subcommittee to carefully 
consider whether $8 million will be sufficient to meet the demand for 
these Rural Housing Vouchers in fiscal year 2015.
                               conclusion
    Thank you again for the opportunity to submit this testimony. I 
look forward to working with the Subcommittee to ensure that USDA-RD's 
multifamily housing programs are fully funded and properly 
administered.
    [This statement was submitted by Kris Cook, CAE, Executive 
Director, National Affordable Housing Management Association.]
                                 ______
                                 
  Prepared Statement of the National Animal Health Laboratory Network
    I am writing to urge your support for the inclusion of the National 
Animal Health Laboratory Network in the fiscal year 2015 Agriculture 
Appropriations Bill. The NAHLN was authorized in the recently passed 
Farm Bill (Section. 12105). Serving as our nation's most vital early 
warning system for emerging and foreign animal diseases, we are urging 
the members of the Appropriation Committee to fund the NAHLN at $15 
million for fiscal year 2015.
    The NAHLN was developed in response to the Public Health Security 
and BioTerrorism Preparedness and Response Act of 2002, and the 
Homeland Security Presidential Directive-9 (HSPD-9) of 2004 to 
``develop nationwide laboratory networks for food, veterinary, plant 
health and water quality that integrate existing Federal and State 
laboratory resources, are interconnected, and utilize standardized 
diagnostic protocols and procedures''.
    During the past 12 years the NAHLN, composed of Federal, 
university, and state veterinary diagnostic laboratories, has 
established the framework of a surveillance and emergency response 
system (not research) that provides critical and ongoing resources for 
laboratory testing, surveillance, information management, quality 
assurance and the development and validation of new tests.
    Funding of NAHLN at $15 million would result in improved compliance 
with HSPD-9 by: 1) expanding surveillance and surge capacity of the 
NAHLN by increasing the number and level of participating state 
laboratories; 2) additional development of the infrastructure for 
electronic transmission of data between sample collectors, laboratories 
and state and Federal databases; and 3) increasing efficiency and 
effectiveness of laboratory personnel training and employment both 
regionally and nationwide. Federal funding for the NAHLN at $15 million 
would be leveraged over six times by direct state appropriations. A 
survey of 34 NAHLN laboratories conducted by the American Association 
of Veterinary Laboratory Diagnosticians revealed direct state 
appropriations of $100 million to NAHLN laboratories toward total 
laboratory operation expenses of $186 million.
    The NAHLN enables laboratories to test for economically devastating 
diseases such as mad cow disease, foot-and-mouth disease, avian and 
swine influenza, and classical swine fever. Without the NAHLN and the 
early disease detection it provides, an outbreak of Foot and Mouth 
Disease (FMD) could cost US agriculture an estimated $128 billion. This 
includes decreased revenues for corn and soybean of $44 billion and 
$24.9 billion, respectively. This loss translates into roughly 154,000 
jobs over the course of the outbreak.
    An August 2011 report from the GAO and a report from the Commission 
on the Prevention of Weapons of Mass Destruction, Proliferation and 
Terrorism both gave the nation a failing gradefor its ability to 
respond to and recover from a biological attack, natural disaster or 
animal disease event as required by HSPD-9. In order for the nation to 
adequately respond to, and recover from, a biological attack; the NAHLN 
needs $15 million to ensure such a threat would be quarantined in a 
timely manner.
    Wisconsin has benefited from the Wisconsin Veterinary Diagnostic 
Laboratory being a NAHLN laboratory on several occasions. Having the 
ability to rapidly deliver foreign animal disease diagnostic samples to 
the local laboratory has provided test results to State Animal Health 
Officials hours or days before the same reports were received from the 
National Veterinary Services Laboratory due to the time it takes to 
ship samples. This early reporting has allowed the state to release 
quarantines which were impacting commerce at slaughter facilities or 
livestock production sites.
    Thank you for your leadership on this vital issue to the 
agriculture industry and consideration of this funding in the fiscal 
year 15 Agriculture Appropriations Bill.
    [This statement was submitted by Ben Brancel, Secretary, Wisconsin 
Department of Agriculture, Trade & Consumer Protection.]
                                 ______
                                 
            Prepared Statement of the National Farmers Union
    On behalf of the family farmer and rancher members of National 
Farmers Union (NFU), thank you for the opportunity to present funding 
requests for fiscal year 2015. As a general farm organization, NFU has 
a broad array of interests in the agricultural appropriations process. 
This letter enumerates a few of the highest priorities for our members.
    Additionally, the recent passage of the 2014 Farm Bill deserves the 
attention of the subcommittee. I ask that programs that were granted 
discretionary funding through the farm bill receive their full 
appropriations, and that the subcommittee not reduce other program 
funding through changes in mandatory programs.
REQUEST: No legislative riders or targeted funding reductions to limit 
        or restrict the enforcement, legal defense or study of Country-
        of-Origin Labeling (COOL).
    The 2008 Farm Bill requires retailers to notify customers through 
labeling of the source of nearly all muscle cuts and ground meat, along 
with fish, fruits, vegetables, nuts and a variety of other generally 
unprocessed products. As of 2013, the U.S. Department of Agriculture 
(USDA) enacted rules that require the labeling of production steps--for 
example, ``Born, Raised, and Harvested in the U.S.''--as directed by a 
World Trade Organization (WTO) dispute. Another WTO proceeding is 
currently underway to review the new COOL regulations' compliance with 
trade agreements. A lawsuit is pending in U.S. court regarding 
implementation of the new labels and initial attempts to enjoin the new 
COOL requirements were defeated. Additionally, the 2014 Farm Bill 
requires a study on the economic impact of COOL.
    NFU opposes any funding cuts or legislative riders that would 
circumvent enforcement, implementation, legal defense or study of COOL. 
Studies have found that more than 90 percent of consumers support COOL. 
Any threats of retaliation from Canada and Mexico are extremely 
premature, as WTO appeals are slow-moving and typically last for years.
REQUEST: No legislative riders to limit or restrict the USDA's 
        rulemaking and enforcement authority under the Packers and 
        Stockyards Act of 1921.
    Because of appropriations riders in the last 3 years, USDA has not 
been allowed to write rules that would provide greater fairness for 
livestock sellers and poultry growers in the agriculture marketplace, 
as directed by the 2008 Farm Bill. This includes prohibiting deceptive 
or fraudulent buying practices and permitting farmers and ranchers to 
seek protection under the Packers and Stockyards Act if they have been 
harmed by unfair trade practices.
    While the last three legislative riders on GIPSA have varied, they 
each have significantly undermined important protections for livestock 
and poultry ranchers and growers. These provisions must not be 
prevented; thus, NFU strongly urges the Subcommittee to reject any 
legislative riders that would undermine GIPSA's authority and ignore 
congressional intent.
REQUEST: Funding for the Food and Drug Administration to implement the 
        Food Safety Modernization Act (FSMA) and to study its economic 
        impacts on farmers.
    NFU asks that the FDA be adequately funded at the president's 
request level for fiscal year 2015 with $253 million to be used for 
implementation of FSMA. There are many areas of possible improvement 
within the proposed FSMA rules, but it is imperative that the process 
be provided resources in order to be effective. Of particular 
importance is funding to provide food safety training to family farmers 
and small processors. The president's request to spend $2.5 million on 
that initiative is a low amount but a good start to prepare our members 
to work well within the upcoming FSMA rules.
    Additionally, I ask that no action be taken during the 
appropriations process that would derail or detract from FDA's study of 
the economic impacts of FSMA on farmers, as mandated by the 2014 Farm 
Bill.
REQUEST: Report language on public cultivar development through the 
        Agriculture and Food Research Initiative (AFRI).
    The 2008 Farm Bill created the Agriculture and Food Research 
Initiative (AFRI), which called for AFRI to make ``conventional'' plant 
and animal breeding a priority for research grants. Implementation of 
these directives has been slow. NFU asks that the fiscal year 2015 
appropriations bill include report language that reiterates the need to 
prioritize funding for classical plant and animal breeding within the 
AFRI process.
REQUEST: Provide $25.9 million to the Genetic Improvement and 
        Translational Breeding Initiative, along with report language 
        directing funds to the development and release of regionally 
        adapted, public cultivars.
    The administration's fiscal year 2015 budget requests $25.9 million 
for a new Genetic Improvement and Translational Breeding Initiative to 
be administered by the Agricultural Research Service. Given the very 
substantial private and public investments in genomics and the lack of 
funding for classical breeding for public cultivar development, clear 
language ought to be included to direct ARS to focus all of the funding 
provided for this initiative on the development and release of 
regionally adapted, publicly held, cultivars to benefit farmers and 
ranchers across the country.
REQUEST: Fully fund farm bill energy title programs at discretionary 
        funding levels and do not reduce program funding through 
        changes in mandatory programs. Also, allow 2014 Biomass Crop 
        Assistance Program (BCAP) funds to carry over into 2015 if they 
        are not expended.
    The 2014 Farm Bill makes substantial investments in existing energy 
programs such as the Rural Energy for America Program (REAP), Biomass 
Crop Assistance Program (BCAP), and Biorefinery Assistance Program 
(BAP). NFU asks that the subcommittee not reduce any of the funds 
allocated to these programs. In addition, because USDA may not expend 
all funds for BCAP in 2014, NFU asks that language be inserted allowing 
for unexpended 2014 BCAP funds to be carried over into 2015.
REQUEST: Provide $10 million for competitive grants and formula-based 
        funding for animal health and disease research.
    Public investment in animal science has slipped in recent years, 
especially in comparison to the economic impact of animal agriculture. 
By 2050, global meat consumption is expected to increase by 73 percent, 
dairy production by 57 percent, and per capita egg consumption in 
developing countries is projected to rise by almost 40 percent. Animal 
agriculture has a clear impact on rural America, as livestock and 
poultry sales account for 40 percent of all U.S. farm income.
    The 2014 Farm Bill revitalized the structure of a public funding 
opportunity for animal science. I ask that $10 million be made 
available to establish the new competitive grants program on sound 
financial footing.
    Thank you for your consideration of these requests.
    [This statement was submitted by Roger Johnson, President, National 
Farmers Union.]
                                 ______
                                 
  Prepared Statement of the National Sustainable Agriculture Coalition
    Thank you for the opportunity to present our fiscal year 2015 
funding requests. The National Sustainable Agriculture Coalition is a 
national alliance of over 100 organizations that advocates for policies 
that support the sustainability of agriculture, natural resources, and 
rural communities. Our USDA requests are as follows, in the order they 
appear in the appropriations bill:
                      departmental administration
    Office of Advocacy and Outreach. The Office of Advocacy and 
Outreach coordinates policy and outreach in three vital areas--small 
and beginning, socially disadvantaged, and veteran farmers. We urge 
that $1.4 million be provided for the OA&O, as requested by USDA.
    Outreach and Assistance for Socially Disadvantaged Farmers and 
Ranchers and Veteran Farmers and Ranchers. We urge you to provide $10 
million in discretionary funding and no limitation in mandatory program 
spending to restore total program funding to its historical level in 
order to meet the increased demand for outreach and technical 
assistance by military veteran farmers, and other historically 
underserved producers.
                      agriculture research service
    New Priority Research Initiative. We urge you to support the 
reallocation of $25.9 million for a new Genetic Improvement and 
Translational Breeding Initiative, as proposed by the Administration, 
provided that report language directs ARS to use the funding to advance 
classical breeding research and germplasm infrastructure to protect 
agricultural genetic diversity and address long-term challenges to 
agriculture such as climate change and global food security.
               national institute of food and agriculture
    Sustainable Agriculture Research and Education Program. We urge you 
to fund this innovative competitive grants program at $30 million. The 
fiscal year 15 Budget Request once again proposes to combine research, 
education, and extension into a single line item. We do not oppose 
consolidation, so long as funding is increased to cover all functions 
outlined in statute, including Federal-state matching grants (7 U.S.C. 
5813). To that effect, we urge the reiteration of the fiscal year 14 
Senate report language (113-46) clarifying that ``all three activities 
authorized in Subtitle B of the Food, Agriculture, Conservation and 
Trade Act of 1990 are vital to the success of the SARE program, and the 
Committee directs the Department to ensure that each activity remain 
intact in thefuture.'' SARE has helped turn farmer-driven research, 
education, and extension into profitable and environmentally sound 
practices for over 25 years. At $30 million, SARE would be at just half 
its authorized level, half the level recommended by the National 
Academy of Sciences, and nearly a quarter of the authorized level if 
that level were updated to 2014 dollars. There is no other REE 
competitive grant program that has a bigger bang for the buck.
    Organic Transitions Integrated Research Program. We request $5 
million to invest in innovative organic research with strong farmer 
delivery mechanisms built in. This level of funding is critical to help 
keep organics from falling further behind in its fair share of the 
research budget.
    Food Safety Outreach Program. We request $5 million to help small 
and mid-size farms and small processing facilities comply with new 
proposed food safety regulations. FDA is in the process of proposing 
new, expansive food safety regulations for farmers and food processors 
under the Food Safety Modernization Act (FSMA). This FSMA-authorized 
Food Safety Training Program will provide farmers with the training 
they need to implement and comply with new food safety rules. We are 
thrilled USDA has requested funding to begin this program, but believe 
their request of $2.5 million is insufficient and therefore urge you to 
launch this urgently needed program at $5 million to ensure that 
multiple regions of the country can benefit rather than just a single 
region.
                     agricultural marketing service
    Federal-State Market Improvement Program. FSMIP provides matching 
funds to state departments of agriculture to help grantees conduct 
research and create innovations to increase new markets for farmers. We 
request $1.363 million, the same as fiscal year 2014 funding.
    Organic Production and Market Data Initiatives. As the organic 
industry surpasses $31 billion a year in sales, organic market 
reporting is vital to creating fair risk management tools and 
collecting adequate data on organic markets. We request $0.3 million 
for AMS to continue and enhance reporting on organic production, 
marketing, and pricing data. We also support ongoing organic data 
collection and analysis through NASS and ERS.
    Local Food Data Collection and Analysis. Information concerning 
state and regional food needs is not readily available to food system 
developers and investors who need to gain a better understanding of the 
opportunities and challenges that exist for agricultural food systems 
across the country. We support the President's request of $2.6 million 
for AMS to partner with Federal and state agencies, Land-Grant 
Universities, Regional Planning Commissions, and other entities to 
conduct 6 to 10 state local and regional food system assessments. We 
would also encourage the Committee to include report language directing 
AMS to incorporate data collection and assessments of market price 
information for direct and intermediated local and regional food 
markets.
                          farm service agency
    Direct Farm Ownership Loans, Direct Operating Loans, and Individual 
Development Accounts. Direct loans provide capital for beginning 
farmers and others not served by commercial credit. This is critical in 
light of the increasing age of farmers and the land access challenges 
faced by beginning farmers. Similarly, the Beginning Farmer and Rancher 
Individual Development Account (IDA) program, authorized by the 2008 
and 2014 Farm Bills, will enable limited-resource beginning farmers and 
ranchers to save for asset-building purchases, including farmland, 
equipment, breeding stock, or similar expenditures.
    Through the IDA program, FSA will offer competitive grants, with a 
50 percent local match required, and financial management training as 
the core component of the program. We support the President's fiscal 
year 15 Budget Request for program levels of $1.5 billion for Direct 
Farm Ownership loans, $1.252 billion for Direct Operating Loans, and 
$2.5 million for the IDA program. We also request an additional $4 
million in ACIF administrative expenses \1\ specifically to allow FSA 
to provide intermediary technical assistance and loan delivery services 
to new microloan borrowers. This combined package will serve new, 
beginning, and veteran farmers well, and at a reduction in the actual 
appropriated amounts relative to fiscal year 14--$46 million in budget 
authority and approximately$51 million in outlays, a net reduction in 
actual appropriations of $24 million and approximately $16 million, 
respectively, according to OMB's figures.
---------------------------------------------------------------------------
    \1\ See ``Agricultural Credit Insurance Fund Program Account'' on 
page 104 of the President's Budget Appendix
---------------------------------------------------------------------------
                 natural resources conservation service
    Conservation Technical Assistance. CTA, a subset of Conservation 
Operations, helps farmers develop and implement conservation plans to 
conserve resources on their farms. NRCS also uses CTA funds to assess 
conservation practices and systems, and to collect, analyze, and 
disseminate data on the condition of the nation's natural resources. We 
urge you to provide no less than $717 million for CTA, as requested in 
the President's fiscal year 15 budget request.
                 rural business and cooperative service
    Value-Added Producer Grants. VAPG offers grants to farmers and 
ranchers developing farm- and food-related businesses that boost farm 
income and create jobs in rural America. VAPG encourages the kind of 
entrepreneurship that enables rural communities to grow economically. 
Growing interest in local and regional foods means greater need for 
regional supply chains and enterprises that aggregate local production, 
exactly the kind of rural development strategy VAPG is designed to 
support. We request no changes in mandatory program spending as well as 
$15 million in discretionary funding for VAPG, the same level as 
included in the final fiscal year 14 bill.
    Rural Microentrepreneur Assistance Program. RMAP provides business 
training, technical assistance, and microloans to owner-operated 
businesses with up to ten employees. It is specifically targeted at 
very small business development, the leading job creator in rural 
communities. The 2014 Farm Bill renews a modest investment of $3 
million per year in direct farm bill spending for RMAP loans and 
grants. The President's fiscal year 15 Budget Request includes $3.3 
million in discretionary funding for RMAP loans, as well as no changes 
in mandatory program spending. For a second year in a row, the Budget 
Request recommends that Congress combine the RMAP grant component with 
several other rural development programs. Congress considered this 
proposal during the fiscal year 14 appropriations process and during 
farm bill proceedings, and in both cases, wisely rejected the 
consolidation proposal. We support the President's fiscal year 15 
Budget Request of no changes in mandatory program spending, as well as 
$3.3 million in discretionary funding; however, we urge that this 
discretionary funding be provided for the cost of loans and grants. 
This level of appropriation combined with the new farm bill funding 
will result in over $40 million in new microloans plus expanded 
entrepreneurial development training, an incredibly smart investment.
    Appropriate Technology Transfer for Rural Areas. The ATTRA program, 
also known as the National Sustainable Agriculture Information Service 
and reauthorized by the 2014 Farm Bill, provides critical support to 
farmers, Extension agents, and conservation and energy specialists 
throughout the country. We urge $2.5 million for ATTRA for fiscal year 
2015.
    Rural Cooperative Development Grants. RCDG invests in rural 
development by helping individuals start or expand cooperatives. We 
oppose the Administration's proposal to consolidate RCDG into a Rural 
Business and Cooperative Grants program. We request $9.1 million for 
RCDG, including $3 million for centers targeting socially disadvantaged 
producers.
                           general provisions
    Repeated annual cuts to the Conservation Stewardship Program, 
Environmental Quality Incentives Program, and other farm bill 
conservation programs have created enormous backlogs of applications 
among highly qualified producers and made it difficult for farmers to 
maintain healthy soil, protect water, and mitigate and adapt to the 
impacts of drought. We strongly oppose changes in mandatory program 
spending to these critical conservation programs.
    Finally, we oppose the inclusion of any policy riders that limit 
implementation and enforcement of the Packers & Stockyards Act. 
Limiting farmers' free speech rights to consult with Members of 
Congress and limiting USDA's ability to protect market transparency has 
no rightful place in the appropriations bill or any other legislation.
    [This statement was submitted by Juli Obudzinski, NSAC Senior 
Policy Specialist.]
                                 ______
                                 
     Prepared Statement of the National Multiple Sclerosis Society
    Ms. Chairwoman and Members of the Committee, thank you for this 
opportunity to provide testimony regarding funding of critically 
important Federal programs that impact those affected by multiple 
sclerosis. We urge the Subcommittee to provide $3.784 billion in 
discretionary spending for the Food and Drug Administration (FDA).
    Multiple sclerosis (MS) is an unpredictable, often disabling 
disease of the central nervous system that interrupts the flow of 
information within the brain, and between the brain and body. Symptoms 
range from numbness and tingling to blindness and paralysis. The 
progress, severity, and specific symptoms of MS in any one person 
cannot yet be predicted. Most people with MS are diagnosed between the 
ages of 20 and 50, with at least two to three times more women than men 
being diagnosed with the disease.
    The National MS Society sees itself as a partner to the government 
in many critical areas. For instance in fiscal year 2013, we dedicated 
approximately $48 million in MS research through funds generated 
through the Society's fundraising efforts. While we're here to advocate 
for Federal funding, we do it as an organization that commits tens of 
millions of dollars each year to similar or complementary efforts as 
those being funded by the Federal government, including partnerships 
with the National Institutes of Health (NIH).
                             administration
    The FDA is the United States' pre-eminent public health agency. Its 
role as the regulator of the country's pharmaceutical industry provides 
invaluable support and encourages vital progress for people living with 
MS and other diseases. In its capacity as the industry's regulator, the 
FDA ensures that drugs and medical devices are safe and effective for 
public use and provides consumers with confidence in new technologies. 
Because of the tremendous impact the FDA has on the development and 
availability of drugs and devices for individuals with disabilities, 
the National MS Society requests that Congress provide $2.784 billion 
in discretionary appropriations. This funding will allow FDA to 
complete its current mandates, which include developing a biosimilar 
approval pathway and appropriately implementing the Food and Drug 
Administration Safety and Innovation Act (FDASIA) of 2012.
    Advancements in medical technology and medical breakthroughs play a 
pivotal role in decreasing the societal costs of disease and 
disability. The FDA is responsible for approving drugs for the market 
and in this capacity has the ability to keep healthcare costs down. 
Each dollar invested in the life-science research regulated by the FDA 
has the potential to save upwards of $10 in health gains. Breakthroughs 
in medications and devices can reduce the potential costs of disease 
and disability in Medicare and Medicaid and can help support the 
healthier, more productive lives of people living with chronic diseases 
and disabilities, like MS.
    The approval of low-cost generic drugs saved the healthcare system 
$140 billion in 2010 and nearly $1 trillion over the past decade. 
However, recent funding constraints have resulted in a 2 year backlog 
of generic drug approval applications and could potentially cost the 
Federal government and patients billions of dollars in the coming 
years. Similarly, FDA was tasked with creating a biosimilars approval 
pathway in 2010, which still needs to be finalized. This pathway is 
expected to allow a cheaper alternative for some very expensive 
biologic medications. The potential for these cost-saving medical 
breakthroughs and overall healthcare savings relies on a vibrant 
industry and an adequately funded FDA.
    Entire industries are working to enhance the lives of Americans 
with new medical devices and pharmaceuticals with tens of billions of 
dollars being spent annually by the NIH and industry in pursuit of new 
breakthroughs. The FDA has a comparatively small budget yet is charged 
with ensuring the safety and efficacy of these new products.
                               conclusion
    The National MS Society thanks the Committee for the opportunity to 
provide written testimony and our recommendations for fiscal year 2015 
appropriations. The agencies and programs we have discussed are of 
vital importance to people living with MS and we look forward to 
continuing to working with the Committee to help move us closer to a 
world free of MS. Please don't hesitate to contact me with any 
questions.
    [This statement was submitted by Ted Thompson, Vice President of 
Federal Government Relations, National MS Society.]
                                 ______
                                 
         Prepared Statement of the National Wildlife Federation
    On behalf of the National Wildlife Federation (NWF), the nation's 
largest conservation advocacy and education organization, and our more 
than four million members and supporters, we thank the Senate 
Appropriations Subcommittee on Agriculture for the opportunity to 
provide fiscal year 2015 funding recommendations for the Department of 
Agriculture. We urge the Subcommittee to oppose all cuts to mandatory 
agricultural conservation programs in the fiscal year 2015 agriculture 
appropriations legislation.
    After several years of negotiation, Congress recently passed 
Agriculture Reform, Food and Jobs Act (Public Law 113-79) with broad 
bipartisan support. This recently passed Farm Bill includes much needed 
funding for conservation priorities, and it is critical that Congress 
ensure that all of this allocated funding, as signed into law, can be 
spent as Congress intended.
    Farm Bill Conservation programs--including the Conservation Reserve 
Program, Environmental Quality Incentives Program, Regional 
Conservation Partnership Program, Agricultural Conservation Easement 
Program, Conservation Stewardship Program, and Voluntary Public Access 
Program--have been disproportionately cut in recent appropriations 
cycles and in this last farm bill.
    From fiscal year 2003-2012, Changes in Mandatory Program Spending 
(CHIMPS) for farm bill conservation programs have increased steadily, 
threatening to undermine our most critical conservation programs. 
According to the Congressional Research Service (CRS), total CHIMPS to 
mandatory agricultural programs from fiscal year 2003-2010 equaled $7.5 
billion.\1\ These cuts increased to over $9 billion in fiscal year 
2012. The Conservation Title of the Farm Bill has been unduly targeted, 
accounting for over 50 percent of cuts to mandatory agricultural 
programs from fiscal year 2003 to fiscal year 2010 and 83 percent of 
all Farm Bill CHIMPS from fiscal year 2007 to fiscal year 2010.\2\ 
Since the enactment of the 2002 Farm Bill, appropriators have taken 
roughly $4.4 billion from Farm Bill mandatory conservation spending.\3\ 
On top of this, conservation programs were cut by an additional $6 
billion in the latest Farm Bill.
---------------------------------------------------------------------------
    \1\ Jim Monke and Megan Stubbs, Reductions in Mandatory Agriculture 
Program Spending, CRS Report for Congress (Congressional Research 
Service, May 19, 2010), http://www.nationalaglawcenter.org/assets/crs/
R41245.pdf.
    \2\ Monke and Stubbs, Reductions in Mandatory Agriculture Program 
Spending. National Sustainable Agriculture Coalition, comparison of 
budget authority to appropriations bills. Note: does not include 
rescissions.
    \3\ National Sustainable Agriculture Coalition, comparison of 
budget authority to appropriations bills.
---------------------------------------------------------------------------
    With increased pressures on working lands to produce food, fuel, 
and fiber for our nation and the world, farm bill conservation programs 
critically important now more than ever. These conservation programs 
are crucial to the health and viability of agriculture and rural 
America. They help farmers, ranchers and foresters to voluntarily 
address their key resource concerns and assist them in complying with 
local, state, and Federal regulations. They deliver demonstrated 
environmental benefits including clean air, healthy soil, clean water, 
and abundant habitat for wildlife. And they bring important economic 
benefits and jobs to rural areas, including increased revenues from 
hunting, fishing, and other recreational activities. The demand for 
enrollment in these programs routinely exceeds the funds available, 
even without any cuts.
    Mandatory funding levels for farm bill programs were just agreed 
upon by Congress during the Farm Bill reauthorization process; it is 
unacceptable to continue to slash these programs yearly during the 
appropriations process and to continue to disproportionately target 
farm bill conservation programs. We ask the Appropriations Committees 
to recognize the importance of agricultural conservation programs by 
rejecting cuts to mandatory Farm Bill conservation programs and 
allowing these programs to receive the full allocation as set by the 
Agriculture Reform, Food and Jobs Act (Public Law 113-79).
    [This statement was submitted by Aviva Glaser, Senior Agriculture 
Policy Specialist, National Wildlife Federation.]
                                 ______
                                 
    Prepared Statement of the Oregon Water Resources Congress (OWRC)
    The Oregon Water Resources Congress (OWRC) strongly supports the 
budget for the U.S. Department of Agriculture's (USDA) Natural 
Resources Conservation Service (NRCS) and we are very excited about the 
new Regional Conservation Partnership Program (RCPP) in the recently 
passed 2014 Farm Bill. However, because the RCPP combines the 
authorities of several existing programs, clarification is needed on 
how some of the provisions will be implemented. Specifically, we 
request detail on how the new RCPP will cover existing multi-year 
agreements funded under the Agricultural Water Enhancement Program 
(AWEP) or Cooperative Conservation Partnership Initiative (CCPI). OWRC 
also requests that the Columbia River Basin and Klamath River Basin be 
considered for inclusion in the Critical Conservation Areas (CCAs). 
Furthermore, it is crucial that the RCPP has adequate resources to 
leverage partnerships and tackle the complex natural resources 
conservation issues facing the nation. Lastly, we are strongly 
supportive of coordinated Federal agency watershed planning and funding 
for the Small Watershed Rehabilitation Program.
    OWRC was established in 1912 as a trade association to support the 
protection of water rights and promote the wise stewardship of water 
resources statewide. OWRC members are local governmental entities, 
which include irrigation districts, water control districts, drainage 
districts, water improvement districts, and other agricultural water 
suppliers that deliver water to roughly 1/3 of all irrigated land in 
Oregon. These water stewards operate complex water management systems, 
including water supply reservoirs, canals, pipelines, and hydropower 
production.
                    clarification of rcpp provisions
    OWRC is requesting that funding for the NRCS RCPP be clarified to 
ensure that projects with existing AWEP and CCPI agreements are 
eligible for funding. OWRC has members with multi-year agreements with 
NRCS under AWEP and/or CCPI and they are concerned that the remainder 
of those years may not be funded. This concern is based on remarks made 
by USDA officials in Washington DC stating that AWEP and CCPI ``went 
away'' with the new Farm Bill. As OWRC and its national partners 
understand the 2014 Farm Bill, it was the intent to consolidate the 
authorities and maximize the benefits of AWEP and CCPI, not to 
eliminate these valuable programs. Our organization is hopeful that 
clarification will be provided so that NRCS can merge the existing 
agreements into the new RCCP program in a seamless manner. It is in the 
best interest of those holding current multi-year agreements that this 
is done as quickly as possible so that they can continue with these 
beneficial long-term projects that leverage the investments of multiple 
state and Federal partners.
    OWRC also strongly supports the additional 7 percent (7 percent) of 
funding on top of the $100 million that is to be transferred from AWEP 
and other related conservation programs that are being combined into 
the RCPP. It is important to note that we are concerned about 
implications for program expenditures since the April 1st deadline 
referenced in Section 2401 for any uncommitted funds returning to each 
covered program has now passed. Ideally, solicitations for RCPP 
projects should be issued between Oct-Dec 2014 in order to obligate 
funds in a timely fashion to meet the March 31st commitment date.
    Additionally, as the Secretary of Agriculture considers 
recommendations regarding the new Critical Conservation Areas (CCAs) 
under the 2014 Farm Bill, OWRC requests that the Columbia Basin and the 
Klamath Basin be considered for inclusion as CCAs. Both Basins are 
facing significant natural resources challenges, span multiple states, 
and would be excellent candidates to more efficiently promote soil, 
water and habitat conservation programs on a regional level. The 
Columbia Basin, which covers parts of seven states and is the fourth 
largest watershed in the nation, continues to be one of the nation's 
largest environmental challenges as it wrestles with implementing 
recovery efforts under the Endangered Species Act (ESA) while balancing 
other diverse resource needs. The Klamath Basin, which covers parts of 
Oregon and California, is also facing a complex set of ESA issues that 
have been further compounded by a devastating drought that has dire 
impacts for the both agricultural and environmental resources. NRCS 
funding and participation are an essential part of the cooperative 
conservation efforts for addressing the complex ESA needs in both of 
these basins.
                               rcpp needs
    Federal support of water conservation activities funded through 
NRCS programs, including the RCPP is essential to the conservation of 
our natural resources and critical to protecting our food, energy and 
water supply. Financial assistance has diminished in recent years and 
there is a backlog of unmet need. We worry that a further decline of 
funding for fiscal year 2015 will severely impact districts and other 
agricultural water suppliers. For example, in 2013, Oregon requested 
$24.7 million in financial assistance for NRCS funding, but received 
approximately $20 million. Because of the large unmet need, we are 
strongly supportive of providing allocations for fiscal year 2014 year 
to meet state requests that have been unfunded in recent years.
    While we recognize that the Administration has increased funding 
for some of the NRCS programs, the need for additional financial 
assistance with conservation projects still far outweighs the budget. 
NRCS programs are essential to irrigation districts in developing and 
implementing conservation projects that benefit not only the individual 
farmers they serve but also the entire watershed and community as a 
whole. Furthermore, conservation projects also benefit the economy 
through job creation and ensuring the future viability of American 
agriculture.
    RCPP helps fill a funding void for multi-partner conservation 
projects. Often large conservation projects do not include individual 
on-farm projects which limits the effectiveness of the project. RCPP 
allow farmers to pool together and leverage the dollars invested in the 
off-farm project with the addition of EQIP on-farm projects. And as 
previously mentioned, due to the large number of successful project 
applications for AWEP, USDA should continue to fund existing AWEP 
projects within the new RCPP program to finish out existing multiyear 
projects. It is important that the funding for these projects not be 
interrupted so that they may be completed. However, it is equally 
important to have funding available for new eligible RCPP projects that 
simultaneously benefit the environment and economy.
                             rcpp benefits
    OWRC strongly supports the new RCPP, which we see as a critical 
tool for districts and other agricultural water suppliers in developing 
and implementing water and energy conservation projects in Oregon. In 
the past AWEP has been highly successful in developing cooperative 
approaches on a basin-wide scale, and historically, the CCPI 
partnerships in the past allowed Federal, State and Local interests to 
address ESA and Clean Water Act (CWA) issues in watershed basins and 
sub basins.
    We are hopeful the RCPP will continue to allow districts and other 
agricultural water suppliers to partner with farmers to address 
regional water quantity and quality issues in local watersheds. It is 
our belief that water supply issues in Oregon and elsewhere in the 
nation can be resolved best at the local level, in cooperative 
partnership efforts that promote conservation with a more aggressive 
Federal funding partnership as defined in RCPP.
             examples of successful awep projects in oregon
    Oregon has had several successful AWEP applicants over the past 
several years, three from our member districts (described below).
  --The Whychus Creek/Three Sisters Irrigation District Collaborative 
        Restoration Project focuses on irrigation water efficiency with 
        irrigation improvements in the Upper Division of the Three 
        Sisters Irrigation District, which is the project partner. The 
        effort will improve stream flows and water quality for native 
        fish while providing farmers a reliable supply of water. Fiscal 
        Year 2013 Funding: $180,000; Fiscal Year 2012 $251,300
  --The Talent Irrigation District Project works with agricultural 
        producers to install conservation practices that will properly 
        utilize limited surface water resources, improve water quality 
        on flood irrigated land by converting to more efficient 
        irrigation systems, and apply irrigation water management to 
        eliminate irrigation runoff. Fiscal Year 2013 Funding: $0; 
        Fiscal Year 2012 Funding: $4,470
  --The Willow Creek Project helps landowners in the Lower Willow Creek 
        Watershed portion of Malheur County convert to water-saving 
        irrigation systems, reduce irrigation runoff, and improve water 
        quality in Willow Creek and Malheur River. The project partner 
        is the Vale Oregon Irrigation District. Fiscal Year 2013 
        Funding: $180,000; Fiscal Year 2012 $251,300
  --In Oregon, NRCS is helping develop the Save Water, Save Energy 
        Initiative, a multi-agency cooperative effort to develop a 
        clearinghouse of information on financial incentives and 
        technical expertise to assist districts and their water users 
        in implementing conservation measures.
    Additional innovative projects like the ones above could be 
developed and implemented in Oregon if more funding is made available.
  small watershed rehabilitation program and watershed planning needs
    OWRC also strongly supports the Small Watershed Rehabilitation 
Program. One of our members, Sutherlin Water Control District (SWCD) 
has two dams that were built under PL-566. Both dams are reaching 50 
years old and while they were built to seismic standards 50 years ago, 
they are no longer up to par. In 2010, SWCD received $40,000 ($20,000 
for each dam) for a needs assessment study that determined that both 
dams are high hazard and in immediate need of retrofit and repair. The 
two dams are in such desperate need of repair that they are numbers 1 
and 2 on Oregon NRCS' priority list for funding. A more thorough 
seismic study is needed to determine how to bring the dams up to code, 
but it is important to note that even a small earthquake (less than a 
2.0 on the Richter scale) has the potential to damage the dams severely 
enough to cause breaches, flooding and damaging property and resources 
in the surrounding area. NRCS needs significant funding so it can 
address its high priority dams, like the ones in the SWCD. A minimum of 
$250 million dollars in funding is needed for NRCS to address and 
repair high priority dams, like the ones in the SWCD. It would also be 
beneficial if the program was given flexibility to include piping and 
water conservation projects that have multiple environmental, farming 
and safety benefits.
    OWRC also reiterates requests made in previous years that the 
``Bridging the Headgates'' MOU be reactivated and expanded to include 
other Federal agencies. The need for continued coordination among 
Federal agencies, including NRCS, the Bureau of Reclamation (BOR), 
Bureau of Land Management (BLM), Environmental Protection Agency (EPA), 
NOAA Fisheries, US Fish and Wildlife Service, and Army Corps of 
Engineers (ACOE), is a significant issue. With the historic loss of 
watershed planning funding, reactivating and expanding this program to 
other Federal agencies would be a very cost-effective alternative.
    In the past, Oregon NRCS used a watershed resources planning team 
to conduct Rapid Watershed Assessments throughout Oregon. This planning 
program helped prioritize projects to bring about the most benefit in 
critical watersheds and getting on-the-ground conservation projects 
completed in a timely manner. A number of NRCS funded district projects 
have been implemented using the data from this program.
    Following in the vein of the Rapid Watershed Assessments, Oregon 
has adopted a Strategic Approach to Conservation. The goal is to invest 
technical and financial resources to strategically solve natural 
resource problems and be more effective, efficient, and accountable for 
staffing, funding and partnerships. This strategy is intended to 
accelerate the conservation implementation and leverage technical and 
financial resources required to solve the problem. These types of 
program activities are effective tools that need a consistent funding 
source.
                               conclusion
    Our member districts, the farms and other water users they serve, 
and the communities in which they are located benefit greatly from the 
NRCS programs described in our testimony. Oregon's agricultural 
community is actively committed to water conservation programs, but 
those programs require Federal participation if the agricultural 
community is to be able to continue its efforts to address Oregon's 
water supply needs through water conservation. Increasing the budget 
for NRCS programs is a strategic investment that will pay both 
environmental and economic dividends to Oregonians and America as a 
whole. Thank you for the opportunity to provide testimony for the 
record on the proposed fiscal year 2015 budget for the U.S. Department 
of Agriculture.
    [This statement was submitted by April Snell, Executive Director, 
Oregon Water Resources Congress.]
                                 ______
                                 
       Prepared Statement of the Organic Trade Association (OTA)
    Chairman Aderholt, Ranking Member Farr, and Members of the 
Subcommittee, I am Laura Batcha, Executive Director and CEO of the 
Organic Trade Association (OTA).\1\ The organic agricultural economy 
continues to be one of the fastest-growing sectors of American 
agriculture and is a job creator. The Organic Foods Production Act of 
1990 (OFPA) set in motion the creation of a vibrant marketplace that 
has grown to $35 billion in sales over 22 years, at a 2012 growth rate 
of over 10 percent.\2\ The industry is comprised of over 17,000 organic 
businesses in the U.S., and is creating jobs in the manufacturing 
sector at four times the rate of the economy as a whole.\3\
---------------------------------------------------------------------------
    \1\ The Organic Trade Association is the membership-based business 
association representing more than 6,500 organizations in the organic 
industry including growers, shippers, processors, certifiers, farmers' 
associations, distributors, importers, exporters, consultants, 
retailers, and others. OTA's mission is to promote and protect the 
growth of organic trade to benefit the environment, farmers, the 
public, and the economy.
    \2\ 2013 Organic Trade Association Organic Industry survey.
    \3\ National Organic Program database.
---------------------------------------------------------------------------
    Organic is more than simply a marketing seal; it is a distinct 
production system with independent marketplace dynamics. When viewed as 
a distinct class, organic ranks fourth in food/feed crop production at 
farm-gate values.\4\ This parallel stream of commerce and agricultural 
production is a bright spot in the American marketplace of innovation 
and entrepreneurship. Organic is no longer a niche product category, it 
is a mainstream market.
---------------------------------------------------------------------------
    \4\ NASS USDA 2011 Organic Production Survey.
---------------------------------------------------------------------------
    The Farm Bill passed into law earlier this year recognizes this, 
and brings an enhanced array of authorities and resources to help the 
organic sector continue to grow, innovate, create new markets and jobs, 
provide certified operations new tools to succeed, and ensure access to 
safe and nutritious food supply. To facilitate this, we respectfully 
request the following funding levels for programs pertinent to the 
organic industry: USDA (AMS) National Organic Program--$9.1 million; 
USDA (AMS) Organic Data Initiative--$309,000; USDA (NASS) Organic Data 
Initiative--$250,000; USDA (NIFA) Organic Transition Research Program--
$4 million; USDA (RCBS) Appropriate Technology Transfer for Rural 
Areas--$2.5 million; USDA (ARS) Genetic Improvements and Translational 
Breeding Program--report language directing the funding be fully 
allocated to regionally adapted public cultivar development; and USDA 
(NIFA) Food Safety Outreach Program--$2.5 million.
                     national organic program (nop)
    OTA requests $9.1 million for the National Organic Program, which 
is charged with regulating the organic sector, and not only enforcing 
the organic regulations, but ensuring they evolve to keep pace with 
consumer expectations. This program is vital to meeting growing 
consumer demand for organic products. Recognizing continued growth of 
the industry and the need for fiscal restraint, we ask for $9.1 
million, the amount in the President's Budget and an amount that 
reflects the over 10 percent growth rate of the sector. The industry 
currently returns over $200 for every $1 spent on the NOP, so an 
increased investment would garner a strong return for the Federal 
government.
                     organic data initiative (odi)
    ODI collects and disseminates data regarding organic agriculture 
through the Agricultural Marketing Service (AMS) and the National 
Agricultural Statistics Service (NASS). This program has been 
successful in providing valuable information to Congress, government 
agencies, and the organic industry at a low cost. Because ODI was 
appropriately funded with mandatory funding in the 2014 Farm Bill, we 
ask for a modest amount of $309,000 in discretionary funding for AMS 
and $250,000 in discretionary funding for NASS.
    AMS collects organic prices and disseminates the data through 
Market News Reports, which give producers and buyers farm-gate selling 
prices for several organic products, helping to create a more stable 
organic market. This is an excellent first step, but organic pricing 
information falls far behind what is available to conventional 
agriculture. Organic producers currently receive farm-gate prices for 
only a limited number of products, while conventional producers receive 
farm-gate, terminal, and retail price information for many products in 
all regions of the country. Organic producers, processors, and 
retailers need this information to maintain a stable organic market. 
Moreover, this information is necessary for the Secretary to fulfill 
his recently announced policy directive regarding crop insurance. We 
therefore request $309,000 for AMS to continue and expand organic price 
reporting services in fiscal year 2015.
    NASS provides surveys based on Census of Agriculture data. In 
October 2012, NASS released the Organic Production Survey (2011), the 
second survey to provide a state-by-state collection of the amount of 
farmland used for organic production and gross farm sales of organic 
products. Such information has long been provided for conventional 
production, and should continue to be funded for organic production. 
OTA requests that NASS receive $250,000 in fiscal year 2015, to 
continue work on the next Organic Production Survey.
               organic transition research program (org)
    OTA requests that ORG be funded at $4 million in fiscal year 2015, 
the same level that is included in the President's budget. Authorized 
by Section 406 of the Agricultural Research, Extension, and Education 
Reform Act of 1998, ORG provides funding for research grants that 
specifically study the relationship between organic agriculture and 
improving critical water quality problems. This program consistently 
receives many more funding requests than it can accommodate.
    Organic retail sales have grown to over 4 percent of retail 
agriculture sales, but research funding provided to organic agriculture 
has never exceeded 2 percent of all agriculture research dollars. 
Without continued funding of ORG as an organic-specific research grant 
program, this gap will only increase. The program should be funded at 
$4 million to facilitate growth of this important research.
        appropriate technology transfer for rural areas (attra)
    We request $2.5 million to fund ATTRA, the amount that is found in 
the President's budget. ATTRA helps thousands of organic and 
conventional farmers across the country by supplying information about 
a wide range of issues. Topics that are routinely asked about include 
creating rural jobs by encouraging farming; developing new marketing 
opportunities by focusing on local foods, farm-to-school, and farmers' 
markets; reducing the use of herbicides and pesticides; employing farm 
practices that help protect air, water, and soil resources; and 
reducing energy and water use. ATTRA reports that 30 percent of the 
calls received relate to organic practices.
        genetic improvements and translational breeding program
    OTA requests that the entirety of the funding dedicated to the 
Genetic Improvements and Translational Breeding Program be dedicated to 
regionally adapted public cultivar development. Public resources for 
classical breeding have dwindled in recent decades, and our capacity 
for public breeding is in critical condition. U.S. agricultural 
productivity and resilience will be strengthened by the development of 
new public breeds, lines, and strains with better climate adaptation, 
drought tolerance, disease resistance, nutritional value, production 
efficiencies, and impact on the environment. It is essential that the 
work done by USDA on breeding--investment of public monies--be 
dedicated entirely to regionally adapted public cultivar development. 
Public monies should go to public research, not research on privately 
held breeding technologies.
                      food safety outreach program
    OTA requests that the Food Safety Outreach Program be funded at 
$2.5 million, the amount that is in the President's budget. This will 
provide food safety training and technical assistance, education, and 
extension to owners and operators of small farms, small food 
processors, and small fruit and vegetable vendors affected by the Food 
Safety Modernization Act of 2011 (FSMA). This money will help farmers 
and food processors understand, interpret, implement, and comply with 
the new food safety regulations currently being proposed by the FDA.
                               conclusion
    Organic agriculture creates economic opportunities for farmers and 
rural communities, while improving and conserving the condition of the 
environment and giving consumers the choice to buy foods and other 
products that are produced according to organic standards. Meeting 
these funding requests will help to ensure the continued growth of U.S. 
organic agriculture by promoting and supporting the integrity of the 
organic label, providing important data, and continuing to support 
research for organic agriculture.
    I thank the Committee and look forward to working with you to 
advance the organic industry.
    [This statement was submitted by Laura Batcha, Executive Director 
and CEO of the Organic Trade Association (OTA).]
                                 ______
                                 
     Prepared Statement of the Outreach and Assistance to Socially 
             Disadvantaged and Veteran Farmers and Ranchers
    As the subcommittee considers fiscal year 2015 Agriculture 
Appropriations, we urge you to provide adequate funding for a set of 
critical programs that make a real difference in communities that most 
need support. While only a fraction of the full agriculture budget 
these are the lifeblood for socially disadvantaged, new entry and 
veteran producers, farmworkers and communities:
    Outreach and Assistance to Socially Disadvantaged and Veteran 
Farmers and Ranchers: We request that the committee restore the funding 
base of the OASDVFR Program to allow the Secretary of Agriculture to 
assist both socially disadvantaged and veteran farmers and ranchers in 
participating equitably in the full range of USDA agricultural 
programs. Specifically we urge you to provide not less than $10 million 
in additional funding to supplement the direct funding of $10 million 
annually in order to assure the program can accommodate both the 
traditional and new constituencies of the program, and ensure that 
Veteran Farmers and Ranchers are able to fully benefit from the 
program.
    The OASDVFR Program helps our nation's historically underserved 
producers gain access to the United States Department of Agriculture's 
credit, commodity, conservation and other programs and services by 
supporting technical assistance to producers through community-based 
organizations, tribes and educational institutions best prepared to 
reach and serve them. Established in Section 2501 of the 1990 Farm 
Bill, OASDFR provides technical assistance to reduce the trend among 
socially disadvantaged producers of engaging in fewer farm program 
payments, fewer and lower-valued loans, and less outreach and training 
than other producers.
  --The OASDVFR Program in recent years has served more than 100,000 
        rural constituents and is an invaluable resource for the more 
        than 400 counties in more than 35 states serving a wide range 
        of socially disadvantaged recipients living in persistent 
        poverty areas of the country.
  --The program is bringing diverse producers back to USDA or in the 
        door for the first time greatly increasing participation in the 
        NRCS High-tunnel program and the FSA microloan program. OASDVFR 
        programs are fundamental to the goals and work of Secretary 
        Vilsack's Strikeforce Initiative.
  --The 2014 Farm Bill expanded the program to include Veteran Farmers 
        and Ranchers, but with a 50 percent reduction from previous 
        funding levels to provide only $10 million in direct funds 
        annually. With adequate resources, the OASDVFR Program can also 
        provide critical support for veteran farmers and ranchers. The 
        2010 Census identified 21.9 million veterans in 2009, including 
        156,000 American Indian Veterans, 2.4 million African American 
        Veterans, 1.2 million Hispanic Veterans, and 265,000 Asian 
        Veterans. Many Veterans are from rural areas.
  --The lack of funding for the program in fiscal year 2013 has meant 
        that groups receiving support have already or are laying off 
        hundreds of experienced staff as the final year of their 
        contacts have expired creating a service gap to thousands of 
        producers who need their assistance to access USDA programs. 
        Restoring these services is essential with a new Farm Bill 
        coming into effect.
    We strongly support this important program and ask you to support 
funding at the fully authorized level to ensure both the traditional 
constituencies and the expanded constituency of Veteran Farmers and 
Ranchers are able to fully benefit from the program.
    USDA Coordination Activities: Beginning and socially disadvantaged 
producers have long needed an office at USDA to help better understand 
and utilize the wide array of USDA services. The Office of Advocacy and 
Outreach, established in the 2008 Farm Bill, is in full operation and 
working effectively with communities across the nation to provide 
equitable access to its programs and enhance the viability and 
profitability of our nation's diverse and new entry producers. We urge 
you to provide the full $2 million authorized to support OAO's staffing 
and operational needs and activities related to the new Military 
Veterans Agricultural Liaison as well as the Farmworker Coordinator and 
the OASDVFR Program; overseeing the Advisory Committees on Minority 
Farmers and Ranchers, and Beginning Farmers and Ranchers; and managing 
the 1890, 1994 and Hispanic serving institutions programs. Adequate OAO 
funding will enhance coordination among USDA agencies as a new Farm 
Bill takes effect to include underserved constituencies and Strikeforce 
areas.
    In order to provide critically needed services to tribal producers, 
we urge you to expand funding for the federally Recognized Tribal 
Extension Program (FRTEP) to at least $10 million for fiscal year 2015 
to reach at least 100 of the 566 Tribes. Congress mandates research and 
extension services in every county in the nation--over 3,100 offices 
nationwide, funded cooperatively by county, state, and Federal levels 
of government. Extension services are not extended to Indian 
Reservations, except through the limited Federal funds provided through 
USDA to the FRTEP. Tribes contribute in-kind cost share for office 
space and a small portion of operating expenses.
    Only 36 extension agents are supported on Indian reservations with 
current funding of $3 million. The inadequate funding of FRTEP has a 
profound negative impact on the long-term viability of tribal 
agriculture, which remains a critical basis for the economic security, 
health and nutrition of Native Americans.
    Fewer than 4 percent of American Indians living on America's Indian 
reservations have access to these programs, yet more than 97 percent of 
America's counties have had robust programs since 1914. Increased 
funding would allow FRTEP to serve better the many tribes who have 
repeatedly requested full access to these programs. It is time that 
Native American producers, families, youth and reservation residents 
receive the same level of service as US citizens who are not 
reservation-bound. In order to correct this grave inequity, we urge you 
to provide $10 million for this program in the fiscal year 2015 
Agriculture Appropriation.
    The Beginning Farmer and Rancher Individual Development Account 
(BFRIDA) Program is designed to help beginning farmers and ranchers of 
limited means finance their farming endeavors through business and 
financial education and matched savings accounts. This new program 
helps individuals with financial training and assistance so they can 
build assets and make needed purchases to get started in agriculture. 
We urge you support of $2.5 million fiscal year 2015 appropriation for 
BFRIDA so it can work together with other new farmer initiatives to 
create economic opportunities and greater stability for both urban and 
rural beginning farmers. We further urge you to support the President's 
fiscal year 2015 Budget Request for program leve1s of $1.5 billion for 
Direct Farm Ownership loans and $1.252 billion for Direct Operating 
Loans. We also urge you to instruct FSA to develop price information to 
improve eligibility and lending capabilities for farmers growing for 
local and regional food markets.
    We also urge you to ensure that farmers and ranchers who are in 
economic trouble receive fair loan restructuring and servicing of their 
loans by funding the Federal match for State Mediation Programs at $5 
million. These programs currently operate in 40 states.
    Sustainable Agriculture Research and Education (SARE)--We request 
that you invest in critical sustainable agriculture research and 
education conducted at the field level by farmers themselves by 
including funding for fiscal year 2015 of $30 million the SARE program.
    Healthy Food Financing Initiative: We urge you improve health 
outcomes and increase access to healthy foods for low-income people by 
strengthening local food systems through significant investments of 
funds from both the Department of Agriculture and Department of 
Treasury necessary to get the Healthy Food Financing Initiative fully 
operational in fiscal year 2015.
    Summer Electronic Benefits Transfer BT (SEBTC) pilot projects: For 
the past 2 years, USDA has been conducting pilot projects in eight 
states and two Indian nations that used electronic benefits to reach 
children when school meals are unavailable. These pilots have been 
proving remarkably successful at reducing childhood hunger and we urge 
they be continued with a $30 million investment.
    Agriculture and Food Research Initiative (AFRI): We support 
inclusion of report language and funding for increased public research 
and development of seed varieties and livestock breeds to ensure the 
diversity of our nation's food supply. Specifically, we urge the 
inclusion of report language on public cultivar development be included 
under AFRI, and for USDA to see classical plant and animal breeding as 
a priority area within the AFRI process.
    Rural Cooperative Development Grants: We urge you to provide $9.1 
million for RCDG, including $3 million for centers targeting socially 
disadvantaged producers to assist individuals in beginning and 
expanding cooperatives. We oppose the Administration's proposal to 
consolidate RCDC into a Rural Business and Cooperative Grants program.
    Rural Microenterprise Assistance Program: We urge you to foster 
development in rural areas by preserving the full mandatory funding of 
$3 million as provided in the 2014 Farm bill and by adding an 
additional $3.3 million in discretionary funding, for total support of 
$6.3 million.
    Value-Added Producer Grants: VAPG offers grants to farmers and 
ranchers developing farm- and food-related businesses that boost farm 
income and create jobs in rural America. Growing interest in local and 
regional foods means greater need for regional supply chains and 
enterprises that aggregate local production, exactly the kind of rural 
development strategy VAPG is designed to support. We request no changes 
in mandatory program spending as well as $15 million in discretionary 
funding for VAPG, the same level as included in the final fiscal year 
14 bill.
    Food Safety Training: We urge you to provide funding to assist 
farmers to adapt to coming Food Safety and Modernization Act rules for 
Food Safety Training at $5 million for fiscal year 2015.
    Appropriate Technology Transfer for Rural Areas: We urge you to 
provide $2.5 million to ATTRA for fiscal year 2015 to provide support 
to farmers and extension agents across the country.
    Organic Transitions Integrated Research Program: We urge you to 
provide $5 million to invest in new organic research with farmer 
delivery systems included and allow organics a fairer portion of the 
research budget.
    Federal-State Market Improvement Program: We request funding be 
continued at the fiscal year 2014 level of $1.363 million. This program 
is critical in matching funds to state departments of agriculture to 
assist with research and creating new markets for farmers.
    Conservation Programs: We further urge you to protect and maintain 
direct funding for agricultural conservation programs including the 
Environmental Quality Incentive Program and the Conservation 
Stewardship Program, and other programs that help producers across the 
nation protect their land. The diverse producers we represent are 
returning to USDA through these programs, and building up small 
operations that care for the land and contribute to the economic 
viability of small rural communities in some of the poorest areas of 
the nation.
    Implementation and Enforcement of Existing Laws: We strongly 
support allowing USDA to implement and enforce existing laws relating 
to provisions of Country of Origin Labeling (COOL) and the Grain 
Inspection Packers and Stockyards Administration (GIPSA) as included in 
the 2008 Farm Bill. We strongly oppose the use of riders within the 
appropriations process to limit the authority of the USDA to enforce 
these important laws.
    As you proceed with funding for these important programs for fiscal 
year 2015, we urge you to consider the impacts of your funding 
decisions on the next generation of American farmers and ranchers, and 
with great care to being inclusive of beginning, minority, tribal, 
women, and limited resource farmers who are often in most need of these 
important programs.
    Rural Coalition/Coalicin Rural, Washington, DC Community Food & 
Justice Coalition, Oakland, CA Farmers Veteran Coalition, Davis, CA
    Federation of Southern Cooperatives Rural Training and Research 
Center, Epes, AL
    National Alliance of Farmworker Women, Oxnard, CA National Family 
Farm Coalition, Washington, DC National Hmong American Farmers, Inc., 
Fresno, CA
    National Latino Farmers and Ranchers Trade Association, Washington, 
DC
    National Sustainable Agriculture Coalition, Washington, DC
    North Carolina Association of Black Lawyers Land Loss Prevention 
Project, Durham, NC
    21st Century Youth Leadership Movement, Eutaw, Alabama Alabama 
State Association of Cooperatives, Forkland, AL Albany Food Justice 
Coalition, Albany, NY
    American Federation of Government Employees Local 3354, St. Louis, 
MO
    American Indian Mothers Inc., Shannon, NC
    Arkansas Land and Community Development Corporation, Brinkley, AR
    Ashtabula, Geauga, Lake Counties Farmers Union (Ohio), OH Atrisco 
Land Grant, Atrisco, New Mexico
    California FarmLink, Santa Cruz, CA
    Carolina Farm Stewardship Association, Pittsboro, NC CASA del 
Llano, Hereford, TX
    Center for Social Inclusion, New York, NY Citizens For Water, New 
York, NY
    Colorado Latino Farmers and Ranchers, Antonito, CO
    Concerned Citizens of Wagon Mound and Mora County, Wagon Mound, NM
    Dakota Rural Action, Brookings, SD
    Damascus Citizens for Sustainability, Milanville, PA
    Delgado Farms, El Paso, TX
    Ecohermanas, Washington, DC
    Environmental Justice and Health Alliance for Chemical Policy 
Reform, Washington, DC
    Fair World Project, Portland, OR
    Farmworker Association of Florida, Apopka, FL
    Fernandez Ranch, Centerville, WA FOCUS Churches of Albany, Albany, 
NY
    Food Chain Workers Alliance, Los Angeles, CA Grassroots 
International, Boston, MA
    Hmong National Development, Inc., Washington, D.C. Hunger Action 
Network of New York State, New York, NY
    Indian Country Agriculture and Resource Development Cooperation, 
Anadarko, OK Indian Nations Conservation Alliance, Twin Bridges, MT
    Institute for Agriculture and Trade Policy, Minneapolis, MN Land 
Stewardship Project, MN
    Latino Economic Development Center, Minneapolis, MN Local Matters, 
Columbus, OH
    Los Jardines Institute (The Gardens Institute), Albuquerque, NM 
Maine Rural Partners, Orono, MAINE
    Michael Fields Agricultural Institute, East Troy, WI Mississippi 
Association of Cooperatives, Jackson, MS
    Nebraska Sustainable Agriculture Society, Ceresco, NE
    Northern New Mexico Stockmans' Association, Espanola, New Mexico
    Northwest Farm Bill Action Group, Seattle, WA Northwest Forest 
Worker Center, Albany, CA NYH2O, New York, NY
    Oklahoma Black Historical Research Project, Inc., Oklahoma City, OK
    Operation Spring Plant, Inc., Oxford, NC Orangeburg County Young 
Farmer, Orangeburg, SC Pesticide Action Network, Oakland, CA
    Pululu Farms, Arroyo Seco, NM
    Quote...Unquote, Inc, Albuquerque, NM Roots of Change, Oakland, CA
    Rural Advancement Fund, Orangeburg, SC
    Rural Development Leadership Network, New York, NY
    San Diego 1 in 10 Coalition, San Diego, CA San Diego Hunger 
Coalition, San Diego, CA Slow Food California, Sacramento, CA
    South Valley Regional Association of Acequias, Albuquerque, NM
    Southwest Workers Union, San Antonio, TX
    Taos County Economic Development Corporation, Taos, NM
    Victory Garden Foundation, Oakland, CA Viva Farms, Burlington, WA
    Western Sustainable Agriculture Working Group, Austin, NV 
WhyHunger, New York, NY
    Winston County Self Help Coop, Louisville, MS World Farmers, Inc., 
Lancaster, MA

    [This statement was submitted by Lorette Picciano, Rural 
Coalition.]
                                 ______
                                 
      Prepared Statement of the Pickle Packers International, Inc.
concern for sustained and increased research funding usda/agricultural 
                            research service
Summary
    Sustained and increased funding is desperately needed to maintain 
the research momentum built over recent years and to defray rising 
fixed costs at laboratory facilities. Companies in the pickled 
vegetable industry generously participate in funding and performing 
short-term research, but the expense for long-term research needed to 
insure future global competitiveness is too great for individual 
companies to shoulder on their own.
Additional Budget Requests for fiscal year 2015
    Funding needs for USDA/ARS laboratories are as follows:

         I. Requests for Program Enhancement--Pickled Vegetables
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Emerging Disease of Crops...............................        $500,000
Quality and Utilization of Agricultural Products & Food          500,000
 Safety.................................................
Applied Crop Genomics...................................         500,000
Specialty Crops.........................................         500,000
    Total Program Enhancements Requested--Pickled             $2,000,000
     Vegetables.........................................
------------------------------------------------------------------------

                      usda/ars research provides:
  --Consumers with over 150 safe and healthful vegetable varieties 
        providing vitamins A, C, folate, magnesium, potassium, calcium, 
        and phytonutrients such as antioxidant carotenoids and 
        anthocyanins.
  --Genetic resistance for many major vegetable diseases, assuring 
        sustainable crop production with reduced pesticide residues--
        valued at nearly $1 billion per year in increased crop 
        production.
  --Classical plant breeding methods combined with bio-technological 
        tools, such as DNA markers, genetic maps, and genome sequence 
        to expedite traditional breeding and increase efficiency.
  --New vegetable products with economic opportunities amidst 
        increasing foreign competition.
  --Improved varieties suitable for machine harvesting, assuring post 
        harvest quality and marketability.
  --Fermentation and acidification processing techniques to improve the 
        efficiency of energy use, reduce environmental pollution, and 
        reduce clean water intake while continuing to assure safety and 
        quality of our products.
  --Methods for delivering beneficial microorganisms in fermented or 
        acidified vegetables, and produce reduced sodium, healthier 
        products.
  --New technology and systems for rapid inspection, sorting and 
        grading of pickling vegetable products.
                     health and economical benefits
  --Health agencies continue to encourage increased consumption of 
        fruits and vegetables, useful in preventing heart disease, 
        cancer, stroke, diabetes and obesity.
  --Vegetable crops, including cucumbers, peppers, carrots, onions, 
        garlic and cabbage (sauerkraut), are considered ``specialty'' 
        crops and not part of commodity programs supported by taxpayer 
        subsidies.
  --Current farm value for just cucumbers, onions and garlic is 
        estimated at $2.4 billion with a processed value of $5.8 
        billion. These vegetables are grown and/or manufactured in all 
        50 states.
  a statement of concern for sustained and increased research funding 
                   usda/agricultural research service
    The pickled vegetable industry strongly supports and encourages 
your committee in its work of maintaining and guiding the Agricultural 
Research Service. To accomplish the goal of improved health and quality 
of life for the American people, the health action agencies of this 
country continue to encourage increased consumption of fruits and 
vegetables in our diets. Accumulating evidence from the epidemiology 
and biochemistry of heart disease, cancer, diabetes and obesity 
supports this policy. Vitamins (particularly A, C, and folic acid), 
minerals, and a variety of antioxidant phytochemicals in plant foods 
are thought to be the basis for correlation's between high fruit and 
vegetable consumption and reduced incidence of these debilitating and 
deadly diseases.
    As an association representing processors that produce over 85 
percent of the tonnage of pickled vegetables in North America, it is 
our goal to produce new products that increase the competitiveness of 
U.S. agriculture as well as meet the demands of an increasingly diverse 
U.S. population that is encouraged to eat more vegetables. The profit 
margins of growers continue to be narrowed by foreign competition. This 
industry can grow by meeting today's lifestyle changes with reasonably 
priced products of good texture and flavor that are high in nutritional 
value, low in negative environmental impacts, and produced with assured 
safety from pathogenic microorganisms and from those who would use food 
as a vehicle for terror. With strong research to back us up, we believe 
our industry can make a greater contribution toward reducing product 
costs and improving human diets and health for all economic strata of 
U.S. society.
    Many small to medium sized growers and processing operations are 
involved in the pickled vegetable industry. We grow and process a group 
of vegetable crops, including cucumbers, peppers, carrots, onions, 
garlic, cauliflower, cabbage (Sauerkraut) and Brussels sprouts, which 
are referred to as `minor' crops. None of these crops are in any 
``commodity program'' and do not rely on taxpayer subsidies. However, 
current farm value for just cucumbers, onions and garlic is $2.4 
billion with an estimated processed value of $5.8 billion. These crops 
represent important sources of income to farmers and rural America. 
Growers, processing plant employees and employees of suppliers to this 
industry reside in all 50 states. To realize its potential in the 
rapidly changing American economy, this industry will rely upon a 
growing stream of appropriately directed basic and applied research 
from four important research programs within the Agricultural Research 
Service.
                         applied crop genomics
    The USDA/ARS has the only vegetable crops research unit dedicated 
to the genetic improvement of cucumbers, carrots, onions and garlic. 
ARS scientists account for approximately half of the total U.S. public 
breeding and genetics research on these crops. Their efforts have 
yielded cucumber, carrot and onion cultivars and breeding stocks that 
are widely used by the U.S. vegetable industry (i.e., growers, 
processors, and seed companies). These varieties account for over half 
of the farm yield produced by these crops today. All U.S. seed 
companies rely upon this program for developing new varieties, because 
ARS programs seek to introduce economically important traits (e.g., 
pest resistances and health-enhancing characteristics) not available in 
commercial varieties using long-term high risk research efforts. The 
U.S. vegetable seed industry develops new varieties of cucumbers, 
carrots, onions, and garlic and over twenty other vegetables used by 
thousands of vegetable growers. Their innovations meet long-term needs 
and bring innovations in these crops for the U.S. and export markets, 
for which the U.S. has successfully competed.
    ARS scientists have developed genetic resistance for many major 
vegetable diseases that is estimated at $670 million per year in 
increased crop production, not to mention environmental benefits due to 
reduction in pesticide use. New research has resulted in cucumbers with 
improved disease resistance, pickling quality and suitability for 
machine harvesting. New sources of genetic resistance to viral and 
fungal diseases, tolerance to environmental stresses, and higher yield 
have recently been identified along with molecular tools to expedite 
delivery of elite cucumber lines to U.S. growers.
    There are still serious vegetable production problems which need 
attention. For example, losses of cucumbers, onions, and carrots in the 
field due to attack by pathogens and pests remains high, nutritional 
quality needs to be significantly improved and U.S. production value 
and export markets should be enhanced. Genetic improvement of all the 
attributes of these valuable crops are at hand through the unique USDA 
lines and populations (i.e., germplasm) that are available and the new 
biotechnological methodologies that are being developed by the group. 
The achievement of these goals will involve the utilization of a wide 
range of biological diversity available in the germplasm collections 
for these crops. Classical plant breeding methods combined with bio-
technological tools such as DNA markers, genetic maps, and genome 
sequences to expedite traditional cucumber, carrot and onion breeding 
and increase its efficiency. With this, new high-value vegetable 
products based upon genetic improvements developed by our USDA 
laboratories can offer vegetable processors and growers expanded 
economic opportunities for U.S. and export markets.
     quality and utilization of agricultural products & food safety
    The USDA/ARS maintains a food science research unit that our 
industry looks to for new scientific information on the safety of our 
products and development of new processing technologies related to 
fermented and acidified vegetables. Major accomplishments include: 
pasteurization treatments currently used for most acidified vegetables; 
the preservation technology used for manufacturing shelf stable sweet 
pickles; and fermentation technology (purging) used to prevent the 
formation of air pockets within fermented pickles. With the passage of 
the Food Safety Modernization Act, commercial producers of acidified 
foods must prove that they meet critical limits established for 
microbial safety. USDA-ARS has supplied technical expertise and the 
scientific data needed to define safe processing conditions for 
domestic and imported pickled vegetable products, saving considerable 
expense to the industry for microbial challenge studies. These data are 
currently used to support required process filings, and have helped 
establish a scientific basis for acidified food regulations. Additional 
funding is needed to support the important research initiatives 
detailed below.
    First, nearly all retail pickled vegetables are pasteurized for 
safety and shelf stability. Current steam and water bath pasteurizers 
rely on technology from the 1940s and 50s. Promising new technologies 
include continuous flow microwave technology and ``hot-fill-and-hold'' 
pasteurization. The objective is to reduce water use and significantly 
improve energy efficiency with new, scientifically validated thermal 
processing technology.
    Second, additional research that offers significant economic and 
environmental advantages to the U.S. industry includes the reduction or 
replacement of salt in commercial vegetable fermentations and bulk 
acidification. Calcium substitution of salt in commercial vegetable 
processing has the potential to significantly reduce chloride levels in 
waste waters and sludge currently delivered to landfills; and create 
opportunities to manufacture healthier, calcium enriched, reduced 
sodium vegetable products. Reducing environmental impact and production 
costs for the manufacture of healthier products is essential to the 
sustainability of the U.S. industry.
    Third, the market of refrigerated vegetable products is rapidly 
growing in the U.S. These products are attractive to conscientious 
customers targeting healthier, beneficial and bioactive food 
formulations. Fermented vegetables presented in the refrigerated sector 
deliver natural microbiota perceived as probiotic bacteria by a growing 
market. New processing technologies and knowledge of the intrinsic 
value of the natural microbiota in fermented vegetables are needed to 
develop genuine, high value, probiotic vegetable products that provide 
health benefits for the average U.S. citizen.
                            specialty crops
    The USDA/ARS conducts research on the development of innovative 
technologies for rapid, nondestructive measurement and grading of 
fruits and pickling vegetables to enhance product quality and 
marketability and achieve labor cost savings. The research program is 
nationally and internationally recognized for its pioneering research 
and development and technology transfer effort in imaging and 
spectroscopic inspection technologies, which have found wide 
applications in food quality and safety inspection. Currently, ARS 
researchers are developing a spectral imaging-based common inspection 
platform and other related sensing technologies with substantially 
improved capabilities for quality evaluation and grading of pickling 
vegetables and fruits at the processing facility and in the field.
    Development of new and/or improved sensing technologies will help 
growers and processors assess, monitor, inspect, and grade pickling 
vegetables and horticultural products rapidly and accurately for 
internal and external quality characteristics at various steps of 
harvest and postharvest handling and processing operations. This will 
minimize postharvest losses of food that has already been produced, 
ensure high quality, consistent final product and consumer 
satisfaction, and reduce production cost. Expansion of the USDA/ARS 
research in food quality sensing and automation is critically needed, 
so that it can develop and deliver these much needed technologies to 
the specialty crop industry.
                       emerging disease of crops
    USDA/ARS vegetable research addresses national problems confronting 
the vegetable industry of the southeastern U.S. The mission of the 
laboratory is to develop disease and pest resistant vegetables, and 
also new, reliable, environmentally-sound disease and pest management 
practices that do not rely on conventional pesticides. Programs 
currently address 14 crops, including those in the cabbage, cucumber, 
and pepper families, all of major importance to the pickling industry. 
USDA/ARS research is recognized world-wide, and its accomplishments 
include over 150 new vegetable varieties and many improved management 
practices.
    Expansion of this program would directly benefit the southeastern 
vegetable industry. Vegetable growers depend heavily on synthetic 
pesticides to control diseases and pests. Without the availability of 
certain pesticides that have been eliminated for use, producers are 
likely to experience crop failures unless other effective, non-
pesticide control methods are readily identified. In this context, the 
research on improved, more efficient and environmentally compatible 
vegetable production practices and resistant varieties continues to be 
absolutely essential. This research can help provide U.S. growers with 
a competitive edge they need to sustain and keep their industry 
vibrant, allowing it to expand in the face of increasing foreign 
competition. Current cucumber varieties are highly susceptible to a new 
strain of the downy mildew pathogen which has caused considerable 
damage to commercial cucumber production in eastern states in recent 
years. A new plant pathologist position could address this critical 
situation.
                      funding needs for the future
    It remains critical that funding continues the forward momentum in 
pickled vegetable research that the U.S. now enjoys and to increase 
funding levels as warranted by planned expansion of research projects 
to maintain U.S. competitiveness. The diverse array of companies making 
up our industry assumes responsibility for short-term research, but the 
expense and risk are too great for individual companies to commit to 
the long-term research needed to insure future competitiveness.
    It is important to note that fiscal year 2013 Enacted funding for 
USDA/ARS laboratories totaled $10,212,000. However, fiscal year 2013 
Enacted funding for all cucurbits equaled just $3,665,000 with only 
$1,876,000 directed toward cucumber and pickled vegetable research. For 
fiscal year 2015, PPI is requesting an additional $2,000,000 in program 
enhancements that will provide needed research for cucumber and pickled 
vegetables.
                       emerging disease of crops
    There is a critical need to establish and fund a plant pathology 
position to address cucumber diseases, especially the disease caused by 
a new strain of the downy mildew pathogen responsible for recent 
extensive damage to cucumber production in eastern states. The 
pathologist is needed to characterize pathogen strains and to develop 
new management approaches, as well as resistant cucumber varieties, to 
combat the disease. Ultimately, this proposed plant pathologist would 
accomplish research that results in effective protection of cucumbers 
from disease without the use of conventional pesticides.

------------------------------------------------------------------------
                                                       Amount
------------------------------------------------------------------------
Fiscal year
    2013Enacted...........................  $425,000
    2014 Estimate.........................  $425,000
    2015 (Proposed budget)................  To be determined
    2015 Additional Request (Plant          $500,000
     Pathologist & support).
------------------------------------------------------------------------

    quality and utilization of agricultural products and food safety
    The current funding includes research and development for a variety 
of vegetable products, including fermented and acidified vegetables. 
For new research initiatives to reduce energy and water use, reduce 
environmental impact from commercial fermentations, and develop new 
health-promoting food (probiotic) technology, we request additional 
support of $500,000. This will provide support for Post-Doctoral or 
Pre-Doctoral research associates along with necessary equipment and 
supplies.

------------------------------------------------------------------------
                                                       Amount
------------------------------------------------------------------------
Fiscal year
    2013 Enacted..........................  $599,000
    2014 Estimate.........................  $599,000
    2015 (Proposed budget)................  To be determined
    2015 Additional Request (Post-doctoral  $500,000
     and Pre-doctoral Research Associate &
     support).
------------------------------------------------------------------------

                         APPLIED CROP GENOMICS

    Emerging and persisting diseases, such as downy mildew, 
southern root knot nematode, and angular leaf spot of cucumber, 
threaten production of the crop in all production areas. We 
request an additional $500,000 to fully fund the scientists and 
support staff, including graduate students and post-doctorates 
for identifying and researching new sources of genetic 
resistance to emerging diseases.

------------------------------------------------------------------------
                                                       Amount
------------------------------------------------------------------------
Fiscal year                                 ............................
    2013 Enacted..........................  $421,000
    2014 Estimate.........................  $421,000
    2015 (Proposed budget)................  To be determined
    2015 Additional Request (Post-doctoral  $500,000
     and Pre-doctoral Research Associate &
     support).
------------------------------------------------------------------------

                            specialty crops
    The current funding is far short of the level needed to carry out 
research on inspection, sorting and grading of pickling cucumbers and 
other vegetable crops to assure the processing and quality of pickled 
products. An increase of $550,000 in the current base funding level 
would be needed to fund the research engineer position.

------------------------------------------------------------------------
                                                       Amount
------------------------------------------------------------------------
Fiscal year                                 ............................
    2013 Enacted..........................  $145,000
    2014 Estimate.........................  $145,000
    2015 (Proposed budget)................  To be determined
2015 Additional Request (Research Engineer  $500,000
 & support).
------------------------------------------------------------------------

                                ------                                

  Prepared Statement of the Rural Cooperative Development Grant (RCDG)
    CooperationWorks! is requesting the Rural Cooperative Development 
Grant (RCDG) program of USDA's Rural Business--Cooperative Service be 
continued in the fiscal year 2015 Agriculture, Rural Development, Food 
and Drug Administration, and Related Agencies Appropriations bill.
    The President's fiscal year 2015 budget request, like the previous 
fiscal year 2014 budget request, contains a proposal to eliminate a 
number of rural development programs, including the Rural Cooperative 
Development Grant (RCDG) program, and consolidate them into a new $57.5 
million economic development grant program. CooperationWorks! is 
seriously concerned with the elimination of the only program in the 
Federal government focused on the development of cooperative 
enterprise, providing needed technical assistance for cooperative 
expansion and start-up. The consolidation of the RCDG program in our 
view will diminish the agency's focus and mission of supporting the 
advancement of self-help programs, and cooperatives specifically, and 
further takes away the ability of Congress to establish priorities and 
accountability for the programs that Congress has historically 
authorized and funded.
    As the only network of technical assistance providers in the United 
States, connecting over 100 professionals in rural and urban areas 
alike, covering all 50 states, CooperationWorks! expresses its strong 
support for the Rural Cooperative Development Grant (RCDG) program and 
encourages the committee to support it through funding in fiscal year 
2015 and beyond that will continue to allow cooperative development 
centers to operate and further expand its reach into more rural 
communities to provide the types of technical assistance to 
cooperatives that allow for economic growth and job creation. In 
addition, we request for initial funding of a new interagency working 
group that was created in the recent Farm Bill and which is to be 
coordinated and chaired by USDA. This funding would help to further 
efforts to foster cooperative development and ensure coordination with 
Federal agencies and national and local cooperative organizations that 
have cooperative programs and interests.
    The RCDG program is a competitive grants program, administered by 
USDA's Rural Development, Rural Business-Cooperative Services Program. 
The primary objective of the RCDG program is to improve the economic 
condition of rural areas by assisting individuals or entities in the 
startup, expansion, or operational improvement of rural cooperatives 
and other business entities. Grants are awarded competitively on an 
annual basis to nonprofits or institutions of higher education that 
operate cooperative development centers who provide technical 
assistance to those seeking to form cooperatively owned businesses in 
rural areas. The maximum grant amount that USDA provides in a fiscal 
year is $200,000. There is a 25 percent cost share requirement of the 
total project cost (5 percent cost share for 1994 Institutions). 
Cooperative development centers currently serve rural communities in 
all 50 states. They use the grants to fund critical technical 
assistance for economic development, such as legal and accounting 
assistance, feasibility studies, business planning, board education, 
and other services that help ensure the success of these businesses.
    We understand that in this current fiscal environment, Federal 
funding is limited and Congress has to make tough spending choices. We 
believe funding in the RCDG account is a sound investment toward rural 
economic development and job growth for more Americans. Through outcome 
surveys conducted among the RCDG recipients in our membership, which 
includes over half of all RCDG funded centers, we found that in 2011 
for every $1,362 in Federal dollars there was a result of one job saved 
or created. This efficient use of program funds is possible because of 
the matching funding requirement in the program, the self-help nature 
of the cooperative business model, and the efficient use of funds 
stewarded by RCDG program recipients.

    [This statement was submitted by Tom Pierson, Advocacy Chair for 
CooperationWorks!]
                                 ______
                                 
  Prepared Statement of the Society for Women's Health Research (SWHR)
    SWHR is pleased to submit written testimony to urge the Committee 
to prioritize and provide an increase to the fiscal year 2015 budget 
authority (BA) appropriations (non-user fees) for the Food and Drug 
Administration (FDA) of $2.784 billion, a $223 million increase over 
fiscal year 2014 and $200 million above the President's budget proposal 
for FDA. In addition, SWHR supports an allocation of $7 million for the 
FDA Office of Women's Health (OWH) for fiscal year 2015. These 
recommended allocations will allow the FDA to address resource 
shortages across all centers, implement critical improvements in 
infrastructure, and continue investment in OWH, the critical voice on 
women's health and women's health research within the Agency.
    The FDA, as regulator of products covering more than a quarter of 
the US economy, should receive priority funding as its responsibilities 
are critical to the health and well-being of all Americans. Each year, 
Congress adds to FDA's ever increasing responsibilities but does not 
provide appropriate funds to meet those demands reasonably, straining 
the FDA's abilities. The fiscal year 2015 appropriations must reflect 
an amount that meets the needs of the Agency demanded by Congress.
    More than 47 percent of Americans have a chronic disease and 22 
percent have multiple conditions. Eighty-two percent of Americans take 
over the counter or prescription medications and 30 percent take more 
than 5 medications. American consumers and patients expect proactive 
scientific and research leadership from the FDA while demanding 
assurance of the safety and effectiveness of their food, drugs and 
cosmetics. To meet this expectation, the FDA spends over 80 percent of 
its budget on salary costs in maintaining and recruiting talented and 
smart researchers and scientists who can keep pace with scientific 
innovation. Globalization and the complexity of our scientific research 
world have put demands on the FDA that need additional appropriated 
resources. Unfortunately, due to congressional funding levels and COLA 
requirements, FDA annually is challenged and must frequently postpone 
needed investments in infrastructure, technology, and human collateral 
due to budget constraints.
    While SWHR recognizes that Congress is focused on reducing our 
Federal deficit, appropriate budgetary allocation must be provided to 
allow FDA to react in a proactive manner for new scientific innovation 
and against emerging or known threats to food and drug security. As the 
thought leader in research on biological sex differences in disease, 
SWHR is dedicated to transforming women's health through science, 
advocacy, and education and believes that sustained funding for the FDA 
and its regulatory responsibilities is absolutely essential if the U.S. 
is to meet the needs of its citizens, especially women, and maintain 
its gold standard.
    In the past two decades, scientists have uncovered significant 
biological and physiological differences between men and women. 
Traditionally, the term women's health represented a women's 
reproductive capability because science and medicine believed that 
women and men were biologically the same. We now know this is not the 
case.
    Biological and physiological differences and hormonal fluctuations 
play a role in the rate of drug absorption, distribution, metabolism, 
elimination as well as ultimate effectiveness of response in females as 
opposed to males. Information about the ways drugs may differ in 
various populations, however, is often unexplored. As was noted by the 
FDA in a recent The 60 Minutes segment (Feb. 9, 2014), women may 
require a lower dosage of some drugs because of different rates of 
absorption or metabolism (Ambien). The 60 Minutes highlighted the 
importance of sex and gender differences research and the need to 
examine sex from the earliest phases of research, starting in basic 
science.
    The FDA has a critical role in human subject research in assuring 
female recruitment and retention is set at appropriate levels and not 
too low to provide statistically significant results in research. 
American women should have the confidence that drugs, devices and 
biologics that have been approved for use in both men and women have 
been appropriately analyzed for sex differences and the finding 
publicly reported to a meaningful way for usage by both healthcare 
providers and patients. America's biomedical development process, while 
continuing to deliver new and better targeted medications to combat 
disease, does not routinely analyze and reported sex differences. FDA's 
must enforce its own requirement that the data acquired during research 
of a new drug or device's safety and efficacy be reported and analyzed 
by sex.
    Pursuant to Section 907 of the Food and Drug Administration Safety 
and Innovation Act of 2012 (FDASIA), the FDA released a report on 
August 20, 2013 on the inclusion of demographic subgroups in clinical 
trials and data analysis in drugs, biologic and device applications 
submitted to the agency. The report, both the summary and the data, 
coordinated and written by OWH and the Office of Minority Health (OMH) 
demonstrated that while demographic data was submitted significant gaps 
still existed with respect to representation, reporting and analysis of 
the data for women, minorities and the elderly. The FDA is currently 
designing an action plan, with short and long term recommendations and 
implementation strategies to help FDA transform its approach toward 
important demographic data. SWHR believes this will result in greater 
knowledge of reactions to drugs and medical treatments by sex, age, 
race and ethnicity, and further, greater understanding of devices and 
their usage or limitations in women.
    SWHR has long advocated that sex differences data discovered from 
clinical trials be presented in a meaningful way to the medical 
community and to patients through education, drug labels and packaging 
inserts, and other forms of alerts directed to key audiences. Through 
more accurate, sex-specific drug and device information and labeling 
the FDA will better serve male and female patients, and will ensure 
that appropriate sex specific data analysis of post-market surveillance 
is placed in the hands of physicians and ultimately the patient in a 
timely manner.
    SWHR believes that Congress must commit to continued investment in 
FDA's informational technology to assure continued advancement of data 
standardization, collection and analysis. In our ever evolving digital 
world, the FDA needs to keep pace with scientific discoveries and must 
have the tools to do so. Congress must dedicate resources from 
appropriated dollars and user fees to FDA's IT systems and 
infrastructure to meet this demand.
                   fda office of women's health (owh)
    OWH must have a steady and sustained investment to remain the key 
resource in advancing regulatory science in women's health and 
reporting of sex differences. OWH's programs ensure that sex and gender 
differences in the efficacy of drugs (such as metabolism rates), 
devices (sizes and functionality) and diagnostics are taken into 
consideration in reviews and approvals. OWH seeks to correct sex and 
gender disparities and monitors women's health priorities, through 
leadership and active engagement with the FDA Centers.
    American women rely on the tools OWH provides to them to help with 
their healthcare decisions. Each year, OWH consumer pamphlets are the 
most requested of any documents at the government printing facility in 
Colorado, with more than 8 million distributed to women across America, 
including target populations such as Hispanic communities, seniors and 
low-income citizens on topics such as breast cancer screening, 
diabetes, menopause hormone therapy, and medication use during 
pregnancy.
    In partnership with the National Institutes of Health Office of 
Research on Women's Health, OWH created a website for an on-line sex 
and gender course to provide additional educational tools for medical 
practice and scientific innovation. Most recently, a third course in 
the series will be going on-line. All courses offer free continuing 
education credits for physicians, pharmacists and nurses. In addition, 
OWH developed a toolkit and curriculum in a joint effort with the 
American Association of Colleges of Pharmacy. It is a Women's Health 
curriculum elective given for credit by the schools and also contains a 
tool kit so teachers can incorporate elements into other courses. 
Further, OWH is a strategic partner in the planning of the research 
roadmap for FDA, helping to align the research and structural needs for 
the agency for the next 3 years.
    Women across our great nation rely on OWH's high quality, timely 
information to make medical decisions on behalf of themselves and their 
families. OWH's highly regarded website is a vital tool for consumers 
and physicians, providing free, downloadable fact sheets on over one 
hundred different illnesses, diseases, and health related issues for 
women. OWH has created medication charts on several chronic diseases, 
listing all the medications that are prescribed and available for each 
disease. These are vital functions that our healthcare professionals 
and the public understand and utilize daily to make healthcare decision 
and must be maintained.

    [This statement was submitted by Martha Nolan, Vice President, 
Public Policy, Society for Women's Health Research (SWHR).]
                                 ______
                                 
         Prepared Statement of the Southern Poverty Law Center
    The Southern Poverty Law Center (SPLC) submits this testimony 
regarding the dangers posed to workers and consumers by the pending 
regulation proposed by the U.S. Department of Agriculture's Food Safety 
and Inspection Service entitled ``Modernization of Poultry Slaughter 
Inspection,'' 77 Fed. Reg. 4,408--4,456 (Apr. 26, 2012). If 
implemented, this regulation threatens the health and safety of 
thousands of poultry slaughter and processing workers. The rule is part 
of the agency's overhaul of its food safety inspection program, 
proposed changes that have been harshly criticized by food safety and 
workers' rights advocates alike. The USDA's proposed budget for the 
coming fiscal year reflects cuts to food safety inspection funds that 
indicate intent to implement this ill-advised rule.
    1. the usda's proposed rule puts workers and consumers at risk.
    The FSIS's proposed rule would increase the already intolerably 
fast speeds of the poultry slaughtering and processing lines throughout 
the country, from between 70 and 140 birds per minute, depending on the 
number of food safety inspectors, to a new maximum of 175 birds per 
minute. Currently there is no state or Federal line speed standard 
designed to protect the safety of workers who produce this food. The 
USDA's regulations are the only limit on line speeds for this industry. 
The Subcommittee's intervention to halt or amend this rule, and to 
restore the funding needed to avoid its implementation, would protect 
workers as well as consumers.
    Numerous studies find strong correlations between rates of 
repetitive motions and likelihood of musculoskeletal injuries such as 
carpal tunnel syndrome, which suggests that faster speeds will increase 
the risk of worker injuries. The SPLC believes that the rule must 
therefore be withdrawn in its entirety. If the proposed rule is not 
withdrawn, the USDA should at least incorporate meaningful and 
enforceable work speed safety standards to protect plant employees from 
repetitive motion injuries and other musculoskeletal disorders. The 
rule should at a minimum be stayed until adequate measures are 
incorporated into the regulations to ensure that the health and safety 
of workers in poultry processing plants are protected.
    The Southern Poverty Law Center and Alabama Appleseed Center for 
Law and Justice recently published a report entitled Unsafe at These 
Speeds: Alabama's Poultry Industry and its Disposable Workers,\1\ 
providing a unique inside look at the operation of poultry plants and 
documenting health, safety, and other conditions affecting workers in 
all positions in the poultry industry--from chicken catchers, live 
hangers, and rehangers to deboners, skin pullers, and box stackers. The 
data and information included in this report leaves no question that 
the current line speeds are too fast and any regulation that increases 
these speeds and allows the industry to regulate itself is 
unacceptable.
---------------------------------------------------------------------------
    \1\ A copy of the report is available at: http://www.splcenter.org/
get-informed/publications/Unsafe-at-These-Speeds.
---------------------------------------------------------------------------
    Alabama alone produces more than 1 billion broilers per year--
ranking it third among states behind Georgia and Arkansas. The broiler 
chicken industry has an $8.5 billion impact on the state--generating 
about 75,000 jobs and 10 percent of Alabama's economy--and one that 
plays a vital economic role in numerous small towns. But it all comes 
at a steep price for the low-paid, hourly workers who face the 
relentless pressure of the mechanized processing line.
    Nearly three-fourths of the 302 workers whom we interviewed 
revealed that they had suffered some type of significant work-related 
injury or illness, yet 68 percent felt that they could not ask their 
supervisors to improve health or safety hazards. In spite of many 
factors that lead to undercounting of injuries in poultry plants, the 
employer-reported data collected by the U.S. Occupational Safety and 
Health Administration (OSHA) reflected an injury rate of 5.9 percent 
for poultry processing workers in 2010, a rate that is more than 50 
percent higher than the 3.8 percent injury rate for all U.S. workers.
    The realities workers discussed with us demonstrate an ongoing 
health and safety crisis in the poultry processing industry, 
principally driven by the punishingly fast speeds at which slaughtering 
and processing lines currently operate. Over three-fourths (78 percent) 
of workers said that an increase in the line speed makes them feel less 
safe, makes their work more painful, and causes more injuries. These 
speeds are a predominant factor in the most common type of injuries, 
called musculoskeletal disorders. The most common injuries suffered 
involved debilitating pain in workers' hands and upper limbs, gnarled 
fingers and other permanent changes to workers' bodies, cuts, and skin 
and respiratory problems. Workers in jobs most sharply affected by 
processing line speeds and the high rates of repetitive motions 
reported the highest rates of musculoskeletal injuries. Plant workers, 
many whom are immigrants, are often treated as disposable resources by 
their employers. Threats of deportation and firing are frequently used 
to keep them silent about injuries and abuses, even if they are United 
States citizens or have lawful immigration status.
    In light of these findings, we respectfully urge members of the 
Subcommittee to use their oversight authority and ask the Department of 
Agriculture's Food Safety and Inspection Service to withdraw its 
proposed rule entitled ``Modernization of Poultry Slaughter 
Inspection,'' especially the provisions that would increase maximum 
permitted line speeds to 175 birds per minute and replace independent 
Federal food safety inspectors with plant employees already too 
intimidated to ask for protections for their own health. If the 
proposed rule is not withdrawn altogether, the Food Safety and 
Inspection Service should, at a minimum, require plants that opt into 
the new inspection system to permit the National Institute for 
Occupational Safety and Health to conduct health hazard evaluations, as 
the FSIS previously required in its Salmonella Initiative Program rule, 
published at 76 Fed. Reg. 41,186. We further urge the Subcommittee to 
restore funding to the USDA's budget to avoid implementation of the 
proposed rule and to preserve food safety inspector capacity to 
adequately inspect every chicken slaughtered for consumption as 
required under the Poultry Products Inspection Act.
    Increases in the speeds at which slaughter and evisceration lines 
run put the safety of all categories of workers in poultry plants at 
risk. First, the workers most directly affected will be workers known 
as live hangers. These workers must pick up and hang every live chicken 
arriving at a plant at a pace fast enough to keep up with slaughter 
line speeds. A live hang worker often must hang 60 birds per minute. 
Second, the proposed rule would in essence create a new job 
classification of plant workers sorting carcasses for defects. These 
workers would have to collectively review and sort 175 birds per 
minute. USDA employees currently conducting this work already suffer 
repetitive motion injuries and file workers' compensation claims as a 
result.
    This risk would be, if anything, heightened for plant employees now 
assuming these duties. Third, rehang workers, who must hang carcasses 
on shackles or place them onto cones for other workers to cut, debone, 
or otherwise process, would face increased risks of repetitive motion 
injuries. Fourth, while it is possible for processing lines that are 
located after the area known as the ``chiller'' to operate at different 
speeds from the slaughter and evisceration lines that are most directly 
affected by the USDA's proposed rule, additional birds slaughtered at 
new, higher speeds would still need to be processed within a limited 
time of slaughter, making it unlikely that there would be no changes in 
other areas of plants. As an example, an increase in a worker's rate of 
motion by even just one bird per minute equates to approximately 480 
additional cutting, trimming, hanging, or other motions in a typical 
work shift, and to approximately 2,400 additional motions in a standard 
work week, during which each worker already performs tens of thousands 
of such strenuous motions. Even what may seem superficially like a 
small increase in the burden on each individual worker may have long-
term and permanent disabling effects on her body.
  2. niosh's recent health hazard evaluations found severe health and 
safety hazards related to fast work speeds and repetitive motions, and 
   do not support implementation of a rule permitting increased line 
                                speeds.
    The SPLC particularly wishes to clarify the import of two recent 
reports issued by the National Institute for Occupational Safety and 
Health (NIOSH). The USDA has stated to the public that NIOSH's health 
hazard evaluation from a poultry processing plant in South Carolina 
suggested that line speeds may be increased without adverse effect on 
the health and safety of plant employees. However, NIOSH evaluated 
conditions in a plant that did not increase work speeds and was not 
implementing the same changes as USDA has proposed. The USDA should not 
draw conclusions about what the results would be if the rule were 
published based on a study of a plant operating under different 
conditions.
    The NIOSH report confirmed that poultry processing workers suffer 
extraordinarily high rates of painful and often permanently crippling 
injuries on the job and validates the fact that fast work speeds pose a 
serious risk to workers' health and safety. It evaluated working 
conditions at one plant in South Carolina--a plant not operating in the 
agency's HIMP pilot program. The plant was evaluated after it requested 
a waiver from the USDA to combine two evisceration lines into one.
    USDA should not use an evaluation showing consistently dangerous 
conditions related to work speed in a plant where work speeds remained 
steady to justify letting companies increase such speeds elsewhere. Key 
differences in the operations of the plant evaluated for this report 
and plants that will implement the rule when it is finalized make 
comparisons impossible. It is inaccurate for the USDA to conclude that 
NIOSH's study shows no effect from a line speed increase. The key 
differences include:
  --NIOSH did not test the effects of an increase in work speed at the 
        South Carolina plant.
  --The number of birds processed per minute by each worker did not 
        change.
  --The South Carolina plant did not make the same types of line-
        related changes that plants will likely make under the USDA's 
        proposed rule.
  --Following the initial NIOSH evaluation, the plant reconfigured its 
        evisceration lines from two lines to one, but did not increase 
        work speeds.
    What the NIOSH poultry plant evaluation does clearly show are 
extraordinarily high levels of crippling injuries at current work 
speeds. For example:
  --42 percent of workers in the evaluation had evidence of painful and 
        often permanently disabling carpal tunnel syndrome.
  --Moderate or severe mononeuropathy, a type of nerve damage, was 
        found in 80 percent of workers with carpal tunnel syndrome.
  --Reports of hand or wrist symptoms of musculoskeletal disorders from 
        workers on the evisceration line increased from 53 percent of 
        the workers to 62 percent after the evisceration line 
        reconfiguration.
    The employer also failed to implement NIOSH's recommendations for 
better protecting worker safety and health, including reducing 
repetition and hand and wrist activity in job tasks to reduce carpal 
tunnel syndrome. In its final report, NIOSH again recommends that the 
employer design job tasks so that they are below the recommended 
threshold limits to minimize the risk for developing carpal tunnel 
syndrome. NIOSH specifically recommends ``reducing the speed of all 
cone lines to reduce repetition.''
    The findings of the recent NIOSH report do not justify the USDA 
moving forward with its proposed rule to increase evisceration line 
speeds and the removal of food safety inspectors from those lines.
                             3. conclusion
    A central aspect of any effort to ``modernize'' the poultry 
industry must be an end to the epidemic of repetitive motion injuries. 
This could be accomplished by limiting line speeds and the number of 
repetitions required of workers; by enforcing rights to bathroom and 
other rest breaks; and by requiring other ergonomically sound 
practices. These minimal worker safety protections must not be 
sacrificed. The health and safety of these workers should be of utmost 
concern to this Subcommittee and the agencies it oversees. This is why 
the SPLC, along with Nebraska Appleseed and a total of fifteen civil 
rights and workers' rights organizations, filed a formal rulemaking 
petition with OSHA and the USDA on September 3, 2013 calling for these 
agencies to promulgate a clear, enforceable, and slower work speed 
safety standard in meat and poultry processing plants.2 We have yet to 
receive a formal response from either agency.
    We thank you for this opportunity to discuss our findings, the 
problems they pose, and possible solutions.
    [This statement was submitted by Tom Fritzsche, Staff Attorney, 
Southern Poverty Law Center, Immigrant Justice Project.]
                                 ______
                                 
               Prepared Statement of the Wildlife Society
    The Wildlife Society appreciates the opportunity to submit 
testimony concerning the fiscal year 2015 budgets for the Animal and 
Plant Health Inspection Service, National Institute of Food and 
Agriculture, Natural Resources Conservation Service, and Farm Service 
Agency. The Wildlife Society was founded in 1937 and is a non-profit 
scientific and educational association representing nearly 10,000 
professional wildlife biologists and managers dedicated to excellence 
in wildlife stewardship through science and education. Our mission is 
to represent and serve the professional community of scientists, 
managers, educators, technicians, planners, and others who work 
actively to study, manage, and conserve wildlife and habitats 
worldwide. The Wildlife Society is committed to strengthening all 
Federal programs that benefit wildlife and their habitats on 
agricultural and other private land.
               animal and plant health inspection service
    Wildlife Services, a unit of APHIS, is responsible for controlling 
wildlife damage to agriculture, aquaculture, forest, range, and other 
natural resources, monitoring wildlife-borne diseases, and managing 
wildlife at airports. Its activities are based on the principles of 
wildlife management and integrated damage management, and are carried 
out cooperatively with state fish and wildlife agencies. In fiscal year 
2015, the budget proposal includes funding to continue a national feral 
swine control program, working cooperatively with the States currently 
experiencing issues with feral swine. In recognition of the important 
work that Wildlife Services performs regarding methods development and 
wildlife damage management, we request that Congress support the 
President's request of $106 million to Wildlife Services in fiscal year 
2015.
    A key budget line in Wildlife Service's operations is Methods 
Development, which funds the National Wildlife Research Center (NWRC). 
Much of the newest research critical to state wildlife agencies is 
being performed at NWRC. In order for state wildlife management 
programs to be the most up-to-date, the work of the NWRC must continue. 
We recommend funding Methods Development at $19 million in fiscal year 
2015.
               national institute of food and agriculture
    The Renewable Resources Extension Act (RREA) provides an expanded, 
comprehensive extension program for forest and rangeland renewable 
resources. RREA funds, which are apportioned to State Extension 
Services, effectively leverage cooperative partnerships at an average 
of four to one, with a focus on private landowners. The need for RREA 
educational programs is greater than ever because of continuing 
fragmentation of land ownership, urbanization, diversity of landowners 
needing assistance, and increasing societal concerns about land use and 
increasing human impacts on natural resources. The Wildlife Society 
recommends that the Renewable Resources Extension Act be funded at $10 
million.
    The McIntire-Stennis Cooperative Forestry Program is essential to 
the future of resource management on non-industrial private forestlands 
while conserving natural resources, including fish and wildlife. As the 
demand for forest products grows, privately held forests will be 
increasingly needed to supplement resources obtained from national 
forest lands. However, commercial trees take many decades to produce. 
In the absence of long-term research, such as that provided through 
McIntire-Stennis, the nation might not be able to meet future forest-
product needs as resources are harvested. We appreciate the $34 million 
in fiscal year 2014 and urge that amount to be continued in fiscal year 
2015, per the President's request.
                 natural resources conservation service
    Farm Bill conservation programs are more important than ever, given 
the huge backlog of qualified applicants, increased pressure on 
farmland from biofuels development, urban sprawl, and the concurrent 
declines in wildlife habitat and water quality. The Natural Resources 
Conservation Service (NRCS), which administers many Farm Bill 
conservation programs, is one of the primary Federal agencies ensuring 
our public and private lands are made resilient to climate change. NRCS 
does this through a variety of programs that are aimed at conserving 
land, protecting water resources, and mitigating effects of climate 
change.
    One key program within the overall NRCS discretionary budget is 
Conservation Operations. The fiscal year 2015 request for Conservation 
Operations is $815 million. We urge you to provide $843.4 million for 
Conservation Operations, which includes Conservation Technical 
Assistance (CTA). Due to the General Services Administration's recent 
decentralization of responsibility for making building rental payments, 
the Natural Resource Conservation Service (NRCS) will for the first 
time have to make rental payments out of the Conservation Operations 
budget. NRCS expects to pay $28.6 million in rent in fiscal year 2015. 
When this change is taken into account, the Administration's request of 
$814.8 million for Conservation Operations would actually reduce the 
amount of funding available for conservation operations by $26.6 
million relative to fiscal year 2014.
    Conservation Operation's Technical Assistance (TA) sub-activity 
provides funding for NRCS to support implementation of the various Farm 
Bill programs. The fiscal year 2015 budget proposal recommends $717 
million in funding for TA, a slight increase from fiscal year 2014. The 
Wildlife Society encourages you to support funding for TA at $717 
million.
    Overall, The Wildlife Society believes strong support for TA 
delivery is needed. Implementing the changes in the 2014 Farm Bill will 
require significant conservation planning and producer education 
effort. In the 2014 Farm Bill, Congress showed strong support for the 
use of mandatory funds for TA, though these funds can only be used in 
association with a specific farm bill program. Appropriated funds for 
Conservation Technical Assistance are still essential for NRCS to 
provide good customer service and strong conservation results.
    The Wildlife Society also supports the continuation of funding for 
the Conservation Effects Assessment Project. Information gathered from 
this effort will greatly assist in monitoring accomplishments and 
identifying ways to further enhance effectiveness of NRCS programs.
    After several years of negotiations, Congress recently passed the 
Agriculture Act of 2014 with broad bipartisan support. This recently 
passed Farm Bill renewed a suite of extremely popular and effective 
conservation programs, but reduced mandatory funding by $4 billion. It 
is critical that Congress ensure that all of direct spending on 
conservation programs, as provided by the authorizing committees in the 
Farm Bill, can be spent as Congress intended in fiscal year 2015. The 
Wildlife Society recommends Farm Bill conservation programs be funded 
at levels mandated in the 2014 Farm Bill. Demand for these programs 
continues to grow during this difficult economic climate at a time when 
greater assistance is needed to address natural resource challenges, 
including climate change, soil quality deficiencies, declining 
pollinator health, disease and invasive species, water quality and 
quantity issues, and degraded, fragmented and lost habitat for fish and 
wildlife.
    We do have some concerns about the absorption of the Wildlife 
Habitat Incentive Program (WHIP), a voluntary program for landowners 
who want to improve wildlife habitat on their land, into the 
Environmental Quality Habitat Incentives Program, as mandated by the 
2014 Farm Bill. EQIP was funded at $1.374 billion in fiscal year 13 and 
the President's fiscal year 2015 request is $1.35 billion. While at 
least 5 percent of EQIP funds must go towards wildlife conservation, we 
remain concerned that this $88 million decrease in overall funding 
coupled with the additional program responsibilities due to the 
absorption of WHIP could translate into lesser emphasis on critical 
wildlife conservation efforts.
                          farm service agency
    The Administration's request would slightly reduce funding for the 
Conservation Reserve Program (CRP) to $1.957 billion in fiscal year 
2015. Lands enrolled in CRP are important for the conservation of soil 
on some of the Nation`s most erodible cropland. These lands also 
contribute to water quantity and quality, provide habitat for wildlife 
that reside on agricultural landscapes, sequester carbon, and provide a 
strategic forage reserve that can be tapped as a periodic compatible 
use in times when other livestock forage is limited due to drought or 
other natural disasters. We strongly encourage Congress to fund CRP at 
a level that fully utilizes program enrollment authority through CRP 
general sign-up.
    Thank you for considering the views of wildlife professionals. We 
look forward to working with you and your staff to ensure adequate 
funding for wildlife conservation.
                                 ______
                                 
            Prepared Statement of the World Food Program USA
    The World Food Program USA, on behalf of the world's hungriest 
people, urges the subcommittee to provide the strongest possible 
funding to US international food aid programs. Specifically, we request 
the following fiscal year 15 funding levels for three programs within 
the jurisdiction of the subcommittee:
  --Title II Food for Peace--$1.84 billion
  --McGovern Dole Food for Education--$209.5 million
  --Local and Regional Food Purchase program (LRP) newly authorized in 
        the 2014 Farm Bill--$80 million (full authorized level)
    There are 842 million hungry people in the world. Global hunger 
threatens US international economic and national security interests. 
Robust funding for the three United States international food aid 
programs described in this testimony is vital to preserving US 
leadership and encouraging other countries to contribute their fair 
share in the fight against global hunger. The Senate Appropriations 
Committee has been a leader over the years in ensuring adequate funding 
for U.S. food aid programs. We encourage you to continue that proud 
tradition of leadership for fiscal year 2015.
                             food for peace
    Food for Peace provides emergency food and development assistance 
to millions suffering from hunger and malnutrition. For the past 50 
years, Food for Peace (FFP) has been the primary vehicle for providing 
food aid in response to natural disasters, crises, and conflicts around 
the world. Maintaining robust funding for Food for Peace Title II and 
finding ways to stretch that funding further is imperative.
    While the United States remains the largest donor of global food 
assistance, the reach of U.S. food assistance has dramatically declined 
due to a sharp net drop of over a half billion dollars in Food for 
Peace programs since 2009. With the ongoing Syria crisis and emergency 
food requirements in Africa and parts of Asia, global need will likely 
increase in 2014 and 2015. Supporting FFP at $1.84 billion would allow 
the U.S. to reach approximately 50 million people with lifesaving food 
aid and maintain its global leadership.
    FFP programs are the foundation of global efforts to confront 
hunger and malnutrition. FFP includes emergency programs that keep 
people alive through natural disasters, conflict, and food security 
crises and nonemergency developmental programs that address underlying 
sources of chronic hunger through multiyear investments in nutrition, 
agricultural productivity and diversification of household incomes.
    The United Nations World Food Programme (WFP) is the largest US 
food aid partner, implementing programs that account for roughly 90 
percent of Food for Peace emergency food aid funding. WFP estimates 
$6.2 billion will be required to fund its 2015 emergency food 
assistance programs. Over $ 2 billion--about 1/3 of total WFP emergency 
needs--will be required just for the humanitarian crisis in Syria and 
Syrian refugees in neighboring countries. Needs will continue to 
persist across Sub-Saharan Africa, including Ethiopia, Sudan, Niger, 
Somalia, Kenya, Zimbabwe, Democratic Republic of Congo, and Chad, as 
well as in parts of Southwest Asia of interest to the US such as Yemen, 
Pakistan and Afghanistan.
    Food for Peace provides the bulk of funding for the US to 
contribute its historical average of about 30 percent of WFP emergency, 
relief, and recovery programs. Other countries provide over 60 percent 
of the annual contributions to WFP, which means that US food aid 
channeled through WFP helps leverage significantly additional 
international assistance.
  mcgovern dole international food for education and child nutrition 
                                program
    The McGovern-Dole International Food for Education and Child 
Nutrition Program provides U.S. agricultural products and technical 
assistance for school feeding projects in low income, food-deficit 
countries that are committed to universal education. The McGovern-Dole 
program provides school-age children in poverty-stricken countries with 
what is often their only full meal of the day and protects vulnerable 
children, especially during times of natural disasters and economic 
shocks.
    Serving food at school helps solve chronic hunger and can be life-
changing for the world's poorest children. School meals also help get 
students into the classroom, giving them an important key to a better 
future: an education. In areas where enrollment rates for girls are 
low, McGovern-Dole supported programs work with families and 
communities to make it possible for more girls to attend school. This 
sometimes includes giving girls take-home rations that encourage 
families to send daughters to school and also benefit younger children 
at home.
    Girls' education has a powerful ripple effect on families and 
communities. One study has shown that the more education girls have, 
the less likely their children will be malnourished. School meals can 
help break the cycle of hunger and poverty for the world's most 
vulnerable children.
    The UN World Food Programme calculates that $3.2 billion is needed 
per year to reach all 66 million primary school-age children that go to 
school hungry every day. While an investment of $209.5 million for 
school feeding represents a small fraction of overall global investment 
in school feeding programs by donor and host country governments, U.S. 
resources remain critical for low-income countries to continue school 
feeding programs. We urge the committee to fund the McGovern-Dole 
program at a level of $209.5 million in fiscal year 15.
              local and regional food procurement program
    We recommend fully funding the Local and Regional Procurement (LRP) 
Program which was newly authorized at $80 million in the Agricultural 
Act of 2014. Senate leadership in the 2014 Farm Bill conference was 
essential to authorizing this new program. We hope Senate appropriators 
will be equally visionary in funding the LRP program implementation.
    Rigorous analysis of the USDA Local and Regional Procurement (LRP) 
Pilot Project has shown that, compared with traditional U.S. food aid 
shipments, LRP practices typically enable both emergency and non-
emergency assistance to be delivered more quickly, at considerable 
savings, with the ultimate benefit of reaching larger numbers of 
vulnerable people. LRP also generates important developmental impacts 
by spurring local economic activity and helping form and strengthen 
local markets.
    The 2014 farm bill conference report's statement of managers 
affirms that the intent of LRP programming is to complement existing 
food aid programs, especially the McGovern-Dole Food for Education 
program. Linking the new USDA LRP program to the McGovern-Dole program 
improves the chances of long-term sustainability of school-feeding 
programs supported by McGovern-Dole. A fundamental objective of U.S. 
support to international school feeding is for countries to eventually 
take over, manage, and fund their own school-feeding programs. This 
means developing locally sustainable systems for the purchase and 
management of food used in school-feeding programs to move away over 
time from reliance on U.S.-donated commodities. U.S. support for LRP 
can help countries make that transition to national ownership. Funding 
the newly authorized LRP program would provide McGovern-Dole supported 
programs with an LRP option that currently does not exist.
    In order to encourage the link between the new LRP program and 
McGovern-Dole, WFP USA recommends the committee include the following 
language in its fiscal year 15 Appropriations bill report.
                       suggested report language:
    ``Funds appropriated for Local and Regional Procurement are 
expected to be used for programs and activities that complement the 
existing McGovern-Dole Food for Education program.''

    [This statement was submitted by Richard Leach, President, World 
Food Program USA]
                                 ______
                                 
        Prepared Statement of the U.S. National Arboretum (USNA)
increased financial support is necessary at the u.s. national arboretum
    The US National Arboretum (USNA), located in northeast Washington, 
DC, is part of the Agricultural Research Service, Beltsville Unit. The 
USNA conducts wide-ranging basic and developmental research on trees, 
shrubs, turf, and floral plants. It is also engaged in the development 
of new technologies for the floral and nursery industries. The Friends 
of the National Arboretum request funding sufficient to recover support 
lost to sequestration and other reductions over the past few years.
    Gardens are a signature feature of the USNA. Single-genus groupings 
include: azalea, boxwood, daffodil, daylily, dogwood, holly, magnolia, 
and maple. Major garden features include: aquatic plants, the Asian 
Collections, the Fern Valley Native Plant Collections, the Flowering 
Tree Collection, the Flowering Tree Walk, the Friendship Garden, the 
Gotelli Dwarf and Slow-Growing Conifer Collection, the Introduction 
Garden, the National Bonsai & Penjing Museum, the National Capitol 
Columns, the National Grove of State Trees, and the National Herb 
Garden.
    The budget for the Arboretum has steadily eroded over the past 
decade. The budget for the USNA prior to sequestration was $12.1 
million, nearly a million dollars below its highest level of funding. 
As a consequence of additional reductions, the current level of funding 
is about $11.1 million, requiring the facility to be closed to visitors 
during the week and making it impossible to sustain its full research, 
education, and visitor responsibilities. The Friends of the National 
Arboretum are requesting an increase in resources for USNA to enable it 
to restore its level of research and education, and become a premier 
visitor destination in the Nation's Capital.
         the arboretum contributes to the agricultural economy
    The USNA is an important facility for the USDA's fundamental 
missions of research and education on horticultural and nursery issues, 
and serves as an important tourism and visitor destination in the 
Nation's Capital. Nurseries and horticulture are major components of 
the national agricultural economy. According to the American Nursery 
and Landscape Association, the horticulture industry's production, 
wholesale, retail, and landscape service components have annual sales 
of $163 million, and sustain over 1,150,000 full and part-time jobs.
    To serve this industry, the USNA conducts a wide-ranging program of 
basic and developmental research on trees, shrubs, turf, and floral 
plants. The Arboretum is also engaged in the development of new 
technologies for the floral and nursery industries. The staff also 
participates in the development of plants with superior characteristics 
through a program of testing and genetic improvement. They are actively 
involved in the taxonomy and nomenclature of ornamental plants and 
their wild relatives. Finally, USNA staff are leaders in the collection 
and preservation of plant germplasm with ornamental potential.
    As a consequence of their work, the USNA has contributed 678 
official plant releases, eight patents and two EPA biopesticide 
registrations. In addition, USNA staff have published over 150 
scientific articles in professional and trade journals in the last 3 
years.
    An important aspect of the Arboretum's leadership role in 
horticultural research is its cooperative research relationships with 
land grant schools and associations across the country. Cooperative 
relationships exist with Alfred State University, Auburn University, 
Brooklyn Botanic Garden, Cornell University, Danforth Plant Science 
Center, Iowa State University, Michigan State University, National 
Turfgrass Federation, North Carolina State University, Oklahoma State 
University, Oregon State University, Rutgers University, Tennessee 
State University, University of Arizona, University of California, 
University of Connecticut, University of Florida, University of 
Georgia, University of Maryland, University of Minnesota, University of 
Missouri, University of Tennessee, University of Utah, University of 
Wisconsin, USDA Forest Service, US Golf Association, and Washington 
State University.
      the national arboretum has important education and visitor 
                            responsibilities
    USNA has an important role in public education about horticulture 
through symposia, lectures, workshops, and demonstrations plus plant, 
flower, and art exhibitions; In addition, the Arboretum has been a 
pioneer in urban gardening through the Washington Youth Garden (WYG), a 
program of FONA that has, for the past 40 years has inspired children 
and families to engage in self-discovery, explore relationships with 
food and the natural world, and contribute to the health and well-being 
of their communities.
    The USNA is part of the largest contiguous parcel of greenspace in 
Washington, DC, free to all and interesting through all of the seasons 
of the year. It offers a place for quiet contemplation and to explore 
nature in the backyard of the Nation's Capital. The Arboretum is also a 
significant visitor and tourist destination in Washington, with 
visitors making special trips to enjoy the National Bonzai Museum, the 
National Herb Garden, the Capitol Columns, the azalea and boxwood 
collections, and the Asia Collections. The USDA is currently working 
with the State Department and the Peoples Republic to build a 
traditional China Garden on the grounds of the Arboretum.
     fona urges the committee to provide more resources to the usna
    Budget cuts have reduced the ability of the Arboretum staff to 
provide adequate maintenance and upkeep on the grounds, has restricted 
valuable research programs, has restricted the educational role of the 
USNA, and has limited the days that the USNA is open to tourists and 
visitors.
    The Arboretum and FONA have completed a new strategic plan for the 
USNA that lays out a roadmap for achieving significant goals for 
research, education, and visitation. Progress on moving forward on this 
plan has stalled due to the budget cuts at the USNA.
    The Friends of the National Arboretum is a 501(c)(3) organization 
dedicated to working with the USDA and the USNA to achieve the goals 
embodied in the strategic plan through programs of ``friend raising'', 
fund raising, and advocacy.
    We respectfully request that Congress provide resources sufficient 
to enable the USDA and the USNA to advance the goals of the strategic 
plan, and to open the doors of the Arboretum to visitors for additional 
days each week.
    [This statement was submitted by Ms. Barbara Shea, Chair, Friends 
of the National Arboretum.]
</pre></body></html>
